<html>
<title> - HOUSING OUR HEROES: ADDRESSING THE VETERAN HOMELESSNESS CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


     HOUSING OUR HEROES: ADDRESSING THE VETERAN HOMELESSNESS CRISIS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, AUGUST 22, 2019

                     HELD IN OCEANSIDE, CALIFORNIA

                               __________

                           Serial No. 116-29

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-887                     WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    MIKE LEVIN, California, Chairman

KATHLEEN M. RICE, New York           GUS M. BILIRAKIS, Florida, Ranking 
ANTHONY BRINDISI, New York               Member
CHRIS PAPPAS, New Hampshire          JACK BERGMAN, Michigan
ELAINE G. LURIA, Virginia            JIM BANKS, Indiana
SUSIE LEE, Nevada                    ANDY BARR, Kentucky
JOE CUNNINGHAM, South Carolina       DANIEL MEUSER, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                       Thursday, August 22, 2019

                                                                   Page

Housing Our Heroes: Addressing The Veteran Homelessness Crisis...     1

                           OPENING STATEMENTS

Honorable Mike Levin, Chairman...................................     1
Honorable Gus M. Bilirakis, Ranking Member (No Opening Statemnet)     3
Honorable Mark Takano, Chairman, Full Committee on Veterans 
  Affairs, U.S. House of Representatives.........................     4
Honorable Scott Peters, Member, U.S.House of Representatives, 
  52nd District (CA).............................................     6

                               WITNESSES

Dr. Robert Smith, Director, San Diego VA Health Care System, U.S. 
  Department of Veterans Affairs.................................     8
    Prepared Statement...........................................    51

Mr. Hunter Kurtz, Assistant Secretary for Public and Indian 
  Housing, U.S. Department of Housing and Urban Development......    10
    Prepared Statement...........................................    57

Mr. Nathan Fletcher, Supervisor, County of San Diego, No prepared 
  statement......................................................    12

Ms. Ginny Puddefoot, Executive, Office for the California 
  Homeless Coordinating and Financing Council (On behalf of 
  Alexis Podesta)................................................    14
    Prepared Statement...........................................    61

Mr. Ron Stark, President, San Diego Veteran's Coalition..........    32
    Prepared Statement...........................................    62

Ms. Kimberly Mitchell, President and CEO, Veterans Village of San 
  Diego..........................................................    34
    Prepared Statement...........................................    63

Mr. Matt Schillingburg, Commander, American Legion Post 146......    36
    Prepared Statement...........................................    64

Mr. Greg Anglea, CEO, Interfaith Community Services..............    38
    Prepared Statement...........................................    66

Ms. Tamera Kohler, CEO, San Diego Regional Task Force on the 
  Homeless.......................................................    39
    Prepared Statement...........................................    69

                        STATEMENT FOR THE RECORD

National Coalition For Homeless Vets.............................    72

 
     HOUSING OUR HEROES: ADDRESSING THE VETERAN HOMELESSNESS CRISIS

                              ----------                              


                        Thursday August 22, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., 
Military and Veterans Affairs Resource Center, 2nd Floor 
Conference Room, 1701 Mission Ave, Oceanside, CA, Hon. Mike 
Levin, [Chairman of the Subcommittee] presiding.
    Present: Representatives Levin, Takano, Peters, and 
Bilirakis.

           OPENING STATEMENT OF MIKE LEVIN, CHAIRMAN

    Mr. Levin. Good morning, everybody. Thanks for being here. 
I call this hearing to order.
    I would like to request unanimous consent that Mr. Peters 
join us on the dais for this hearing. Hearing no objection, so 
ordered. Thanks for being here.
    I want to thank everyone for joining us this morning for 
today's field hearing of the House Veterans' Affairs Economic 
Opportunity Subcommittee.
    It is with great pride that I serve as chair of the 
Subcommittee and that I am able to bring Congress to my 
constituents, my district in Oceanside, California, today. For 
those coming from Washington, thanks for being here.
    I think you recognize why I love this district so much. I 
hope you get to enjoy the beautiful coastline while you are 
here.
    Our Subcommittee addresses many challenges for our Nation's 
veterans such as housing, homelessness, transitions to civilian 
life, higher education, and job training.
    Today, our hearing titled ``Housing Our Heroes: Addressing 
the Veteran Homelessness Crisis'' will examine how federal, 
state, local, and nongovernmental resources are working 
together to reduce veteran homelessness. We will also review 
how all of these important partners can better coordinate.
    Recently, I had the pleasure of meeting with VA Secretary 
Wilkie in my Washington office to discuss our collaboration on 
veterans' issues.
    He made clear his desire to send more resources to southern 
California and, specifically, to the 49th district because, and 
I quote the secretary, ``If you can solve veteran homelessness 
in southern California, you can solve it anywhere.''
    In 2009, the Department of Veterans Affairs committed to 
ending veteran homelessness by the end of 2015. There is no 
question that we have taken significant steps to get our heroes 
the services they need with, roughly, 50,000 fewer veterans 
experiencing homelessness than a decade ago.
    However, we have much work still to do before we meet our 
goal, especially in California, where 28 percent of our 
Nation's homeless veterans are located.
    There are a number of factors that make California unique: 
high cost of living, several military bases close to our urban 
centers, and a climate that is less taxing on everyone that the 
includes on homeless individuals.
    But while these factors contribute to homelessness, we are 
also a state and Nation with many resources. That means we have 
no excuse to fail those who proudly have served in uniform.
    This Congress and my Subcommittee has continued working to 
improve the variety of Federal programs that currently exist to 
support our homeless veterans. This includes permanent housing, 
transitional housing, prevention services, treatment, and 
employment programs at the VA, the Department of Housing and 
Urban Development, known as HUD, and the Department of Labor.
    HUD also offers some additional resources to local or 
regional planning organizations, also referred to as continuums 
of care.
    But, yet, homelessness and specifically veteran 
homelessness continues to persist. In addition to the testimony 
we will hear today, and we have got some fantastic witnesses, 
our Committee is currently reviewing a number of bills to 
address veteran homelessness and each of us has authored and 
worked together on these bills. It is important to know that 
they are being done in a bipartisan way as well.
    One of my bills, the Housing for Women Veterans Act, would 
ensure a portion of supportive services for veteran families 
grants go to organizations that have a focus on women veterans 
and their families.
    This program provides financial assistance, case 
management, and other services to low-income veterans who are 
residing in permanent housing or transitioning from 
homelessness.
    And I support two bills that my colleague, Mr. Peters, has 
introduced to improve the HUD-VASH program, which provides 
housing vouchers to our homeless veterans.
    Beyond these efforts, we are here to learn from you--from 
our witnesses, from those in the community, about how we can 
better support your work, and I am going to recognize my 
colleagues in just a second.
    But before I do that, I would like to say thank you to the 
staff who are here. Thank you to the staff who came out from 
the House Veterans' Affairs Committee.
    Thank you to the staff of our respective offices and thank 
you to our wonderful hosts here in North County and at the 
county of San Diego for opening your facility.
    Can we give all the staff a round of applause?
    [Applause.]
    Mr. Levin. So with that, I have got three of my friends and 
three great members to recognize and I would like to start with 
my friend, Gus Bilirakis, who is the Ranking Member on the 
Economic Opportunity Subcommittee from Florida. We are working 
together on a number of pieces of legislation, and with that, 
you have five minutes or as long as you need.
    Mr. Bilirakis. I won't take too long.
    Mr. Levin. All right.

     OPENING STATEMENT OF GUS M. BILIRAKIS, RANKING MEMBER

    Mr. Bilirakis. Thank you very much, Mr. Chairman. I 
appreciate it. It is great to be here in California and 
particularly in this part of the state and I will tell you your 
Member of Congress is doing an outstanding job.
    I am the Ranking Member of the committee. But I will also 
tell you that the Chairman is doing a great job--the Chairman 
of the full committee, Chairman Takano.
    Representative Peters and I serve on the Energy and 
Commerce Committee together and he is a great Member as well. 
But as far as the Veterans' Affairs Committee, it has been 
working for the most part in a bipartisan fashion and I credit 
these two gentleman for doing so.
    So we are putting our veterans first and putting aside the 
labels as much as possible.
    I thank all of you for joining us here today for this field 
hearing of this Subcommittee on Economic Opportunity of the 
House on Veterans' Affairs--the Committee on Veterans' Affairs.
    My name is Gus Bilirakis and not only is it a pleasure to 
serve as a congressman for the 12th Congressional District of 
Florida, which includes the Tampa Bay area--I think most people 
know where that is--but also to serve as the Ranking Member of 
this Subcommittee.
    Before we begin, I want to say what a pleasure it is to be 
here at the North County Coastal Military and Veterans Resource 
Center and thank my colleague and friend, of course, Chairman 
of the Subcommittee, Congressman Mike Levin, for hosting us 
today.
    It is great to work with a thoughtful legislator like Mike 
Levin on our continued goal to provide economic opportunities 
to veterans.
    The people of the 49th District are lucky to have him as 
one of their own and I will tell you that I believe that our 
Committee is a model for the rest of the House because we are 
actually getting things done for true American heroes.
    Today, we are here to examine and highlight programs and 
benefits that help combat veteran homelessness. There has been 
significant progress, as the Chairman stated, made nationwide 
in reducing homelessness among veterans.
    Several municipalities have even eliminated veteran 
homelessness altogether. While this is good news, as funding 
for homeless veteran programs at VA and the Department of Labor 
have reached record levels, we must ensure that we have a true 
picture of how this money is being spent.
    While I believe it is important to provide veterans with 
housing through VA's HUD-VASH housing voucher program, it is 
even more critical for the long-term success of these veterans 
that they also receive comprehensive wraparound services that 
help them find meaningful employment.
    Without helping veterans find meaningful employment, we are 
only providing homeless veterans temporary housing and not 
setting them up for positive long-term outcomes.
    The Homeless Veterans Reintegration Program administered by 
the Department of Labor is designed to provide homeless veteran 
providers with grant funds to provide job training programs.
    And while HVRP has been determined to be one of the most 
successful job training grant programs in the Federal 
government, I know there is always room for improvement.
    I am grateful to our witnesses for giving us an opportunity 
to hear directly from those on the ground and this fight 
against veteran's homelessness about what they believe works, 
what doesn't work, and how we in Congress can help combat this 
problem.
    Everyone here shares the common goal to ensure those who 
have worn the cloth of our country are never homeless. I also 
want to thank the staff, Mr. Chairman, on both sides of the 
aisle for doing an outstanding job and thank you for hosting. 
This is going to be very productive, this hearing.
    Once again, thank you, Mr. Chairman, for inviting me and 
hosting us today and I yield back the balance of my time.
    Mr. Levin. Thank you, Mr. Ranking Member.
    I now have the great honor to introduce the Chairman of the 
House Veterans' Affairs Committee, who is doing a tremendous 
job. He is a friend and a leader on veterans' issues and in 
Congress generally.
    We can debate whether San Diego or Riverside has the best 
veterans in the United States. But my friend, Mark Takano, is 
truly an exemplary leader in the House.
    Chairman Takano, for your opening statement.

   OPENING STATEMENT OF MARK TAKANO, FULL COMMITTEE CHAIRMAN

    Mr. Takano. Thank you, Chairman Levin, and I appreciate how 
you and the Ranking member, Mr. Bilirakis, have worked across 
the aisle to improve economic opportunities for our Nation's 
veterans.
    Mr. Bilirakis, I particularly congratulate you on the 
recent success on your adaptive housing bill. That was a 
victory not just for you but for all of us and we--and it is 
just an example of how whether you are a minority Member of the 
Committee or the majority we are moving legislation through to 
help our veterans and it does have to do with housing as well.
    Mr. Bilirakis. With your leadership, Mr. Chairman.
    Mr. Takano. Thank you. Thank you.
    And, of course, to my left is a tremendous member, a 
classmate of mine and somebody who has always had veterans at 
the core of his values and it is a--you know, I can't tell you 
what a pleasure it is to serve with Congressman Peters.
    And Congressman Levin, you have hit the ground running and 
this is such an important issue--addressing veteran 
homelessness.
    This field hearing is a testament to both the majority and 
majority's desire to come together and examine the negative 
trends affecting veterans.
    And veteran homelessness is one of the major issues we have 
to combat. The national--from the national perspective we have 
made tremendous progress. We really have. We have really cut 
down numbers of people who are veterans--of people who are 
homeless--veterans who are homeless.
    But in southern California the challenge remains 
persistently stubborn. We do our Nation's servicemembers who 
volunteered to fight for our Nation the opportunity to 
successfully transition out of the armed services and an 
opportunity to thrive in our community.
    When I became the chair of the full Veterans' Affairs 
Committee, I made decreasing veteran homelessness one of my top 
priorities. My work combating veteran homelessness did not 
begin in the 116th Congress.
    Improving the lives of veterans has been my passion since I 
was first elected and, in fact, five years ago when I was the 
Ranking Member of the Economic Opportunity Subcommittee, which 
is this very Subcommittee, we held a field hearing on veteran 
homelessness in Riverside, California.
    And since then, the county of Riverside has become the only 
county in California to functionally end veteran homelessness, 
according to the U.S. Interagency Council on Homelessness.
    Now, I want to be careful. It doesn't mean that there are 
no homeless veterans. It is a statistical concept of functional 
zero--achieving a functional zero.
    But nevertheless, I don't want to underplay the importance 
of this achievement. Although I would like to take full credit 
for this feat, it took the combined efforts of Congress, HUD, 
the Departments of Veterans Affairs, State, and local 
government and veterans service organizations and private 
partnerships to functionally end veteran homelessness in 
Riverside.
    And the good news is it can be done. It will take an all-
hands-on-deck approach to identify all veterans in the 
community experiencing homelessness and provide them with 
shelter and wraparound services in an expedited manner.
    I am heartened to see that the witnesses present today 
represent many of the key stakeholders that must come together 
to end veteran homelessness in Oceanside and throughout 
California throughout San Diego County.
    Now, make no mistake, we in California have a long road 
ahead of us. Over one-fourth of the Nation's veterans--homeless 
veterans reside in California and the state has seen a 17 
percent rise in homeless veterans from 2016 to 2018.
    So even as the national numbers have gotten better, the 
numbers here in California have gotten worse. We understand 
that veteran homelessness is a complicated issue and that jobs 
and education are part of the solution but not the whole 
solution.
    We must look at veterans holistically and establish 
correlations between mental health, substance abuse, single 
parent status, rank, discharge status, as well as other 
indicators with homelessness in order to best utilize our 
resources.
    We know that not all homeless veterans are on the street 
and in shelters so we must improve our methodology for 
identifying and counting homeless veterans and we must continue 
to improve services for homeless veterans with dependents.
    We must look to new models for providing HUD-VASH vouchers 
to homeless veterans and, potentially, incentivize landlords to 
take more vouchers and we must also intervene before veterans 
are in crisis.
    To do these things we will need the commitment of all those 
in the room and I look forward to working with colleagues on 
both sides of the aisle and everyone else here today to curtail 
veteran homelessness.
    Again, Chairman Levin, I appreciate the opportunity to make 
a few comments and I look forward to the testimony today.
    Mr. Levin. Thank you, Chairman, for your great leadership 
and I think the Ranking Member said it well. You know, we are 
working together and we are getting things done.
    I know in our Subcommittee we have gotten a number of bills 
through Subcommittee, through full committee, and passed in the 
House and a number of them already signed into law. So if 
anybody ever thinks that nothing is happening in Washington, if 
you only are watching, you know, cable news they don't always 
cover this stuff.
    But we are getting really important things done and nowhere 
is that more evident than our veterans and it is only possible 
with the leadership of Chairman Takano.
    With that, I would like to introduce my friend, 
Representative Peters, for his opening statement. Scott has 
been a great mentor.
    You know, when you get to Washington, nobody tells you how 
you set up your district office and how you actually have a 
good operation, and Scott and his team were incredibly gracious 
with us to make sure that we had a really great district office 
operation.
    He is a great leader on the Energy and Commerce Committee 
and we are working together on a number of areas that are of 
regional importance to greater San Diego, and that certainly 
includes veterans where Scott is leading some really important 
initiatives.
    So with that, I will turn it over to my friend, 
Representative Peters.

               OPENING STATEMENT OF SCOTT PETERS

    Mr. Peters. Thank you, Chairman Levin, and thanks to 
Ranking Member Bilirakis for joining us today from Florida, 
Chairman Takano making the trip from Riverside. It is great to 
have you here.
    If you represent the county of San Diego where we have over 
235,000 veterans--I think one of the largest communities in the 
country--you are going to work on veterans issues.
    Last term I was--last Congress I was able to be a Member of 
the Veterans' Committee. I am not on the Committee this 
Congress but I appreciate your letting me waive in and sit with 
you today because this is of critical importance to my 
constituents and the entire region.
    It is a shame that we have veterans living on the streets 
in San Diego. I am proud of the progress we have made 
nationally over the last decade.
    California is still challenged. But San Diego actually has 
seen some progress. And so I want to--I think we ought to 
recognize that. We have a long way to go.
    But there is a lot of people in here from government 
agencies and nonprofits who have been working pretty hard who 
deserve some thanks for that.
    I worked to end veteran homelessness while in Congress. I 
think it is important to note also that homeless veterans are 
twice as likely to take their own lives as veterans who are 
housed.
    Another issue that we have with veteran suicide it is 
important--an important aspect of that is with respect to 
homelessness.
    I have, as was mentioned, worked to support and improve the 
HUD VA Supportive Housing, or the VASH voucher program, and 
earlier this year we secured commensurate VA case management 
funding to make sure that any increase in funding for vouchers 
is met with equivalent funding for supportive services.
    And recently I have introduced two bills, both of which 
have passed this committee. The first allows veterans with 
other than honorable discharges to receive these housing 
vouchers in support of services from the VA and the other 
second bill will direct HUD and VA to look at how best to serve 
homeless veterans in high-cost housing markets like we have 
throughout California and, specifically, in San Diego.
    I won't replay the bipartisanship comments except to say 
that I think it is true that veterans--the Veterans' Committee 
is the most bipartisan forum in Congress.
    I think that is a credit that has to do with the fact that 
we know we are all pulling together. We don't have a lot of 
enemies in that space.
    But I do want to say thank you to the Veterans Service 
Organizations. The VSOs provide a tremendous amount of guidance 
from the veteran's community itself to help us make sure we get 
it right and to call us out on both sides of the aisle when we 
are not getting it right. And so we want to thank you for that.
    And I just also want to thank the folks from the VA from 
Washington and locally for the work that you do. It is not 
easy.
    Sometimes Congress doesn't make it easy on you. But the 
work is very important and thank you for being here and for 
what you do.
    And with that, I yield the rest of my time.
    Mr. Levin. Thank you, Representative Peters.
    I want to echo the thanks to all of those from the VSOs 
that are here. This hearing today doesn't substitute for the 
ongoing dialogue that we have with you.
    You inform the work that we do in Washington and we 
encourage you to continue working with us and to, you know, 
work with our district staff.
    In our district office we have got a veteran, Andy Ortega, 
who is here somewhere. You can raise your hand, Andy.
    So if anybody has complaints you can direct--no, I am 
kidding.
    [Laughter.]
    Mr. Levin. But no, we are here--we are here to help, and we 
do a ton of veteran's case work out of our Oceanside office. So 
very grateful for that work.
    We have got a really terrific first panel with some real 
leading experts locally and I would like to just very briefly 
introduce everybody.
    First is Dr. Robert Smith, the director of the San Diego VA 
health care system, doing an outstanding job serving our 
veterans here locally. I am grateful for the opportunity to 
have gotten to see what you do firsthand.
    I am grateful for you being here this morning for all you 
do for our veteran community.
    Assistant Secretary Hunter Kurtz, thanks for coming out 
from Washington. You join us from the U.S. Department of 
Housing and Urban Development where you oversee the Public and 
Indian Housing program. Thanks for being here.
    My friend, San Diego County Supervisor Nathan Fletcher, you 
are a true leader in our community. I am grateful to work with 
you on a whole host of issues.
    Thank you also for your service in the Marine Corps and 
thank you for everything you have done specifically on the 
issue of veteran homelessness in San Diego.
    And finally, Ms. Ginny Puddefoot, executive officer of the 
California Homeless Coordinating and Financing Council.
    Thank you for being here. Appreciate it very much. Great 
panel. Want to get right to it. All of you will have five 
minutes. Your full statement will be added to record.
    But with that, Dr. Smith, you are now recognized for five 
minutes.

                   STATEMENT OF ROBERT SMITH

    Dr. Smith. Good morning, Congressman Levin--excuse me, 
Chairman Levin, Chairman Takano, Ranking Member Bilirakis, and 
Congressman Peters.
    Thank you for the opportunity to testify today on the topic 
of veteran homelessness, the challenges faced by homeless women 
veterans, and the risk factors and unique challenges faced by 
homeless veterans with respect to nutrition, employment, and 
criminal justice.
    The VA San Diego San Diego health care system serves 
veterans throughout San Diego and Imperial Counties. Our 
facilities include the medical center in La Jolla, community 
clinics throughout the region, and the Aspire Center--a unique 
residential treatment program for PTSD and mild TBI.
    In 2018, we provided care for approximately 85,000 veterans 
through nearly 1 million outpatient visits including 
approximately 110,000 visits conducted at the Oceanside clinic.
    As a complexity 1-A health care system, we provide a wide 
array of medical, surgical, mental health, and advanced 
rehabilitation services.
    The January 2019 point in time count reported a total of 
8,102 homeless individuals of which 1,068, or 13 percent, 
identified as veterans. Of those, 624 were sheltered and 424 
were unsheltered.
    The total number of homeless veterans in the region 
decreased by 18 percent from 2018 and the unsheltered veteran 
count decreased by 35 percent, and I would like to compliment 
my staff as well as our community partners on their efforts to 
make that occur.
    Since 2011, the overall number of homeless veterans in the 
region has decreased by 35 percent. The same 2019 count 
identified 483 homeless individuals in the city of Oceanside. 
We estimate that 63 of those are veterans.
    VA San Diego currently has 97 staff within the various 
homeless programs, including fifty-two and a half who are 
assigned specifically to HUD-VASH. We have 1,824 HUD-VASH 
vouchers allocated and 1,411 veterans are permanently housed 
using those vouchers.
    Our staff connect homeless veterans to a wide variety of 
services including the HUD-VASH program, grants and per diem 
programs, and adjunctive programs such as supportive services 
for veteran families, rapid rehousing, and homeless prevention.
    The team manages an array of homeless veteran outreach 
programs through street and clinic-based services. These 
include staff assigned to the Veterans Bridge Shelter, our 
justice outreach program, or field work with community 
partners.
    Identification of homelessness is also embedded in our 
primary care and mental health programs where veterans 
receiving care are regularly screened for homelessness or risk 
factors for homelessness.
    VA San Diego enjoys a robust relationship with our 
community partners. Our staff serve on the Regional Task Force 
on the Homeless and collaborate with coordinated entry system. 
Our homeless program director chairs the monthly meetings of 
the Regional Veterans Consortium, which includes providers and 
community partners seeking to end veteran homelessness.
    Our homeless program and suicide prevention staff 
collaborate with our community partners to provide training and 
to assure that case management staff can address the needs of 
veterans in crisis.
    They meet regularly to discuss and develop treatment plans 
for high-risk veterans. Our homeless veteran's community 
employment services program connects veterans to local 
employers and assist veterans through individual and group 
services to access competitive employment.
    The 2019 point in time count also identified 83 homeless 
women veterans. Providing service and support to homeless women 
veterans is a priority for us. We provide services to women 
veterans in the grant and per diem programs including those 
located at Interfaith Community Services in Oceanside and 
Veterans Villages of San Diego, or VVSD.
    The local Veterans Bridge Shelter operated by VVSD provides 
dedicated shelter beds to women veterans. VA San Diego staff 
have close relationships with the shelter and assist with 
immediate referrals for women veterans.
    Our homeless program staff collaborate closely with our 
women's veteran programs overall to provide access to tailored 
health care services.
    We have approximately 10,000 women veterans currently 
enrolled with us and we provide a full range of services 
including dedicated women's health providers in all of our 
community clinics, gynecological specialists on staff, and 
strong maternity care programs through our DoD partners and the 
community, as well as any needed mental health services 
including military sexual trauma and intimate partner violence 
prevention programs.
    Food insecurity among veterans is also a priority for us. 
VA San Diego partners with the San Diego Food Bank and other 
community agencies to address the needs of veterans. VA San 
Diego is committed to providing the high-quality care our 
veterans have earned and deserve.
    We continue to improve access and services to meet the 
needs of all veterans. We are committed to working with our 
community partners to end homelessness among veterans.
    We support all efforts to increase homeless veteran HUD-
VASH prioritization eligibility. We appreciate the opportunity 
to appear before you today and the resources Congress provides 
the VA to care for veterans.
    Mr. Chairman, this concludes my testimony. I am prepared to 
respond to any questions you may have.

    [The prepared statement of Robert Smith appears in the 
Appendix]

    Mr. Levin. Thank you, Dr. Smith. I appreciate that.
    Assistant Secretary Kurtz, you are now recognized for five 
minutes.

                  STATEMENT OF R. HUNTER KURTZ

    Mr. Kurtz. Good morning. Thank you, both Chairman, Ranking 
Member, and Congressman Peters for this opportunity to discuss 
the Department of U.S.--I am sorry, the U.S. Department of 
Housing and Urban Development's efforts to end veteran's 
homelessness.
    This is actually my first hearing since I have been 
confirmed and I can't think of a better issue to have that be.
    HUD is committed to ending veteran homelessness by working 
collaboratively with our partners in maximizing the 
effectiveness of all existing resources.
    Since 2010, there has been an overall decline of 49 percent 
in veteran's homelessness and to date 77 communities and three 
states have effectively ended veteran's homelessness.
    Thanks to funding from Congress and close collaboration 
among Federal and local partners, the Nation continues to make 
progress in reducing veteran's homelessness and creating 
sustainable Federal and local systems that quickly respond to 
veterans' housing needs in the future.
    I am honored to serve as HUD's assistant secretary for 
Public and Indian Housing, the office that administers the HUD 
Veterans' Affairs Supportive Housing program, or HUD-VASH.
    In the HUD-VASH program, local housing authorities and 
local VA medical centers work collaboratively to provide homes 
and critical services to some of the most vulnerable veterans.
    I am a houser at heart and I can attest that this program 
has been successful in providing home--at providing a home, not 
just a house, to our Nation's veterans.
    The HUD-VASH program has been a very successful tool in 
addressing veteran's homelessness. Since 2008, HUD has awarded 
over 97,000 HUD-VASH vouchers to PHAs across the country. These 
vouchers have helped over 174,000 veterans move into housing.
    There are currently over 76,000 veterans that are in 
housing due to HUD-VASH vouchers. This partnership between HUD 
and the VA has been a model of interagency collaboration, both 
at the headquarter level and on the ground.
    Currently, the housing authorities in California who 
administer VASH vouchers are providing housing opportunities to 
15,000 formerly homeless veterans.
    In Los Angeles County, there are 6,540 homeless veterans 
counted in 2009. This latest point in time count has 
demonstrated a reduction of 41 percent in veteran homelessness 
from a decade ago.
    Local agencies such as the San Diego Housing Commission 
continue to engage in collaborative efforts with their local 
partners to seek innovative solutions to address homelessness.
    The restoration of the Hotel Churchill, a historic landmark 
hotel located in the heart of downtown San Diego, is one such 
example of the life changing results that come out of locally-
based collaborations.
    Built in 1914, the Hotel Churchill had become a vacant and 
abandoned property when the SDHC acquired it in 2011. After a 
$20.6 million restoration and rehabilitation, the Hotel 
Churchill became repurposed as a 72-unit affordable permit 
supportive housing development with 56 of those units dedicated 
to formerly homeless veterans.
    Residents of the Hotel Churchill receive on-site supportive 
services including mental health, social and recreational 
services, and life skill courses, all to ensure their long-term 
success.
    In Los Angeles County, which has the largest VASH 
allocation nationwide, PHAs are engaging in a number of 
collaborative efforts to meet the serious challenges of 
operating with an extremely high cost rental market.
    These include inter-jurisdictional agreements between PHAs 
to eliminate delays caused by portability and expand housing 
choice for veterans, adopting a standard PHA application form 
to reduce confusion for veterans and VA case workers, and 
working with local and county government to support landlord 
outreach incentive programs.
    HUD and the VA are currently focused on changes to the 
allocation of new HUD-VASH voucher and supporting PHAs in their 
effort to improve utilization.
    For example, HUD made changes to the eligibility criteria 
for the FY 2019 HUD-VASH allocation, only awarding additional 
HUD-VASH vouchers to those PHAs utilizing their existing 
resources.
    HUD believes it is critical that all existing HUD-VASH 
resources are being used as efficiently and effectively as 
possible to serve the maximum number of veterans across this 
country.
    A great deal of progress has been made over the years in 
the way HUD works with other agencies to address veteran's 
homelessness.
    The HUD-VASH program continues to be a model of interagency 
collaboration and one of the best tools for ending veteran's 
homelessness.
    We must continue to find ways to maximize the effectiveness 
of the HUD-VASH program while also assisting communities in 
utilizing all available homeless assistance resources.
    Thank you very much for this opportunity to discuss HUD's 
efforts to end veteran's homelessness and the improvements we 
are making to our program to achieve success.
    Thank you all.

    [The prepared statement of R. Hunter Kurtz appears in the 
Appendix]

    Mr. Levin. Thank you, Secretary Kurtz, and I think we all 
look forward to working with you and with HUD in the months 
ahead. Appreciate your coming out, being here.
    With that, I would like to recognize Supervisor Fletcher 
for five minutes.

                  STATEMENT OF NATHAN FLETCHER

    Mr. Fletcher. Thank you, Mr. Chairman. I appreciate you 
having this hearing and having us here. I think you and I share 
the distinction of the elected officials in the room. We have 
the least seniority of anyone.
    We are the baby elected officials, having just been elected 
the last time.
    But I say that because I appreciate our first conversation 
we had post-election. You said, ``What can I do to help our 
veterans?'' This is an important issue and I joined you in your 
town halls on this issue and I appreciate you having this.
    And Chairman Takano, thank you for your work on deported 
vets. I know for many years we worked together on that, and 
appreciate that.
    And then to my local member, Mr. Peters, thank you. I know 
for many, many years you have been standing up for us in San 
Diego and for decades, in fact, going back. And so we are 
incredibly grateful for that.
    Mr. Bilirakis, welcome to San Diego. We appreciate you 
being here. Spend lots of money.
    [Laughter.]
    Mr. Fletcher. The weather is nice and we are very grateful 
for you making the time on this issue.
    I just want to touch on, briefly, in addition to being a 
member of the county Board of Supervisors, I sit on the 
Regional Task Force on Homeless on the board there where we 
work on these issues, and the governor recently asked me to 
join a statewide homeless in support of housing task force.
    Our first hearing is next month. And so we spend a lot of 
time addressing these issues and I think we all share the same 
commitment and, certainly, as someone who served--I spent 10 
years in the Marine Corps--it is always striking as a society 
that if we have the moral authority to send young men and women 
to war, then we have the moral obligation to care for them when 
they come back.
    And as a society if we don't want to put forward the 
efforts at all levels of government to do that, then we can 
stop making combat veterans.
    But given there is always the funding available to fund the 
making of them, I appreciate the commitment to find the funding 
to make sure we take care of them on the back end.
    I think a lot has been said. You know, in San Diego we have 
almost a quarter of a million veterans. About 10 percent of our 
region's Active duty transition out every year, and has been 
talked about there is issues surrounding the high cost of 
housing.
    There are issues surrounding the stigma of post-traumatic 
stress, the stigma of mental health injury, which often 
precludes veterans from getting the care that they need, and 
that provides a compounding situation which leads us to the 
point where we have homeless veterans despite tremendous effort 
and tremendous resources being put forward.
    And I just want to tackle one issue just quickly on the 
issue of behavioral health and mental health care, which is one 
of the largest things that stops veterans from getting it is 
the stigma.
    The VA provides incredible care. I am the greatest possible 
fan of the VA. I get care at the VA. I have never had a bad 
experience at the VA. I don't know veterans who have had bad 
experiences at the VA.
    The problem is getting veterans to go to the VA and ask for 
care that they don't want anyone to know they have, which goes 
into the stigma issue, and if we don't tackle that then the 
veterans won't access the available services.
    Their untreated mental health issues will lead to self-
medication, often via substance abuse, which will then trigger 
a downward spiral into the issue of homelessness. And so I 
think that is a really important point.
    And I think efforts to counter any movement to try and 
privatize or outsource the VA are critical because that is a 
safe place for us to go.
    We get culturally competent care from people who care about 
us and understand us and I think the integrity of that needs to 
be maintained.
    The VASH voucher is the lifeline and the Federal 
government's commitment to that is essential and I am very 
appreciative to Congressman Peters and Mr. Levin for 
introducing legislation to protect that funding. Efforts to 
siphon money off for other areas are things that can't go.
    And then a critical point, which was mentioned earlier, is 
making sure it is not just the VASH voucher; it is the case 
management that goes with it. We don't want to just shelter or 
warehouse people. We want them to get on a path to being 
better.
    One of the challenges we have in the local entity is how do 
we get landlords to be willing to accept us. We have an 
indescribably expensive rental market in San Diego County, 
which is compounded by a variety of factors.
    At the state we are looking at things we might do to try 
and control the rents. But we are launching landlord assistance 
programs through the county.
    We are providing leasing bonuses, application expenses, 
damage claim reimbursements, security, utility deposit 
assurances to try and get landlords to do their job, to accept 
those vouchers, and I will certainly--am open to any form of 
incentive or encouragement or perhaps pressure to try and make 
sure that we can do that and that is something, certainly, that 
is on us to try and tackle.
    And then I think there is a variety of other areas that we 
can get into where we have to do more. Certainly, TBI is an 
issue, not just PTS. San Diego County does not have a memory 
care veterans in nursing homes.
    The state of California funds several of those in other 
areas--San Joaquin Valley, Sacramento Valley, West Los Angeles, 
Napa Valley.
    We have the Chula Vista Veterans Home but it doesn't 
provide specific services for those who are suffering from 
dementia and we know that TBI often leads and triggers into 
those issues.
    And so that is an area where we not only work with the 
Federal government but with the state government as well to see 
what else we may be able to do.
    But I am incredibly grateful for this hearing and 
incredibly grateful for all of you as a veteran that you care 
and that you take the time to work on these.
    So thank you very much.
    Mr. Levin. Thank you, Supervisor. We are grateful for you 
leading the way.
    With that, I would like to recognize Ms. Puddefoot for five 
minutes.

                  STATEMENT OF GINNY PUDDEFOOT

    Ms. Puddefoot. Thank you.
    Good morning. My name is Ginny Puddefoot and I am the 
executive officer of the California Homeless Coordinating and 
Financing Council.
    The Council is under the California Business, Consumer 
Services, and Housing Agency, and is chaired by Alexis Podesta, 
the Secretary of the Agency.
    The California Department of Veterans' Affairs--CalVet--is 
represented on the Council by Undersecretary Russell 
Atterberry, who, until January 2019, served as Vice Chair of 
the Council.
    First, I would like to give you a few facts and figures 
about homelessness and veterans homelessness in California. 
California, as you know, has 39= million residents, or about 12 
percent of the Nation's population.
    But it has 25 percent of the Nation's homeless--over 
130,000 people--and I do want to point out that is based on the 
2017 Point-in-Time count. We know the numbers have gone up 
since then.
    We have the largest number of veterans of any state, about 
2 million. That is about 8= percent of the Nation's veterans. 
But we have about 28 percent of the Nation's homeless veterans, 
roughly 11,000.
    The homeless Point-in-Time count--well, the 2019 count 
occurred earlier this year. While the final numbers from HUD 
won't be available until the fall, the vast majority of local 
reporting agencies are reporting increases in their homeless 
populations.
    In contrast, we have seen progress in reducing veterans' 
homelessness. For example, Los Angeles County has reported an 
overall increase of 12 percent in its total number of homeless 
but reported a slight drop in the number of homeless veterans 
since 2017.
    I know we are in San Diego. I do also, though, want to 
acknowledge our neighbor to the north, as Chairman Takano did, 
in being the first county in California to achieve functional 
zero when it comes to the number of homeless veterans.
    That means that homelessness among veterans in Riverside 
County is rare, brief, and nonrecurring, and no veteran is 
forced to live on the street.
    There is, clearly, still a tremendous amount of work to do 
in addressing homelessness in general and veterans' 
homelessness specifically. Some of that work is underway 
throughout the state.
    In 2014, California voters approved Proposition 41, which 
created the Veterans Housing and Homelessness Prevention 
Program and provided $600 million to fund it.
    It provides new affordable housing for veterans and their 
families with an emphasis on developing housing for veterans 
who are homeless or at risk of homelessness.
    It places a priority on projects that combine housing and 
supportive services and encourages and fosters innovation--
innovative financing by leveraging public, private, and 
nonprofit fiscal resources.
    The funding is administered by CalVet and the Department of 
Housing and Community Development in close consultation with 
the California Housing Finance Agency.
    To date, 17 projects comprising 546 units have been 
completed and are currently occupied by veterans. Another 47 
projects comprising 1,772 units are in the pipeline.
    Last year voters passed another ballot measure, Proposition 
1, the Housing Programs and Veterans Loan Bond. Proposition 1 
authorized $4 billion in bonds, including $1 billion for the 
CalVet home loan program.
    The CalVet home loan program provides loans with below 
market interest rates with low or no down payment requirements. 
Nearly all California veterans are eligible for this program.
    The voters also approved Proposition 2, which allows 
revenue from 2004's Proposition 63 to be utilized for housing 
programs. Specifically, this funding will fund the No Place 
Like Home program, which provides $2 billion in funding for 
development of permanent supportive housing for people who are 
in need of mental health services and who are experiencing 
homelessness, chronic homelessness, or who are at risk of 
chronic homelessness, and the process for getting that money 
out the door is underway.
    More immediately, in the 2018 and 2019 Budget Acts a total 
of $1.1 billion was appropriated to provide flexible block 
grant funding to local jurisdictions, specifically, the largest 
cities, all of the counties, and the 44 Continuums of Care.
    These funds are designed to provide short-term assistance 
to local jurisdictions until the longer-term programs are 
online. It can be used for a variety of services, including to 
address veterans' homelessness.
    Thank you very much for the chance to participate in this 
hearing this morning.

    [The prepared statement of Ginny Puddefoot appears in the 
Appendix]

    Mr. Levin. Thank you for being here. Thanks to everybody 
for their opening statements. I would now like to recognize 
myself for five minutes to begin the questioning and I would 
like to begin with Supervisor Fletcher.
    I want to thank you again for your service to our country 
and now your service on the Board of Supervisors as well as 
your time in the state legislature and particularly on the 
clear and pressing issue that we are talking about today--
veteran homelessness.
    And I was wondering, before we dive into specific solutions 
we will be hearing from a lot of people as well on the second 
panel who are out there in the field working on these issues 
every day.
    Could you paint a picture for the hearing record and for 
our benefit of the current state of veteran homelessness as you 
see it in San Diego and anything we should know about the 
veteran population that is homeless?
    Mr. Fletcher. No, thank you for that.
    I think when we look at--you know, a number of folks have 
alluded to kind of recent numbers and kind of point in time 
count.
    In that--in that recent point in time count, which is just 
a snapshot--it is not a total picture. It doesn't encapsulate 
the entirety of the problem. It is one morning and one day.
    We identified in that 1,100 people who identified--who were 
identified as veterans.
    Now, out of those, 653 were in a shelter. So they were 
sheltered and they were housed and they were covered. Four 
hundred and forty-eight were unsheltered.
    That is a 32 percent decrease from the point in time count 
the year before and there is other data that suggests in San 
Diego County it is going down and getting better.
    I think, from my perspective and where I sit, I think the 
biggest challenge that we face, again, is getting landlords who 
are willing to accept those VASH vouchers.
    We just got some--we have a ad hoc measurements committee 
at the RTFH where we are really looking at system metrics of 
how we could hold ourselves accountable for what we want, and 
the number of veterans who have a voucher but are not utilizing 
that voucher is of great concern to me because that is where 
you all are doing your job to provide the resources and provide 
the funding and we have to do our job to do that.
    Now, again, you know, I alluded to the fact that the rental 
market is incredibly tight. We have NIMBY challenges in terms 
of siting new facilities and siting new housing. We have a 
challenge with app-based home rental.
    We have vacancy issues with foreign wealth funds buying 
floors in new towers. We have a lot of things that are 
contributing to that.
    But we have to find a way to crack this nut to make sure 
that that veteran who has that voucher has a place to go 
because when we have challenges in general in homeless we don't 
have similar programs where someone will pay to house somebody, 
and so this ought to be the easiest problem to solve.
    And so that is where I think we have to move swiftly to 
identify available land to build housing. At the county we are 
doing an inventory of all of our housing in my district. We 
have multiple projects going.
    We have 404 units going in Claremont. We are doing 
somewhere between 120 and 160 units in downtown where we take 
government-owned land and build, and then provide the services.
    And then I just want to go back and really tackle or really 
highlight, Mr. Chairman, what I think is a really important 
component, which is when we talk about the epidemic of veteran 
suicide, the most common refrain you see in the debate is, 
well, fix the VA.
    Well, I have already alluded to we could always make it 
better. We always can make everything better. But if you read 
the actual studies and the information you will see that 
somewhere north of 80 percent of veteran suicide never called 
the VA.
    They never called the VA, and had they called the VA they 
would have got world-class care. The reason they didn't call is 
because of the stigma associated with it.
    So if you think about in our society two Marines are in 
combat side by side, one gets nicked with shrapnel--no scar, no 
lasting impact, right--they get a medal and we honor them for 
their sacrifice.
    The veteran right beside him has devastating post-traumatic 
stress from the exact same combat experience and they don't get 
anything. We, as a society, still have a stigma around the 
unseen wounds of war that is preventing veterans when they 
transition out from getting help.
    Getting that help is what will keep them housed and keep 
them employed and keep them in a life of purpose. And so we 
have to deal with the downstream issue of those who are 
suffering.
    Get them substance abuse treatment. Get them mental health 
treatment. The efforts to help those regardless of their 
discharge status is vital and we got to get landlords to 
accept.
    We got to site more housing to get those services there. 
But I really think tackling the stigma on the front end is a 
national issue that is of paramount importance because, again, 
in so many populations the problem we have is they don't have 
access to behavioral services.
    Veterans have access to the services. We just got to get 
them to ask for it. And so I just think that is a really 
important component as well.
    Mr. Levin. Thank you. I really appreciate that, and I have 
questions for all the rest of you as well. So if it is okay 
with my colleagues we will go ahead and do two rounds for this 
panel before we move on to the second panel.
    So with that, I would like to recognize the Ranking Member 
for five minutes of questioning.
    Mr. Bilirakis. Thank you. Thank you. Appreciate it very 
much and I want to thank the panel.
    From your point of view at the local level, what is the one 
message or need that we need to take back to Washington that 
would make your job easier or would reduce homelessness among 
veterans? I think that is the bottom line. Why don't we start 
with you, sir, if you don't mind?
    Dr. Smith. Thank you for that question, Congressman 
Bilirakis. I think I would say affordability may be the one 
word. Our biggest challenges, as Supervisor Fletcher said, is 
often in finding affordable housing for the veterans that need 
it.
    Certainly, I think there are other challenges in reaching 
out to veterans and making them come forward, becoming aware of 
all of them. But that would probably be the single largest 
challenge.
    Mr. Bilirakis. Can I ask you a question, again, for the 
panel and I know--I want everyone to answer the first question.
    But why do you think we have a high percentage of homeless 
veterans here in California as opposed to some of these other 
states? Is it the climate? Are they natives or do they move 
here? Is it because of the cost of living?
    Why do you think that is the case? Because it sounds like 
you guys are doing--and gals are doing a great job, and I know 
we have the funding.
    We can always increase the funding, put an emphasis on 
veterans with HUD as well, which, you know, I would like to ask 
that question. But, yeah, what do you think, Mr. Smith? What do 
you think, Dr. Smith?
    Why do you think there is such a higher percentage here in 
California? I know we have more veterans here in California. 
There is no question. I think--I remember Florida is number 
three but California is number one with regard to vets.
    Dr. Smith. I would probably say, Congressman, yes to all of 
your suggestions. I think it is multi-factorial. It is the 
climate.
    It is the fact that San Diego and southern California is 
welcoming to veterans. I think there is at times economic 
opportunities here that people seek.
    California is often viewed as the land of opportunity and 
many veterans have served in southern California at different 
times and remember the area fondly.
    So they may come back here seeking services and there is a 
reputation that we and others have of providing help to them so 
they may be coming seeking help as well.
    Mr. Bilirakis. Okay. Yes, sir?
    Mr. Kurtz. To your first question --
    Mr. Bilirakis. Yeah. Yeah. That would be fine.
    Mr. Kurtz [continued].--I would say--I would start off with 
that we also have a program, the Tribal HUD-VASH program, that 
deals with Native American populations and that has not been 
permanently authorized.
    On the second question, I would say, you know, probably--as 
Dr. Smith said, sort of yes to everything but definitely 
affordable housing issues as well as--this is my first time in 
southern California and I think the climate would be.
    [Laughter.]
    Mr. Bilirakis. Yes. It is very nice. Last night I felt 
like--I was outside and I thought it was indoors in air 
conditioning. So it is very pleasant.
    Mr. Fletcher. I don't think--I have yet to be convinced by 
data that veterans shop for the best place to be homeless. I 
think that the climate is very nice, I think, but--and we 
certainly have a lot of veterans here and we have a lot of 
folks who served here and want to stay here.
    But we have a disproportionate number of homeless compared 
to the percentage of veterans, which indicates to me that there 
I something else that is going on there and I think it simply 
goes back to the cost of housing.
    Our cost of housing is astronomically high. I was recently 
in Kansas and if you are a veteran in Topeka, Kansas, you can 
use your VASH voucher. Someone will take it. There will be a 
housing that will be there.
    The other challenge that we face in California is as we 
confront the issues of wildfires, of climate change, of carbon 
emissions, of vehicle miles traveled, the challenge for us to 
increase our supply of housing is to increase our density in 
existing areas of housing. And so everyone wants you to build 
housing as long as you don't build it anywhere near them.
    Well, the problem is you can't build housing that isn't 
near somebody and so--and so because there is nowhere to go 
where you can do it and still meet the other goals we have.
    And I will give you a specific example. I think it was 
three years ago. I looked it up exactly. We had an affordable 
housing project that was going in the city of Poway. Wonderful 
folks--love their country, love their veterans. It was 11 
units.
    I mean, it was all of 11 units, and traffic was mitigated. 
Everything was taken care of, and we had more veterans on the 
waiting list than spots available.
    But the opposition to that was outrageous and community 
opposition killed 11 units that all would have gone to veterans 
with the promise that they would bring it back in the right 
spot and here we sit three years later--those 11 units have not 
been brought back.
    And so we have a challenge that we have to overcome as 
policy makers of addressing legitimate community concerns, 
making sure things work with traffic and all those issues and 
safety, and then saying at the end of the day we have to build 
this housing.
    And I don't think it is a disregard for veterans. It is 
just a disregard for veterans who have mental health issues or 
substance abuse issues or who are low income and have 
affordable housing because those are the three categories of 
housing that no one wants near them.
    And so I think that there is a notion of--and I will wrap 
up--there is a notion of--you know, I have heard the analogy 
of--you know, it is like we have neighborhoods who say there is 
a leak in your side of the boat. You know, go fix it somewhere.
    Well, we are all in the boat together and there has to be a 
collective sense that every neighborhood in every community is 
going to have to shoulder its share of the load and take in 
affordable housing, permanent supportive housing, behavioral 
health and substance abuse programs and we can design them in a 
way that preserves the integrity of the neighborhood.
    But that is a fight we have here in San Diego and I am 
constantly engaging with community groups and they say, well, 
we don't want these folks here, and I say but those folks are 
there now.
    They are in your canyons. They are in your alleys. They are 
on the streets. So let us get them in a clean safe environment 
for a better thing. And so we just have to have the courage to 
persist here.
    Mr. Bilirakis. Agreed. Thank you. I yield back.
    I know we have another panel.
    Mr. Levin. We will have another round. And with that, I 
would like to recognize Chairman Takano for five minutes.
    Mr. Takano. Thank you, Chairman Levin.
    Supervisor, I want to--I want to delve more into this topic 
because it is not just here in San Diego. I was talking to one 
of the L.A. County supervisors and this particular supervisor 
was telling me stunning stories about projects--housing 
projects specifically designed to help veterans, and this 
supervisor was just astounded at the virulent opposition.
    And I was--you know, I understand--you know, Riverside was 
one of the places in the 1980s that rapidly developed and I 
understand the backlash that communities can have against 
developments--rapid development.
    I can understand what, say, high-density developments that 
have a low income element to it. People in single family 
homes--detached homes will rally and say, we don't want poor 
people in our community.
    So and I think this is playing out all over various 
communities in California, and but I was--you know, the good 
will toward veterans, and as I think you say, it is veterans 
with substance abuse challenges--veterans that--this is what 
the community gets wind of and then they rise up.
    What do you think--do you have more--I mean, you are new to 
this but I think this is--I think supervisors and county and 
city council people, the people who have to make these land use 
decisions have the hardest job, really.
    Mr. Fletcher. Well, no, and I think a lot about this. This 
dominates a lot of my thought, both as a supervisor who has 
land use authority and on the unincorporated areas is where we 
have less opportunity but as someone who delves on these 
issues, but also as someone the governor also appointed me to 
the California Air Resources Board where we are tasked with 
meeting our greenhouse gas emission targets and goals.
    And so we have these conflicting goals of we have to 
significantly increase the availability of housing not just for 
veterans, not just for those who are homeless, but you got 
folks that are working.
    I mean, you have folks that are working a full time job and 
living in their car, and so we have to increase the housing 
there.
    And so the notions--the intersection, I believe, Mr. 
Chairman, is the intersection of transportation and housing. So 
part of this is community opposition. We have to design 
projects.
    We have put together things that we know are going to work, 
right. We can't have a devastating project. We can't put a 100-
story tower in the middle of a residential area and it would be 
devastating. It would be bad.
    We have to design them in a way that mitigates legitimate 
community concerns and then we have to have the courage to 
overcome pure NIMBY-ism against people because they are low 
income or they are suffering from an illness or an addition, 
right, and that is on us because we are going to be held 
accountable for not addressing the problem, and so you are 
going to get grief there.
    I think we have to be willing to take the grief to address 
the problem.
    But the other component of this, particularly in 
California, is issues surrounding transit and transportation. 
And so where we have the greatest potential and opportunity for 
growth is in the urban areas where we do urban infill and we 
increase density.
    Now, because of the challenges we face with vehicle miles 
travelled, up over a billion in San Diego County in the last 10 
years.
    Although we hit our 2020 climate change goals, we are not 
on track statewide to hit our 2030 goals. In fact, we are going 
in the wrong direction.
    And so the only way we are going to do that is by changing 
the way we approach transportation to have an actual investment 
in transit in areas where we have density of housing and 
density of employment, and if you can do that then you can 
start to alleviate some of the traffic issues, some of the 
greenhouse gas issues, some of the parking issues.
    But, again, that requires a fundamental change in 
thinking--of rethinking. It is not just about expanding 
freeways, which we know an induced demand only increases 
congestion.
    It is about getting even a small percentage of those folks 
out of those and into transit. And so I think the intersection 
of transportation and housing is vital to tackling this issue 
broadly and getting communities to realize that we can add this 
and it is not going to increase their local congestion.
    And then some of this is just a change of mindset. We have 
to go out and make the case for why these programs are 
important, why they are, and then sometimes we have to do the 
difficult work of--you have 17 folks from a neighborhood and 
they are really upset.
    But there are 17 of them. You know, this is the project I 
have in Claremont. I got 404 units going in. And so we have to 
at a certain point do everything we can to build consensus and 
coalitions and get people to buy in and then at a certain point 
we got to pull the trigger and we got to approve things, and we 
have to be willing to take that and go out and explain for why 
that is in our collective interest and good.
    And so some of it is overcoming community opposition and 
some of it is folks in my situation being willing to make the 
difficult decisions.
    And then the last point I will say on this is there has 
been a great debate in state of California at the legislative 
level about how really should have land use authority.
    We saw Senator Wiener introduce legislation that in many 
ways would take that away from local entities, right, and 
create more by right development in areas where the development 
is right.
    And my message to local governments, and it is heresy for a 
local government to say this, but if we can't get the job done 
then maybe they should take it away.
    If local governments can't figure out how to approve the 
housing that we need in appropriate areas, right, then perhaps 
we shouldn't be the ones tasked.
    There is nothing written, you know, in society that we are 
the only ones that have land use. And so I think that continual 
pressure that you see from the governor here in terms of suing 
local jurisdictions for not hitting their Wiener targets and in 
terms of the legislature, in terms of looking at very 
controversial changes to how we zone and land use I think are 
very important conversations that have to be had but have to 
lead to an increase in density.
    Mr. Takano. Thank you.
    Mr. Levin. Thank you. I would like to recognize 
Representative Peters for five minutes.
    Mr. Peters. Thank you, Mr. Chairman.
    Actually, as the supervisor was speaking I actually wrote 
down Poway on my note before you got to me because that was 
the--that was sort of the illustration of one of the 
challenges, which is you had a community that you would suspect 
would be supportive of veterans but they all came out against 
this 11-unit--you know, 11 units is not 10,000 units.
    And I think it was--I think, frankly, the unwillingness of 
the local elected(s) to do what you said, Supervisor, which is 
to stand up to that was really shocking but not uncommon.
    And I would just add I think that it is clear that one of 
the biggest--maybe the biggest challenges for us in 
homelessness in San Diego is the cost of housing in general.
    In general, more supply will lower the cost of housing, and 
I agree with what you said except that I think in the gap is 
something we call the environmental quality--California 
Environmental Quality Act, which empowers single individuals to 
file lawsuits against projects, even if they have nothing to do 
with the environment--even if they are on surface parking lots, 
have nothing to do with sensitive resources.
    That has got to be cut back so that local elected officials 
can do their jobs and be empowered and not be disempowered or 
undercut by lawsuits by one--literally, one or two disgruntled 
people.
    I think we have not come to grips with that and if the 
state would take one action short of taking away land use 
authority is empower local elected officials to do what you 
said.
    Let us give them the chance to do the right kind of 
development to build more housing in a way not just to preserve 
the neighborhoods but improves them through investment.
    So I certainly agree with you. And, Supervisor Fletcher, we 
are lucky to have you in this position with your background and 
with your history of fighting for these issues.
    I do want to ask specifically--I am going to get to you, 
Ms. Puddefoot, with the same kind of question--what is it 
Congress can do to bolster these programs for veterans, 
especially those with chronic homelessness? What do you think 
are the priorities we should take back for this Committee and, 
in general, for Congress?
    Ms. Puddefoot. Well, I am, clearly, not an expert on 
veteran homelessness. But I can speak briefly about the chronic 
homelessness issue.
    I think that is one reason that the state has put an 
emphasis on the development of permanent supportive housing. We 
know that there is a need for housing that is combined with 
services that are tailored to an individual and are not time 
limited and that provide an opportunity for, whether it is 
veterans or other chronically homeless, individuals to receive 
the ongoing support they need to stay housed.
    I think one of the things that we haven't spoken to-- 
touched on here-- is that it is much more cost effective to 
keep people housed than it is to address their needs once they 
are homeless.
    And so, you know, when we are looking at this from our 
perspective and being tasked with looking at ways to reduce the 
overall numbers of homeless in California generally, one of the 
areas that we are really focusing on is rapid rehousing or 
diversion before homelessness actually occurs.
    Mr. Peters. Those are programmatic suggestions or the 
descriptions of what California is doing. The implication, I 
think, is that you want us to continue funding or increase 
funding in the Federal government. Is that it? Is that your 
answer?
    Ms. Puddefoot. You put me in a little bit of an awkward 
spot, given my position here. But I think definitely funding is 
at the heart. Programs follow funding.
    Mr. Peters. Can I just ask a specific question about the 
California response to leveraging resources like the low-income 
housing tax credit?
    We understand that lost a little value with the tax plan 
that Congress passed--the president's tax plan in 2017, I 
guess--because there is not as much to write off against it.
    Can you tell us if there is ways you think that that 
program can be improved from the perspective of housing 
California's homeless?
    Ms. Puddefoot. You know, I am not--I am not able--I am not 
versed, unfortunately, in that--
    Mr. Peters. Okay.
    Ms. Puddefoot [continued].--and can't address that. I will 
say that in addition to funding one of the most important 
areas, whether it is federal, state or local, is to really 
align programs and supports and funding.
    I think that collaborative process to sort of minimize the 
administrative burden on local jurisdictions is really 
critical.
    Mr. Peters. Okay. And--
    Ms. Puddefoot. And that is one reason we provided flexible 
block grant funding.
    Mr. Peters. Supervisor Fletcher, maybe 30 seconds.
    Mr. Fletcher. Yeah. One thing I think from Congress that 
would be incredibly helpful there is tremendous instability in 
general in the Federal government. It is not from your branch 
of government and it is not from the Supreme Court.
    And so I think--I think--but the problem is--the problem is 
we are dealing in markets and we are asking people to make 
long-term commitments to build projects.
    We are asking them to make long-term commitments to site 
property, and the instability is a real problem. And so knowing 
that the VASH voucher will be there, it will be funded, it will 
be protected--knowing that these HUD programs will be there, 
they will be funded, they will be protected, is a really 
important thing that sends signals.
    When I go to folks and say we need to do this and when 
there is all of this instability--people don't know day to day 
what will happen--it makes it hard, and none of these problems 
will solve themselves quickly.
    And so I just think that continued commitment to the HUD 
funding--not just veterans housing, all their housing programs 
because we are cobbling things together to try and make them 
work.
    And that is where I think--I think the Congress, in a 
bipartisan way, can be that source of stability to say these 
are things we are going to fight to protect and ensure will be 
there and that is a specific thing that would be helpful to us 
at the local level.
    Mr. Peters. Okay. Thank you. I yield back.
    Mr. Levin. I wanted to thank you for that because it is a 
perfect segue to what I am about to ask. I want to recognize 
myself again for five more minutes. I wanted to ask about HUD-
VASH specifically and wanted to start with Secretary Kurtz.
    In your testimony I noted that you mentioned HUD did not 
request new HUD-VASH vouchers in fiscal year 2020 because the 
2019 funding was enough to meet the demand of current 
referrals.
    Would we be correct to interpret that as meaning more HUD-
VASH voucher funding would not increase the number of veterans 
served and if that is the case can you explain?
    Mr. Kurtz. Sure. At this point, we--actually HUD has not 
requested additional HUD-VASH funding since, I think--I believe 
it was fiscal year 2015, and we believe that there is 
sufficient funding currently across the Nation--that we just 
need to sort of work to utilize what funding is there currently 
to ensure that we and the VA are working--you know, working 
together to house the veterans as well as we are looking at 
flexibility such as we have taken--are allowing VA medical 
centers, the regions that they cover, we can switch vouchers 
from one public housing authority to another in that area, and 
if need to--we have not yet--but we are looking at possibly 
even moving funding at a broader scale, if need be.
    Mr. Levin. So I wanted to address that. As I understand it, 
community agencies refer veterans to HUD-VASH through the 
coordinated entry system. Is it possible that the community 
partners are unable to refer more individuals due to their own 
capacity limits? And if that is the case, how do we address 
that issue?
    Mr. Kurtz. Actually, that is a really interesting question 
because I have--before I came back to HUD I worked at the local 
level and worked with--one of the programs I worked with was 
HUD-VASH and we were concerned about issues like that and 
actually just sort of brought everyone together--the VA, our 
local partners, you know, folks in the city as well as the 
local housing authority and, you know, tried to work out 
strategies to ensure that we were coordinating better.
    You know, it is really a collaboration and a communication 
that we need to ensure is taking place at the local level, and 
we saw success after that.
    Mr. Levin. Thank you. I would like to switch from HUD to VA 
and to talk about VA funding for intake and for case 
management.
    My understanding is HUD-VASH eligible veterans are often 
chronically homeless. They have severe health problems and they 
require intensive services and support.
    Dr. Smith, can you discuss any challenges your staff face 
in serving the population and any additional resources that 
they may need and, therefore, that you may need at the VA?
    Dr. Smith. Thank you, Chairman Levin.
    You are correct that the population that are served by HUD-
VASH vouchers can be challenging. They represent individuals 
who may be chronically homeless but also often have disability, 
mental illness, substance use, and simply reaching them can be 
challenging.
    We have both intake staff as well as HUD-VASH case managers 
that are working continuously to reach out into areas where 
veterans may be. We have five outreach staff currently and 
three of those are field-based, sometimes working with San 
Diego Police Department or Oceanside Police Department to 
actually go out into areas where veterans might be--might be 
living in an encampment or in some other non-habitable 
situation.
    So part of our program is involved in outreach and then 
there is also an intake part. That intake part sometimes can be 
challenging, again, because it requires typically a face-to-
face visit with a veteran that takes some time.
    There may be documents that are unavailable and that intake 
process sometimes can be a delay in getting the voucher packet 
to the PHA and then to getting the veteran housed.
    We have at different times had staffing issues. I am happy 
to say that we are right now staffed up and able to process 
those vouchers.
    Mr. Levin. I wanted to ask a follow-up. I was struck by 
Supervisor Fletcher's previous comment that the biggest 
challenge is getting landlords willing to take VASH vouchers.
    My understanding is that there are several incentives that 
the county offers to landlords to accept those VASH vouchers. 
Trying to understand from the supervisor or from Dr. Smith 
where does that funding originate and is it sufficient.
    Is it a matter of more funding needed to secure housing and 
to get more landlords willing to take these vouchers? And 
either of you or both of you can feel free to address that.
    Mr. Fletcher. Well, we take that funding from our general 
fund. That is county general purpose money that we could spend 
on anything and we dedicate it that.
    We try to cobble together wherever we can get it from, and 
that really is key because we are trying to overcome that 
barrier.
    You know, if that landlord can rent it to somebody for more 
money and they don't have--they aren't homeless, they don't 
have a problem, they are more likely to do that. And so it is a 
real challenge for us and I think the efforts to address the 
value of the VASH voucher in high-cost areas are really 
important because we have a high-cost area and we are trying to 
address that.
    But, you know, potentially having that is really important. 
If there were funding available to help increase these 
incentives that is a greater tool that we have. That is where 
we are giving them bonuses for taking them.
    We are providing insurance if they damage anything. We are 
guaranteeing the utilities will be paid. We are just trying to 
get them comfortable with being willing to do it and so that is 
area where some jurisdictions provide those incentives. Some 
don't. Some do what they can but they could--they could always 
do more.
    And then I think the flexibility around housing authorities 
is very important. At the county, we are the housing authority 
for the unincorporated area and we are the housing authority 
for 13 of the 18 incorporated jurisdictions within the county.
    But you have San Diego, Oceanside, Carlsbad, Encinitas, and 
National City have their own housing authorities. They get 
their own VASH vouchers. And so the ability--the greater 
flexibility there is almost always good.
    And so I would say high-cost areas is a really important 
area to view those as distinct and different, particularly when 
they have more severe levels of veteran homelessness.
    I think the incentive program, some potential funding to 
augment or increase incentives--obviously, you don't want folks 
to cut back commitments they have already made because it 
comes.
    But if they could increase what they are already doing and 
the flexibility are three things that I think would be helpful.
    And then I just want to reemphasize the case management 
piece is vital because we have also had a very problem--very 
big problem with we get them housed and then they don't stay 
housed, right, because they are having all of these issues and 
that case manager is that person who is going to work them 
through.
    They are going to work them through the system. They are 
going to stick with them. They are going to stay with them. 
They are going to check on them.
    They are going to encourage them and, you know, when you 
encounter folks that are suffering chronic homelessness, it 
takes a lot of visits and a lot of patience.
    This is very, very, very hard work to get someone to 
transform their life. And so that case management supportive 
role. The goal I not just to get them in a place with the VASH 
voucher where they have an unstable unpredictable unhealthy 
life.
    I mean, that is better than being on the street. But then 
we got to figure out how we--how we get them there and that is 
where that case management piece is vital.
    Mr. Levin. Appreciate it, Supervisor.
    Mr. Fletcher. Thank you.
    Mr. Levin. We want to make sure that we move along fairly 
quickly. We want to get to our second panel. I want to be 
respectful of everyone's time.
    And I would like to recognize Ranking Member Bilirakis for 
a second round of questions for our first panel.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Ms. Puddefoot, what best practices can other counties in 
the state take away or even in the Nation? What best practices 
can we take away from Riverside County to reach the goal of 
functional zero for veteran homelessness?
    And I want to give the Chairman partial credit for that as 
he represents the county. So outstanding. What best practices 
can we take away?
    Ms. Puddefoot. Well, I really could defer to the Chairman 
here. But from what we have observed, there was a real 
collaboration and coming together of all of the different 
organizations and entities that touch on veteran care, veteran 
housing, to really provide that comprehensive approach but also 
to tailor it individually and to take into account, as 
Supervisor Fletcher mentioned, the specific needs for case 
management and provide that on an ongoing basis.
    The other thing that I know Riverside County has done is 
use the data that is collected through the Homeless Management 
Information System to really provide some feedback and some 
rigorous analytics about what is working within their 
communities and where the gaps are.
    And I think if we could replicate that, we are currently at 
the agency level really looking into how the state could 
encourage all local jurisdictions to have access to that kind 
of data and analytics.
    We have seen that being effective not only in Riverside but 
also in Santa Clara County and Los Angeles and elsewhere. So it 
is that collaborative piece of bringing everyone to the table, 
which in some places is really happening but in a lot of 
jurisdictions it is still very siloed, which means that the 
people--all the right people-- are not in the room to make it 
happen.
    Mr. Bilirakis. Mr. Chairman, would you like to add anything 
to that?
    [Laughter.]
    Mr. Takano. You know, just that I have worked--our office 
has worked with the county, and the county is a really key 
player because it is actually a county statistic, and two very 
empowered people within that--within the county staff had the 
authority and the--just the sheer energy to dedicate themselves 
to this.
    And they are ready now, as is so often the case with 
working on veterans issues, veterans are not necessarily all 
that much different in their challenges than the general 
population and so they are ready to apply the things they have 
learned on how to effectively reach veterans, how to provide 
the--how to plan for the case management.
    I do believe they also did a lot of work with landlords on 
the incentive side. So they are a little frustrated now because 
they need the resources to deal with the general homeless 
population.
    And so they are kind of armed with the basic learnings that 
they have gleaned from working on this veteran's issue.
    Mr. Bilirakis. Very good. Thank you.
    I guess I have a little more time, Mr. Chairman. I won't 
take it all. Who wants to answer this question? What role does 
substance abuse play in hindering success for the chronically 
homeless and which programs should be invested in to address 
this issue?
    It is so important and it is all linked together, whether 
it is mental health or substance abuse with regard to homeless. 
That is not always the case but who would--who would like to 
address that?
    Mr. Fletcher. I will talk very briefly on this.
    Mr. Bilirakis. Okay. Please.
    Mr. Fletcher. You can't talk about mental health and 
substance abuse as separate issues. They are one issue. The co-
occurring rates of both of those are in the 80s and 90s. The 
overwhelming majority of folks who are homeless who have a 
substance abuse problem arrived at that problem by self-
medicating an undiagnosed and untreated mental health issue.
    Mr. Bilirakis. Right. Right.
    Mr. Fletcher. If we just deal with the mental health, they 
are still addicted. If we just deal with the addiction, there 
is still that.
    And so we got to view it in the context of behavioral 
health, which means medication for addiction treatment. It 
works. I mean, the data is irrefutable that it works.
    And then there is controversial things like needle exchange 
that save lives, promote public health, help get people clean. 
And some of these are uncomfortable or difficult.
    But all of the health care data suggests this is the way we 
address it. And so I think substance abuse is a cornerstone in 
terms of addressing this challenge we face.
    Mr. Bilirakis. Very good. Anyone else?
    Ms. Puddefoot. I would just add that in California we 
adopted legislation to really require housing--funded housing 
by the state-- to adopt housing first principles, which include 
low barrier and a prohibition against refusing to provide 
housing or housing-based services for someone solely because 
they have behavioral health issues.
    And so that--really, that has been research based, evidence 
based best practice around making sure that people are housed 
in order to provide effective support for dealing with 
behavioral health issues.
    Mr. Bilirakis. Well, thank you. I yield back, Mr. Chairman.
    Mr. Levin. Thank you.
    I would like to recognize Chairman Takano for the second 
round of questions.
    Mr. Takano. Thank you, Chairman Levin.
    Dr. Smith, you know, while the VA's budget is at record 
levels we are still seeing needs across the agency for all 
services.
    Meanwhile, our Committee really--regularly hears from NGOs 
or, in other words, private companies who offer their own 
solutions for homelessness in southern California.
    What is the process and capacity for VA to accept outside 
funding to address the homeless challenge? Is there a process?
    Dr. Smith. Congressman, I am afraid I would have to take 
that one for the record because that is not something that I 
work a lot on locally. The bulk of the funding is managed out 
of the central office programs who put out requests for grants, 
notices of funding applications.
    Mr. Takano. So you are not really prepared to talk about 
private-public partnerships or this area of homelessness?
    Dr. Smith. Well, not--I am not prepared to talk about 
funding for them. I would say that those private-public 
partnerships are very important and particularly the work that 
we do with partners here.
    I would point out to some of the panelists in the second 
half--Veterans Villages of San Diego, Interfaith, and so forth. 
So--
    Mr. Takano. So my questions might be addressed to the 
second panel is what you are saying?
    Dr. Smith. Yes, sir.
    Mr. Takano. Okay. You know, the transition process is 
something that our Committee has been deeply involved with and 
Chairman Levin and Ranking Member Bilirakis and a number of our 
Committee members are--Mr. Cisneros from Orange County--they 
are all particularly attuned to trying to improve this 
transition process.
    So I want to--I want to switch gears a little bit from the 
importance of wraparound services for chronically--for chronic 
homelessness. I mean, that is--I mean, I think--I think it is 
really important to emphasize that for our chronic homeless 
population, as the supervisor said, it is a lot of work and a 
lot of resources to support people in getting their lives in 
order.
    But on the front end, trying to help veterans transition 
smoothly to avoid paying out large amounts of unemployment 
insurance it seems to me that we could do a better job on the 
front end.
    And I know that Camp Pendleton has the Skills Bridge 
program that I have been hearing the VA ramp up across the 
country. That is something that I find very promising.
    Can you--you know, I would like to ask what we should be 
done--what we should be sharing with servicemembers to ensure 
that they don't find themselves homeless and how we can improve 
the transition process.
    Dr. Smith. Thank you for that question, Congressman.
    Certainly, the transition--area of transition is critical. 
In San Diego, we have a robust transition program where we are 
really reaching out particularly in working with the medical 
treatment facilities to accept those who have been identified 
as having needs at the time of separation from the service.
    But I think, as you point out, there is a large cadre of 
Active duty military who separate without, for a variety of 
reasons, either knowing as much as they might about VA services 
or perhaps just not feeling like it was time for them.
    One of the complaints I often get when I am out in the 
community is veterans that either don't know about the VA or 
weren't--feel like they weren't told about the VA at the time 
of their separation from Active duty.
    So I think that is an area that we are all committed to 
improving. I certainly know that there is work going on at a 
national level to try and change or to assist in that so that 
we have really a continuous process of reaching out to veterans 
to make them aware of veteran's services that are available to 
them.
    Mr. Takano. Supervisor, you look like you have something to 
say about this.
    Mr. Fletcher. Well, I think the--the efforts on the job 
stuff is really good. There is funded programs. They can do it 
while they are on Active duty while they are getting off. I 
think all of that is good. I think that has improved 
significantly. I got out a decade ago.
    One thing that struck me when I was in, and perhaps it has 
been addressed, is you have a lot of servicemembers who get out 
and have no idea what they want to do next because they never 
thought about it.
    They never thought about it, and it always struck me, when 
I was in the Marine Corps every year I went to the career 
planner, and the career planner--we would have our counseling 
session about my Marine Corps career--where did I want to go, 
what did I want to be assigned, what job, what duty, what term 
of enlistment.
    And it would be interesting--folks in DoD would know 
better--but perhaps when they join in boot camp there is just 
someone who asks them a question, hey, how long do you think 
you want to stay in and what do you think you want to do when 
you get out, right, and then they write it down.
    And then the next year when they go to the career planner 
someone says, hey, you said you wanted to stay in for life--how 
long do you think you want to stay in--do you think you might 
want to do when you get out.
    And if we did that every year with the veteran, just what 
do you think you want to do when you get out, because otherwise 
they get discharged and then they are just wandering.
    And then there is all these programs and services but now 
they are disconnected from that period out and they are not in 
a mindset of having a plan for what they want to do.
    And so that has been addressed in recent years but--
    Mr. Takano. Well, Supervisor, I mean, there has been some 
work done in this area. Let me just--I am over time, but let me 
just say that I have always thought from day one there should 
be educational or training goals established and their 
commanding officers should also be a part of the process of 
holding those soldiers accountable every year.
    So that is a longer discussion, but thank you.
    Mr. Levin. Thank you, Mr. Chairman.
    Mr. Peters, I would like to recognize you for five minutes.
    Mr. Peters. Thank you, Mr. Chairman.
    Just on that last point, there is a good model in San Diego 
County that is developed called zero8hundred I know you are 
familiar with, which actually--in which the Navy allows the 
community effectively to go on to the base as they go through 
that dump of documents that they used to call Taps--now they 
call GPS--to try to engage young people.
    We could talk more about that later. We think that is a 
pretty good response.
    Ms. Puddefoot, you mentioned the continuum of care funding 
and I want to just go back to that. Now, that is not 
specifically related to veterans. But because in San Diego such 
a high proportion of our veterans--our homeless are veterans it 
is important to us.
    Shortly after I took office, there was reporting in the 
Voice of San Diego to the effect that San Diego consistently 
had fourth or fifth highest numbers absolute of homeless 
people.
    But we were always about eighteenth to twenty-third in the 
funding out of the continuum of care. Are you aware of that 
reporting?
    Ms. Puddefoot. I am not specifically aware of that. I can 
say that the first round of flexible block grant funding-- that 
was the $500 million that was part of the 2018 budget-- gave 
not only funding to the continuums of care but also to the 11 
largest cities.
    Mr. Peters. Right.
    Ms. Puddefoot. And so San Diego got funding.
    Mr. Peters. That is the California funding.
    Ms. Puddefoot. That is California funds.
    Mr. Peters. Let me just--let me just--
    Ms. Puddefoot. Yes.
    Mr. Peters [continued].--make sure you understand what I am 
talking about because we looked at that. Part of it has to do 
with the fact that there are some long-term commitments out of 
that funding. For instance, you know, we are going to spend for 
10 years on this particular building, and that skews it 
somewhat.
    But, Mr. Kurtz, I understand that the continuum of care is 
not part of your direct responsibilities at HUD. Is that right?
    Mr. Kurtz. That is correct, sir.
    Mr. Peters. Okay. You mentioned in the context of another 
program the VASH vouchers, trying to get the most out of a 
consistent level of funding. I have to raise this with you 
because we think that--by the way, L.A. is being take care of--
we think that San Francisco is now falling behind. But the 
inequity of the funding to San Diego is something I would ask 
you to look at.
    We made--it took a long time to make progress. But by the 
end of the Obama administration with Secretary Castro, we had 
identified four or five new approaches to this--a more fair 
formula--not based, believe it or not, on something like the 
age of the building stock as a proxy for the amount of 
homelessness you have.
    We would ask you to take a look at that or ask the folks in 
HUD. Since the change of administration, the equities haven't 
changed. It is not a partisan issue. We just haven't heard 
anything about it. And so if we could just send you back with 
that message that would be great.
    Mr. Kurtz. Absolutely.
    Mr. Peters. And I guess I would just--we have to get on to 
the other panel, but I want to thank all the--oh, I wanted--Dr. 
Smith, I wanted to give you a chance to talk about--you had a 
little answer on the--Mr. Bilirakis's question on substance 
abuse and you were cut off because of time. So I will give you 
a chance to answer that question.
    Dr. Smith. Thank you, Congressman Peters.
    I did want to mention some of the things that are going on. 
Ms. Puddefoot mentioned low-barrier approaches to accepting 
individuals who are homeless immediately into housing so that 
we are not requiring abstinence as a condition of housing.
    But I do--I did also want to mention what Supervisor 
Fletcher talked about, which is medication-assisted therapy, 
which are available through the VA now as part of the approach.
    And it is also--there is a comprehensive effort going on 
throughout the VA on opioid reduction strategies and we have 
this tension between individuals who may be having issues with 
addictions and at the same time working to reduce the usage of 
opioids across the board.
    We have been very successful at total opioid reduction 
usage here in San Diego by more than 50 percent. That is 
actually true nationally in the VA. So we have seen that 
approach.
    One of the really critical things is the availability of 
alternative therapies. So I am happy to say that we do have a 
full complement of complementary and assistive therapies such 
as use of yoga and tai chi, acupuncture, chiropractic therapy, 
which can be alternatives to the usage of substances of abuse.
    Mr. Peters. Thank you.
    I just want to say, again, thanks to all of you for coming. 
We would appreciate your advocacy on helping us with the 
continuum of care issue. If you could be aware of that, that 
would be helpful.
    But thanks to all of you for what you are doing and, Mr. 
Kurtz, I hope you had a nice time in southern California and 
you will tell your friends it is a nice place.
    I yield back.
    Mr. Kurtz. I have. Thank you, sir.
    [Laughter.]
    Mr. Levin. Well, thank you all very much.
    I want to quickly transition to our second panel in the 
interests of everyone's time. So if we could have the panelists 
for panel number two please stand and come to the front.
    And, again, to our panelists from the first panel we are 
very grateful. We are going to--we are going to jump right into 
it.
    [Pause.]
    Mr. Levin. We have Ron Stark. Hi, Ron. How are you?
    [Laughter.]
    Mr. Levin. They had--the other panel they had it opposite. 
The board president of the San Diego Veteran's Coalition. 
Kimberly Mitchell--good to see you--president and CEO of 
Veterans Village of San Diego. Matt Schillingburg, commander of 
American Legion Post 146 in Encinitas. Thanks for being here. 
Greg Anglea, CEO of Interfaith Community Services. Thank you. 
Easy commute for you, right across the street. And Tamera 
Kohler, CEO of the San Diego Regional Task Force on the 
Homeless. Thank you so much for being here.
    As you know, you will have five minutes. Your full 
statement will be added to the record and I want to make sure 
we stick to time. We have until 12:30 and then we got to be out 
of here. So we will get right to it.
    Mr. Stark, you are now recognized for five minutes.

                     STATEMENT OF RON STARK

    Mr. Stark. Thank you, Chairman Representative Levin.
    Mr. Levin. Make sure your mic is on.
    Mr. Stark. Is it on? Thank you. Thank you.
    Chairman Representative Levin, Ranking Member Bilirakis, 
and House Committee Chair Takano, I like the idea of zero. It 
is a good target and so appreciate that.
    I am Ron Stark, president of San Diego Veteran's Coalition. 
I want to say that my testimony here with respect to this 
Committee on Veteran's Affairs Subcommittee Economic 
Opportunity entitled ``Housing our Heroes: Addressing Homeless 
Veterans Crisis'' is given in my role as the president of the 
San Diego Veteran's Coalition, though it is certainly informed 
by observations in other roles and throughout the county I work 
for mental health systems in substance use prevention.
    I have managed large treatment and recovery centers in 
substance abuse prevention. I am co-chair of the San Diego's 
One VA Community Advocacy Board.
    I was co-chair on the Advisory Committee for the VA Aspire 
Center as well as logistics coordinator for the Stand Down for 
Homeless Veterans, and those observations informed my 
perspective and that of the coalition.
    And it is an honor to be here with you and colleagues in 
the community in San Diego County. The number of homeless 
veterans using the annual point in time count method seems to 
always be met with challenges of being underreported, over 
reported, subjective measures, unreliable methods, counting 
veterans on the street early in the morning and uses self-
reports to interviewers in that.
    And though this is--I participated in San Bernardino County 
when I was up there for four years in the homeless count and 
San Diego County since 1997 because I served in the military 
and these are my people. I am going out and help find them, 
identify them so they can maybe get other resources.
    I find that becoming an observation where I challenge 
whether or not we are really getting to all of the homeless 
veterans. I live in the 92114 in this county. We have a--what 
we call the Bamboo Village and the point in time count isn't--
doesn't go there.
    We walk by there but we don't go there, and so there are 
places in that count where you just look and you know there is 
a path leading to where homeless are, but just the methods of 
it.
    In that regard, it seems that with some of the current 
technologies we could develop, implement and I think the House 
could really be instrumental in reviewing this. Sophisticated 
methods have a more real-time estimate of the number and 
conditions of our veterans who are homeless.
    The San Diego Veteran's Coalition has some 160-member and 
participating organizations, agencies, for-profit businesses, 
and we all come in contact with veterans every day and we get 
together and we share our perspectives and coordinate 
activities to really maximize leverages across community-based 
organizations. The VA is a strong partner in that coalition as 
well and organizations here at the table with me as well.
    It just--we have supported and promoted a safeguarded 
cross-sector data sharing that provides a much more reliable 
estimate to use to determine how much funding programming is 
required and where.
    The idea--we use currently--there is 57 licenses, I 
believe, with the San Diego United and it is a platform. It is 
a data-sharing platform, backbone supported by 211 San Diego, 
to do some initial screening, partially enroll, refer, intake 
veterans, some minor intakes into services before referring, 
and then a follow-up.
    And that platform can provide a reliable number of how many 
veterans use a particular service and collect valuable 
demographic information to direct policy.
    SD United is capable of being interoperable with larger 
community information exchanges and I know that is a topic 
across practically every state in this country is how to share 
community information that includes information from public 
health, the VA, community-based organizations, providers, 
private practices, and can compare profiles and aggregate 
reports of how many veterans are homeless, their services 
requested and usages of those met and unmet needs, demographic 
and geographic information about veterans. So you could put the 
dollar where the need is. You could put the energy where the 
need is.
    Anecdotally, we hear there are veterans, especially female 
veterans, who are functionally homeless, going from one friend 
or family member in lieu of living on the streets but yet not 
providing their own shelter, sleeping in their cars, parked off 
streets, in a friend's residence in their--and so that wouldn't 
be part of the homeless count because you don't count cars 
parked at residents.
    You kind of look if the windows are--and it looks like 
someone is sleeping in that car.

    [The prepared statement of Ron Stark appears in the 
Appendix]

    Mr. Levin. Mr. Stark, if we could, I want to make sure we 
get to everybody's intro.
    Mr. Stark. Right. Right.
    Mr. Levin. But hold those thoughts.
    Mr. Stark. Okay.
    Mr. Levin. We are going to be asking you plenty of 
questions. We want to thank you for all the great work that you 
do, particularly the North County Stand Down had the honor to 
join you last year. Look forward to helping you in years ahead 
as well. Thank you for being here.
    I would like to turn to Ms. Mitchell. Thank you for the 
recent visit to Veterans Village of San Diego. I know my 
Ranking member, my friend, Mr. Bilirakis, is going to be 
joining you later today. Now I would like to hear your opening 
statement.

                 STATEMENT OF KIMBERLY MITCHELL

    Ms. Mitchell. Mr. Chairman, Mr. Ranking Member, thank you 
for the opportunity to appear before you today and to provide 
testimony about the needs--housing needs of our veterans.
    I am Kim Mitchell, the president and CEO of Veterans 
Village of San Diego. We are a not-for-profit housing provider 
here in San Diego and we serve more than 2,000 military 
veterans each year.
    I also serve on the board of directors for the California 
Association of Veterans Service Agencies, known as CAVSA, and I 
offer my testimony on behalf of both VVSD and CAVSA today.
    I want to begin by acknowledging the many men and women in 
the audience today who have served our country in uniform. 
Thank you for your service.
    Mr. Chairman, I am reassured by the title of today's 
hearing--veteran homelessness is a crisis. It is one that 
touches both rural and urban parts of our country, and one that 
requires immediate resources and attention if we are ever going 
to get ahead of it.
    Today in San Diego, we are finally catching our breath. The 
last two years have been difficult, as a devastating outbreak 
of hepatitis plagued our homeless communities across the 
region.
    In response, VVSD and our partners stood up an emergency 
bridge shelter to provide safe clean living conditions for an 
additional 200 homeless veterans that were on the street and 
susceptible to this potential deadly virus. We had to act fast, 
but I believe our response not only helped rebuild livelihoods 
but it also saved lives.
    As the immediate threat of hepatitis subsides, now is the 
perfect time for reflection. In my mind, the most important 
question is what can we do to prevent this from happening 
again.
    Improvements can be made across the board, but because of 
the work that we do at VVSD I can offer some concrete 
recommendations about what the VA can do to help.
    First, we need to expand the VA's grant per diem program, 
GPD, by increasing the rates at which providers are reimbursed.
    GPD is the first line of defense against veteran 
homelessness and it is widely regarded as a successful short-
term program that helps at-risk veterans get back on their 
feet.
    The program works and VVSD and my fellow CAVSA members 
strongly support the goals and structure of the program as it 
operates today. It is worth noting, however, that the 
significant structure and regulatory changes to GPD three years 
ago made it more challenging to administer. VVSD and CAVSA 
commend the VA for improving the effectiveness of this 
important program but note that the changes added significant 
cost to grantees. As such, we ask that Congress or VA increase 
the reimbursement rates by at least 25 percent.
    This modest increase will result in community partners like 
VVSD being able and willing to expand the number of beds they 
offer, especially to individuals participating in the bridge 
and clinical tracks.
    Second, we need to better leverage project-based HUD-VASH 
vouchers by contracting our supportive services to the 
qualified veteran housing providers that receive these 
vouchers.
    As administrators of HUD-VASH project-based grants, VVSD 
and CAVSA members bear the burden of the VA by maintaining its 
25-to-1 ratio in case managers to program participants.
    At our facilities, we see that the VA case management staff 
are often so busy that it is hard for them to show up to 
provide our tenants with the mental health, job training, and 
social services support they need.
    As a result, we end up funding the support out of our own 
pockets. As nonprofits, this is hard to do. It is also 
especially frustrating, given the fact that Congress has 
consistently funded these positions.
    It is just that the VA can't seem to be able to provide the 
staff that they need in the field.
    There are two solutions to this problem. Congress could 
enact legislation that awards the recipient of project-based 
HUD-VASH vouchers with the commensurate funding to administer 
the services provided with that voucher. Or the VA and HUD 
secretaries, which have virtually unlimited authority to waive 
law and regulation to improve the administration of HUD-VASH, 
could issue a directive to accomplish the same goal.
    Either way, the routine failure of the VA to provide the 
casework associated with HUD-VASH is a significant drag on the 
effectiveness of the program and must be remedied without 
delay.
    Mr. Chairman, Ranking Member, this concludes my oral 
remarks today and I want to thank you again for shining a light 
on this important issue and working to improve the 
effectiveness of the VA's homeless housing programs.
    I am happy to answer any questions that the Committee may 
have.

    [The prepared statement of Kimberly Mitchell appears in the 
Appendix]

    Mr. Levin. Thank you, Ms. Mitchell.
    Mr. Schillingburg, you are now recognized for five minutes.

                STATEMENT OF MATT SCHILLINGBURG

    Mr. Schillingburg. Yes, good morning, Congressman Levin, 
Congressman Bilirakis, and Congressman Peters.
    Although I live in Congressman Peters' district, I do 
support Congressman Levin with the work of veterans in the 
North County because I am the commander of the American Legion 
in Encinitas.
    Less than 1 percent of the population of the United States 
ever volunteer to support and defend the Constitution of the 
United States against all enemies foreign and domestic.
    In doing so, servicemembers become a special part of our 
Nation that are willing to sacrifice their own lives to 
preserve the freedoms that so many Americans enjoy on a daily 
basis.
    Over 2 million servicemembers, men and women, have been 
deployed over 3 million times since 9/11 in the global--in the 
support of global war on terrorism.
    These troops have included Active duty, reserve, National 
Guard personnel, with reserve and National Guard personnel 
being utilized as part of the operational force structure after 
9/11.
    These numerous deployments are one of the many reasons that 
our servicemembers decide to make a transition from military 
life to civilian life and these numerous deployments weigh 
heavy on the veteran, which in turn manifests itself in many 
different ways that contribute to the problem of veteran 
homelessness in the United States.
    Active duty veterans and their families as well as 
transition veterans face significant housing challenges. 
California has the largest number of veteran homelessness in 
the United States, with 9,600 veterans homeless.
    Homeless veterans in California represent, as we have heard 
before, about 25 percent of the national homeless veteran 
population.
    Many veterans do not have stable housing after they 
separate from the military. In many housing markets in 
California, it is difficult if not impossible for military 
families and even single servicemembers that might have once 
enjoyed military housing or barracks to transition to the 
civilian housing market.
    Only 54 percent of pre-veterans and 35 percent of post-9/11 
veterans line up housing after the military in the San 
Francisco Bay area. Only 10 percent of pre-9/11 and 18 percent 
of pre-9/11 veterans reported being homeless in Orange County.
    Over 25 percent of military veterans reported that they 
lacked housing in the past in Los Angeles, according to HUD. 
One point five million veteran households suffered severe 
housing costs in 2011 and it has only become worse.
    According to Los Angeles housing, the HUD-VASH housing 
vouchers have the lowest success rate amongst the housing 
vouchers that authority issues.
    Success is defined as placed in voucher recipient and 
rental units. The success rate of L.A. Housing Authority for 
non-veterans is 67 percent and the success rate for HUD-VASH 
vouchers for veterans drops to 33.
    This is unacceptable for our veterans and changes need to 
be made to address the issue. San Diego County has one of the 
highest population of veterans in the United States with an 
estimated, as you said, Congressman, 235,000 veterans.
    Most of the veterans choose to stay in San Diego County 
after retiring from the military or transitioning from service 
and many, such as myself, return to San Diego.
    I personally retired from the United States Army in Texas 
in 1996 but returned to my home here in San Diego. 
Transitioning from the military to civilian life was very 
difficult after a 20-year career in the military.
    Although retired with a pension, I faced the difficulty of 
translating my military skill sets to civilian world for job 
possibilities and securing housing for myself and my family.
    I was able to do so but many veterans today cannot. It was 
a different time when I retired in 1996 to the present day 
transition for servicemembers in San Diego County. It is 
estimated there are approximately 1,400 homeless veterans in 
the street in San Diego.
    The question becomes is veteran homelessness possible in 
states with the highest incident, i.e. California and 
Washington State, especially since some of the areas have seen 
an increase as we have in homelessness.
    Answering the question is very complicated because many 
variables factor into the question. One of the variables is the 
HUD-VASH program combines the Department of Housing and Urban 
Development, housing choice voucher, rental assistance for 
homeless veterans and their families with case management and 
clinical services provided by the Department of Veterans 
Affairs at its medical centers in the community.
    Here lies one of the problems of the program--eligibility. 
As defined on the veteran's Web site--Veterans Affairs Web 
site--veterans who are appropriate for this program, and it 
should read any veteran, must be VA health care eligible 
veterans. VA makes that determination.
    Most healthy veterans and their families never apply for 
the veterans benefits as part of their transition from the 
military.
    Others that have been wounded or injured during their 
service often provide with veterans--are often provided with 
veteran service officers to complete their benefits package as 
they transition from the military.
    Those servicemembers that never apply to the VA system are 
not in the VA system. When they run into difficulties and 
become homeless, the VA can't help them with the HUD vouchers 
until they get into the system. Proposed--
    Mr. Levin. You want to--you want to just wrap up?
    Mr. Schillingburg. Okay. Yeah. Proposed solutions are 
handoffs and, you know, we will talk about that. You had 
questions before and we will get into those questions. But I 
believe that there are solutions.

    [The prepared statement of Matt Schillingburg appears in 
the Appendix]

    Mr. Levin. Thank you for being here. Appreciate that.
    I would now like to recognize Mr. Anglea for five minutes.

                    STATEMENT OF GREG ANGLEA

    Mr. Anglea. Thank you, Congressman Levin, fellow Congress 
people. Thank you for being here today. It is wonderful to have 
you in our community and those of you who are from here.
    My name is Greg Anglea. I am the CEO of Interfaith 
Community Services. We are the largest provider of housing and 
social services for people experiencing homelessness in North 
County, including, unfortunately, hundreds of veterans 
experiencing homelessness in North County.
    We have heard a lot of really strong and practical 
suggestions for what can be done to better help people overcome 
homelessness and particularly veterans today.
    I want to highlight one thing and then share some personal 
stories as somebody doing this on the front lines.
    Homelessness among veterans have decreased nearly 50 
percent in less than a decade. That has been the cause of a 
significant scaling of federally funded programs to address 
homelessness.
    If we choose to not continue to scale, we choose to not 
continue to reduce the number of veterans experiencing 
homelessness. It is very simple arithmetic. I think we need to 
name that reality.
    There are some changes in scope that can also help people 
experiencing homelessness today and in the future. I detailed 
some of these stories in my submitted testimony and I want to 
share them today. Their names are changed to protect their 
confidentiality but these are real people.
    Jacob is a 39-year-old Marine Corps veteran who lost his 
housing in February of this year because he has a disability he 
suffered during his military service.
    He has young children, he fell behind on his rent, and he 
lost his housing. There was no homeless prevention funding 
available that would have helped him through government funds 
to stay housed at this time in February of this year.
    All of the programs that are out there are staffed at the 
government level or at the nonprofit level by individuals who 
are there to run particular programs.
    Jacob didn't know which program he was qualified for. He 
didn't know where to go. Jacob had the fortune, though, of 
eventually finding his way to somebody who was funded by 
private philanthropy locally to say, you know what, these 
programs are great but we need to fund people who will help any 
veteran regardless of need.
    So he came to Interfaith and met with a housing stability 
case manager funded by the Midway Museum and by San Diego grant 
makers. That person who was focused just on him as a veteran 
connected him to his veteran--to a veteran's benefits 
specialist who correctly upgraded his disability benefit to the 
accurate 100 percent level that it should have been at.
    That person helped him find an apartment that he can afford 
and then helped find private donor dollars to help pay for the 
move-in expenses. Jacob and his kids are now stably housed.
    It highlights another issue--an extreme lack of homeless 
prevention resources that we have. We have talked a lot about 
helping people who are chronically homeless, who have been on 
the streets a long time.
    The best way to help those individuals is to prevent them 
from becoming homeless in the first place. The supportive 
services for veteran families grant has been a real game 
changer in the last several years. But the amount of funds that 
it provides--rental assistance dollars for homeless 
prevention--is scant.
    So when we had a veteran who I am going to call Clarissa, 
who was referred to us by her HUD-VASH case manager because she 
had a voucher but her landlord was not going to renew her 
rent--renew her lease--she has four children. She is putting 
herself through school. She has a disability. Her monthly 
income is about $700.
    When she was referred to us there were no homeless 
prevention dollars to allow her to pay for the security deposit 
that she needed to move into another apartment.
    So we helped her find that apartment. We helped her with 
private dollars to pay for that security deposit. She is stably 
housed.
    We need to significantly scale homeless prevention 
resources and they need to be flexible and focused on veterans 
regardless of their situation.
    Kim mentioned it very well, too. The veteran grant per diem 
program is a fantastic resource. But the funding level that it 
provides is really only adequate for higher-functioning 
veterans.
    I detailed in my testimony a veteran who I call Bill, a 79-
year-old Navy veteran who was connected to our organization by 
a distant relative who knew he had been wandering the streets 
for decades.
    Bill had disability benefits but had no meaningful 
relationships in his life, suffered from paranoia, mood swings, 
refused to engage with the VA on medical services, and simply 
did not succeed in the level of care that $47 a day can 
provide.
    He is, sadly, one of a large wave of disabled senior 
veterans. We need a higher level of support in particular for 
senior disabled veterans.
    I appreciate your time and look forward to answering your 
questions.

    [The prepared statement of Greg Anglea appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Anglea. Appreciate it very much.
    I would now like to recognize Ms. Kohler for her opening 
statement.

                   STATEMENT OF TAMERA KOHLER

    Ms. Kohler. Thank you, Chairman, and distinguished members 
of the committee.
    My name is Tamera Kohler. I am the CEO of the Regional Task 
Force on the Homeless. We are the HUD continuum of care for San 
Diego County, the second largest county in the state of 
California.
    We have a large geographic area and a population that is 
almost at 3.4 million with 240,000 veterans. We are one of the 
largest continuum of cares across the Nation.
    There are 400 continuum of cares that are designed to 
promote this community-wide commitment as a goal to end 
homelessness and collectively work with our partners to tailor 
a local homeless crisis response system.
    Veterans experience homelessness in every state. But over a 
quarter reside in California. With these numbers in mind, the 
Regional Task Force is uniquely positioned to offer some data 
and insight into our veteran homelessness.
    I am going to focus on just a couple areas: the risk factor 
of affordable housing, which you have heard from a number of my 
colleagues, and limited prevention resources that Greg so well 
spoke to; also, our rapid increasing women veterans and our 
aging homeless population.
    With the housing costs rising faster than wages and the 
burden of affordable rent looming larger for many of our 
veterans, especially our young families and those that are aged 
and are on fixed incomes, and in some cases this is an 
insurmountable challenge.
    According to Zillow's consumer housing trend report, in 
2017 80 percent of renters moved because of an increase in 
their monthly rent and we are seeing that across the board.
    Increasingly, major metro areas are becoming out of reach 
and this is becoming true even in areas where markets were 
historically affordable.
    For many, ending their homelessness is become more simply 
about increased income and lower housing costs and it is 
intense case management and services.
    Increases in affordable housing--excuse me, increases in 
rent, tight rental markets, and limited housing stock all 
contribute to the difficulties we find in looking for adequate 
and affordable housing to rehouse our homeless population.
    Our HMIS data is showing that our national averages of 
return to homelessness in San Diego are much higher. Our people 
that we are housing are struggling to maintain the housing that 
we have been able to achieve for them without any assistance, 
moving forward.
    Continuing options within the SSVF are transformational 
with prevention and rapid resolution, and one of the most 
recent developments in SSVF is a shallow subsidy. With 12 
communities, San Diego being one of those, we are able to model 
a shallow subsidy option for high-cost rent areas.
    This targeted attention to housing affordability as a 
primary factor contributing to homelessness and housing 
instability makes this long-term modest subsidy a welcomed 
option.
    We know housing ends homelessness and that includes 
preventing homelessness. Conditions that increase a veteran's 
risk of experiencing homelessness are varied, and we have 
talked about those.
    But those episodes of homelessness could be rare and brief, 
and we wouldn't even have to worry about them being non-
reoccurring if we would address them quickly with SSVF 
prevention and rapid resolution funding.
    Increasing this funding will also us to collect better data 
so that we can really determine which risk factors are having 
the most devastating effects on veterans, resulting in their 
homelessness.
    Our veteran population is aging and they are very likely 
going to have increased complex age-related needs that pose 
significant challenges on our system. It is not designed to 
serve them.
    Long-term health care issues and independent living options 
will become greater challenges and housing options for our 
homeless veterans are going to be limited. Our data in our HMIS 
significantly show an increase in veterans over the age of 62 
in two years--in 2017, one in five of our homeless veterans who 
are over the age of 62.
    In the first quarter of 2019, it is now one in four. 
Twenty-six percent of our veterans in San Diego are over the 
age of 62.
    Additionally, during that same timeframe, 12 percent of 
those served with SSVF so that is rapid rehousing, not a 
permanent housing subsidy, were 12 percent. In 2019, it has 
increased to 18 percent. We need those permanent housing 
resources to really address these emerging challenges.
    Twelve percent of our veterans--12 percent of the Nation's 
veterans will be women in 2025. That means we will likely see 
an increase of our veterans--women in the coming years.
    Compared with nonveteran peers, women veterans report a 
higher rate of child mistreatment, physical, emotional and 
sexual abuse. Over a third of your enlisted women have a 
history of childhood sexual abuse and many report, especially 
those who are homeless, that they joined the military to escape 
those family conditions.
    Veteran women are twice as likely to experience 
homelessness than our female homeless individuals. The 
characteristics of veteran women that experience homelessness 
are different from veteran men and we need to acknowledge that.
    More than one-third have experienced a military sexual 
trauma while in service and they have lower rates of substance 
use and mental health issues, and we question if that is just 
an under reporting. But that is what the data is telling us.
    For veteran women, intimate partner violence is also a 
challenge and highly associated and contributes to 
homelessness.
    Finally, veteran women experiencing homelessness are more 
likely to be part of the family compared to veteran men. All 
programs serving our women veterans need to have a sense of 
urgency and a focus on safe housing options.
    These services need to be assessed for and addressed in 
experiencing trauma and housing instability at the same time. 
As we know, VASH is the most successful coordinated effort to 
address homelessness in the Nation.
    This single dedicated resource to reduce the number of 
homeless veterans by nearly 50 percent nationally has been 
highly effective.
    This is proof that dedicating resources does and will 
reduce homelessness.
    I just want to acknowledge these growing challenges and the 
major challenge that we need to address includes all of our 
best efforts, both collectively and individually.
    We need to dig deeper. We need to understand our data. We 
need to be informed and we need to ask more of our system 
planning, not only as our funders but also as leaders as well.
    Thank you.

    [The prepared statement of Tamera Kohler appears in the 
Appendix]

    Mr. Levin. Thank you, Ms. Kohler. Thank you, everyone, for 
your opening statement.
    We are going to have time for one round of questions. So I 
would just encourage everyone to keep your answers fairly brief 
so we can get through as many questions as possible.
    I would like to recognize myself, and I am glad we have so 
many community organizations such as yourselves. Without you, 
the Federal government cannot do this alone.
    We desperately need your help and we need to make sure that 
we are doing everything we can to empower you to continue the 
great work that you are doing.
    And I also really want to mirror the comments that you 
made, Mr. Anglea, about preventing homelessness in the first 
place.
    It was said in the first panel the importance of 
recognizing that we will save significant resources if we can 
prevent people from becoming homeless in the first place as 
opposed to dealing with homelessness once it occurs.
    And I also appreciated your highlighting the need for 
short-term crisis-based rental assistance. So I would like to 
begin with you.
    How do you see such a program working in a manner that is 
agile enough to quickly get funds to those who need them 
without sacrificing accountability over how the funds are 
spent?
    Mr. Anglea. Thank you for the question.
    My organization set a goal two years ago to nearly double 
the amount of people we were able to end and prevent 
homelessness for and was able to surpass that goal primarily 
through an enhancement of homeless prevention funding.
    With funding now from the Regional Task Force, we are 
working with dozens of partners including Veterans Village of 
San Diego to scale that homeless prevention funding and partner 
with our local 211 database to track the long-term impact of 
those individuals including veterans who get that funding, to 
be able to track not only are they housed--45 families who we 
house through one of these programs a year ago are all still 
housed--but are they reducing calls for service and need for 
food, need for other types of services.
    So we have the mechanisms in place to track the long-term 
outcomes of these interventions as well as a control against, 
unfortunately, those who do not receive the interventions. We 
just need the resources to actually provide the assistance.
    Mr. Levin. Thank you for that. In a related question that 
is really open to any of you, what data could we--could the 
Federal government provide or collect to better identify 
veterans who are at risk of homelessness but are not yet 
homeless?
    Ms. Mitchell. Mr. Chairman, in my mind, I think we need to 
do a better job at identifying servicemembers before they exit 
the military that have been identified as having the start of 
mental health and addiction issues.
    I know for myself in the Navy, I served with sailors that 
were quite often angry. We knew that they would go out drinking 
all night, and in talking with some of the veterans at VVSD 
these issues started when they were in the military and I think 
we need to work on the culture and enable commanders to enable 
their servicemembers to say it is okay to step forward.
    If I sprain my ankle, immediately I am sent to sick call. 
But if I have a mental health issue, no one wants to say 
anything like that. We need to make it okay to send folks and 
be agreeable to go to--and talk with someone.
    Mr. Levin. Thank you. So destigmatizing mental health.
    Mr. Stark, I wanted to turn to you. You mentioned that 
public and private partners in our region use the San Diego 
united platform to coordinate services for homeless veterans 
while aggregating data in realtime.
    How does this system account for traditionally under 
counted veterans such as those living in cars or with family or 
friends?
    Mr. Stark. Well, Mr. Chairman, one of the things that was 
coordinated with the Courage to Call program, which is a Mental 
Health Services Act-funded program here in the county, which 
is--has mental health workers from MHS, peer outreach with 
VVSD--Veterans Village of San Diego--and 211 navigators who are 
peers and veterans working, shared experience is one of the 
keys to reaching veterans.
    And when we--when we use this information we have with the 
SSVF funding been able to work with the providers of SSVF 
funding to come up with an initial application that is 
coordinated across all of them. And so when they are referred 
out it becomes a more rapid intake and a more rapid use of that 
SSVF funding.
    If I have just a moment, though, I do want to comment on 
Tamera and Greg's comment about the aging veterans. It has long 
been known that the veteran community is the leading edge of 
what you might see in the community elsewhere with homeless 
veterans, with substance use, mental health, living on the 
street, poor hygiene.
    You are going to--we are going to find as a Nation that 
that is the leading edge of an aging veteran population and 
that could be telling us a lot about what we need to do. That 
groups of folks are not--are not on the radar right now.
    Mr. Levin. In the interests of time, I have more questions 
for everybody but we will do it offline.
    And I would like to turn to the Ranking Member for five 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    To follow up on that, I understand that Los Angeles--the 
city of Los Angeles banned people from homeless or people 
sleeping in cars, and then also I understand the city of San 
Diego did the same thing recently.
    Correct me if I am wrong, but if it is true, what is the 
rationale behind it? Are these people identified, particularly 
in this case, veterans, so that we can help them get shelter? 
And so does somebody want to respond to that? I would 
appreciate it.
    Mr. Anglea. In North County, if I could--in North County, 
we have funding another provider does for a safe parking 
program because there are--there are a hidden homeless 
population who are living in their cars.
    And if we aren't able to help them, they will no longer 
have cars and they will fall farther into homelessness. No 
local jurisdiction has accepted the request to be able to house 
that safe parking program. It is a shocking example of NIMBY-
ism that needs to stop.
    Mr. Bilirakis. Is it true that both the San Diego and Los 
Angeles have banned people sleeping in cars? Is that the case? 
Is that--
    Mr. Stark. So there are local parking ordinances, 72 hours 
of a vehicle being parked in the same place. You have pressures 
of call for service from the community that this car has been 
here.
    So these are some local constraints that are happening and 
there is no safe place to be and you have to constantly be on 
the move. Eventually, a homeless veteran is not going to have 
the gas money to move their car, or have a flat.
    It looks like an abandoned vehicle, and so I think that 
kind of lends to it as well. And there are people that will let 
someone park off the street on their residence because there 
are humane people and good will people in this county. But then 
that further distances them from care.
    Mr. Peters. Will the gentleman yield?
    Mr. Bilirakis. Yes.
    Mr. Peters. Just to answer your question, the city of San 
Diego has been embroiled in a discussion about how to use 
parking lots it has around, you know, various locations to 
allow people to sleep.
    That has not been finalized. But I don't--I don't believe 
that there is such a ban in place in the city of San Diego.
    Mr. Bilirakis. Okay. Thank you. Thank you for clarifying 
that. I appreciate it.
    Ms. Kim, I look forward to visiting Veterans Village for 
the second time this afternoon. I think it is a model for the 
entire Nation.
    Ms. Mitchell. Yes, sir.
    Mr. Bilirakis. I really--I love the concept.
    You talked about mental health and the fact that we are not 
screening enough maybe while our veterans are active military 
personnel or in DoD.
    What about--what is your opinion on mandatory screening 
prior to veterans--prior to veterans being--leaving the service 
and become veterans?
    And, you know, obviously, confidential but if you screen 
everyone you can identify and then it is, obviously, their 
decision as to whether they want treatment or not. What is your 
opinion? I know it is controversial but we got to face it.
    Yes?
    Ms. Mitchell. Yes, sir. I mean, obviously, it is 
controversial and a lot of it is self-identification. A lot of 
folks--a lot of servicemembers don't want to admit that they 
may have depression or anxiety or any type of mental health 
challenge, and they don't want the stigma attached to that.
    But I think in the long run it will help. It will help 
folks get on the right path to seeking services. I think it 
also starts at the top where commanders need to ensure, and 
senior enlisted need to ensure and push down to the lower 
ranks, that it is okay to ask for help. And it is okay to talk 
about it.
    Mr. Bilirakis. Yeah, that is true, no question, and we have 
made some progress, generally, nationwide. But what about 
mandatory screening? Screening everyone, and then releasing the 
information to the individual confidentially? I think that 
would be helpful. What do you think? Anybody else?
    Mr. Schillingburg. I think that is one of the big issues 
here is the transition process.
    So in the transition process when they are leaving the 
service they should be assigned a veteran service officer to 
start them out with their benefits whether they have been 
wounded, et cetera, but to get them into the system.
    And it should be pretty easy also because you have got a 
DoD personnel system with their medical records that has all 
their medical history that can be transitioned over into the VA 
system.
    There could be a handoff technically so that they could be 
in the system and be able to receive those benefits if 
something comes up, you know, later on down the road.
    Mr. Bilirakis. Yeah.
    Mr. Schillingburg. There is nothing like that right now. 
And so, you know, being able to support a transition program 
with a veteran service officer, then those guys that are 
veteran service officers can identify those, you know, mental 
illnesses or, you know, come up with the challenges because we 
see that.
    Mr. Bilirakis. Based on what is in the record.
    Mr. Schillingburg. Correct.
    Mr. Bilirakis. Yeah. Okay. I know I have to yield back. 
Thank you.
    Mr. Levin. Thank you. Thank you, Ranking Member Bilirakis.
    I would now like to recognize Chairman Takano for five 
minutes.
    Mr. Takano. Thank you, Chairman Levin.
    Ms. Mitchell, about how many project-based HUD-VASH 
vouchers do you administer?
    Ms. Mitchell. I will have to get that--the exact number.
    Mr. Takano. I mean, just a ballpark. I mean, is it 20, 30, 
50, 100?
    Ms. Mitchell. I am not sure of the exact number, sir.
    Mr. Takano. You are not sure. You are not sure.
    But my--so help us understand. The HUD-VASH voucher 
project--the project voucher--it is not only--it is not only--
the voucher not only is a revenue stream to help the project, 
you know, survive financially or to be viable financially, but 
that voucher also comes with what you say are the supportive 
services from the VA.
    And you are saying that organizations like yours have 
trouble getting those counselors and getting that--getting 
that--those wraparound services that are supposed to come to 
the VA to actually come out and provide those services. So that 
is what your testimony is, you said?
    Ms. Mitchell. Yes, sir. Yes, sir.
    Mr. Takano. I have heard this from other providers as well. 
And you say there is--you propose two solutions. Can you 
elaborate more about what--I mean, I want to give you some time 
to talk about what those two solutions might be.
    Ms. Mitchell. Well, the two solutions with regards to the 
legislation is--
    Mr. Takano. I mean I have heard other people say why don't 
you just allow us to hire our own people; we could hire them 
for less than the VA.
    I would have some pushback from some of the folks at the VA 
who think that, you know, they ought to have those positions. 
But do you have some thoughts about this, how we tackle this 
problem of--I am coming from the--go ahead.
    Ms. Mitchell. Oh, sir--well, I think it is one of those 
things--situations where it is in the best interest of our 
homeless veteran and their family.
    If they need services right away and the VA case manager is 
unable to get out there, the service provider who is charged 
with taking care of that individual should be able to have 
someone that can go out and do it--but for, like, myself at 
VVSD and some of the other CAVSA members, we have to provide 
some of that case management out of our own pocket if the VA 
field folks', the case managers, aren't able to go out there.
    Mr. Takano. Here is where I wish I had the VA still at the 
table because I would like to be able to have a back and forth 
about why are we having an issue with case workers getting out 
to--you know, to--
    Commander, you have something to say about--
    Mr. Schillingburg. Well, the American Legion we are about a 
half a block from the community resource center in Encinitas 
and what we have been doing is working with the community 
resource center to identify the veterans to get them into the 
VA system.
    But at the same time, the veterans are being able to 
resource the resource center for food, for shelter, and other 
things. And this is one of the reasons why we all come together 
as a community, not just as veterans, but to help, you know, 
everyone.
    So the community resource center has been able to help them 
out and in the transition it is getting them to the VA system 
so that they can get the HUD-VASH vouchers.
    Mr. Takano. Well, go ahead, Mr. Anglea.
    Mr. Anglea. The VA released a funding opportunity this 
year, an addendum to their grant per diem program--a case 
management opportunity for funding to just support veterans 
like we have talked about today who maybe already have HUD-VASH 
or have exited GPD programs.
    To my knowledge, not a single provider applied for that 
funding locally. The reason that we did not is that the funding 
was not adequate. It didn't provide enough funding to pay for 
the social worker to do the work.
    It didn't provide enough funding for them to do the mileage 
to go out and meet with people. It didn't have any money to 
actually help them keep somebody housed.
    There is more to say about it but it is an example of a 
really well-intentioned program that just wasn't adequately 
resourced and was too restrictive.
    Mr. Takano. This is very important feedback because I have 
heard this complaint more than once and from different 
providers--that the wraparound services--the social worker, the 
case worker--they are not getting out to places where these--
the HUD-VASH vouchers, that is the way it is supposed to work. 
HUD provides the money for the housing. The VA provides the 
support--the wraparound support.
    I am troubled that there seems to be some disconnect there. 
I yield back.
    Mr. Levin. Thank you, Mr. Chairman.
    I would like to recognize Representative Peters for five 
minutes.
    Mr. Peters. Thank you. Again, thanks to all the witnesses 
for making yourselves available.
    I want to ask Ms. Kohler, I am aware that you have a 
coordinated entry system. Can you walk us through the process 
by which veterans are handled in that system and let me know if 
you have any recommendations to improve referrals with your 
community partners and with your agencies?
    Ms. Kohler. Thank you.
    We are responsible for a coordinated entry system, which is 
more than just a referral to housing. It is coordinating anyone 
experiencing homelessness through a homeless system.
    But specific to the veteran's experience, we work very, 
very closely with the VA in two areas of funding so in the VASH 
voucher funding and in the SSVF, so the rapid rehousing.
    We make referrals directly to them of any eligible 
veterans. Fortunately for San Diego, at least from the numbers 
we are seeing, we have enough resources to be able to refer 
anybody who an assessment is done that is identified as a 
veteran.
    The reason I bring that up is part of the identification is 
one of the bigger challenges for veterans. Veterans don't 
always self-identify as being appropriately eligible.
    Many times they will think that they are ineligible for 
things or not even identify themselves as a veteran when they 
are seeking homeless services.
    But if someone identifies as a veteran, we collect specific 
information in the assessment. Some interesting data for you. 
We have about 700 veterans on a by name list currently that are 
referred to--
    Mr. Peters. On a what list?
    Ms. Kohler. Our by name list. We use a by name list in the 
coordinated entry, which is a way that we take everyone who is 
assessed and we organize them by vulnerability, by eligibility.
    So in San Diego, we have 700 veterans on that list. In that 
list, over a third of those veterans which we believed would be 
eligible for VASH look like they are not because of 
dishonorable discharge, of different eligibility, and it 
creates a significant challenge in the sense that that is the 
most eligible appropriate resource to end their homelessness 
and we are not able to really associate them with that benefit.
    The veterans with those referrals it is up to the Veterans 
Administration team to then determine who will get the next 
voucher. It is done with a client focus on where case 
management is. It is done in coordination of where a veteran 
may be seeking services or where they should be best stably 
housed.
    But they then make the connection between the homeless 
veteran and the housing authority, and all of the paperwork and 
all of that is done directly from the VA and our housing 
authorities.
    We are fortunate to have enough resources so that we refer 
everybody over. But it is taking far too long, and as 
Supervisor Fletcher mentioned, we have a significant amount of 
veterans with vouchers that cannot lease up.
    And so--and when they can't lease up that voucher is not 
eligible for someone else either. So that is a resource that is 
held in limbo until they can actually find a location to rent, 
which really speaks to the bias and stigma around a homeless 
population in general. Even with the care around veterans we 
are not housing them at the rate we should.
    Mr. Peters. Well, I think it speaks to the importance of 
dealing with this other than honorable issue--
    Ms. Kohler. Yeah.
    Mr. Peters [continued].--and, you know, thanks to the 
Committee for supporting our bill.
    I also wanted to call attention to the Fair Housing 
Improvement Act, which I introduced, that bans discrimination 
based on the source of income and vet status.
    You know, I think that is part of the problem. I think 
maybe a larger problem is the general housing costs that we 
have here. But I think that that is an element of it.
    I want to do a--I am going to yield to Mr. Takano in a 
second just for some more questions. But I did want to thank 
Mr. Schillingburg for the ideas on the hand off and also for 
bringing some District 52 expertise and leadership to Mr. 
Levin's district. I will yield to Mr. Takano.
    [Laughter.]
    Mr. Schillingburg. I am also working with Assembly District 
Tasha Horvath on her Veterans Committee, and one of the bills 
that is winding its way through California is S.B. 222, which 
will make it against the law to discriminate on anyone with 
that HUD voucher.
    Mr. Peters. I will yield the remainder of my time to Mr. 
Takano.
    Mr. Takano. Thank you.
    Mr. Anglea, how much more money would it have taken for you 
to be encouraged to apply for the grant you were mentioned--
referenced earlier? How short was it?
    Mr. Anglea. Yeah. If I recall correctly, it was a $225,000 
grant over two years and an additional 10 to 20 percent, and 
also just the flexibility to be able to move funding across 
line items. It was very restrictive.
    Mr. Takano. Real quick. For prevention--for homelessness 
prevention, how much--how much money are we talking about do 
you think we need? Can you quantify it?
    Mr. Anglea. Yeah. It costs us about $1,000 to prevent 
homelessness for most people. It costs us more than $10,000 per 
household.
    Mr. Takano. A thousand bucks. So a thousand bucks per 
household--
    Mr. Anglea. Per household. Yeah.
    Mr. Takano [continued].--per household would be effective 
prevention.
    All right. I wish we had more time, but thank you for that. 
Thanks.
    Okay, thank you. Thank you, Mr.--thank you, Chairman Levin. 
I appreciate that generosity.
    So let us talk about that a little more. I mean, how many 
people--how many people do you think we could prevent 
homelessness--$4,000? I mean, per household. How many 
households are we talking about?
    Mr. Anglea. I believe hundreds of households. I mean, we 
prevented homelessness this last year at my organization alone 
for 450 individuals. That is about 130 households.
    Mr. Takano. Uh-huh.
    Mr. Anglea. And, again, an average of $1,000 each and that 
is only the capacity we had. The amount of requests we received 
are far greater.
    That number will be greater this year through the study I 
mentioned and we will have the data to show the long-term 
impact. But it is a significant number, sir.
    Mr. Takano. I hope you will stay in touch with our 
Committee so we can get that study from you, and it seems--it 
seems apparent, I mean, evident to me that it is going to cost 
us far less to prevent it than to deal with the consequences of 
actually having it happen. So thank you.
    I yield back. Oh, go ahead.
    Ms. Kohler. I would also add, when we talk about prevention 
and high-rent districts, the cost that it takes to rehouse 
somebody is almost $10,000 compared to the $1,000 to prevent 
it.
    So when we have such a tight market and it is so expensive, 
it is even more important that we focus on that prevention. It 
is money well saved and money well spent.
    Mr. Takano. Great. Thank you.
    Mr. Levin. I want to thank everyone for being here. I want 
to thank everyone in the audience as well and we can now bring 
this hearing to a close.
    I think we have all learned a lot that will inform our work 
when we go back to Washington. I have had no greater honor in 
my first eight months of service than to be the Chairman of 
this Subcommittee where we have the chance to give back in a 
small way to the veterans who have given so much in service of 
our country.
    I am grateful to my friend, the Ranking member, for 
carrying forward the work of this Subcommittee in a true spirit 
of bipartisanship.
    I am grateful to the Chairman of the Full committee, Mr. 
Takano, for his outstanding leadership, and I am thankful to my 
friend, Mr. Peters, for continuing to lead on veterans issues.
    We need all of you to continue the work, to work together 
to help us get in this region, in San Diego and really 
throughout the United States, to an effective rate of zero 
veteran homelessness.
    And I think we have learned today just how complex and 
challenging an issue this is but one that we are absolutely 
committed to address.
    And as long as I have the opportunity to serve as a Member 
of Congress this will be a top priority of mine and I think a 
top priority of my colleagues as well.
    So thank you all very much. We appreciate your time. All 
members will have five legislative days to revise and extend 
their remarks and include additional materials.
    I want to thank the great staff as well--my great district 
director, Francine Busby, back there and Andy Ortega--everyone 
on the House Veterans Affairs Committee staff who made this 
happen--Faith from our district--from our D.C. office as well--
have just done an outstanding job.
    I want to thank everybody for watching this as it was live 
streamed. This is actually on YouTube and on social media. So I 
hope a lot of people were able to watch across the country and 
learn as we have here today in Oceanside.
    Without objection, the Subcommittee stands adjourned.

    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Dr. Robert Smith
    Good afternoon, Chairman Levin, Ranking Member Bilirakis, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to testify today on the topic of Veteran homelessness, the 
challenges faced by homeless women Veterans, and the risk factors and 
unique challenges faced by all homeless Veterans with respect to 
nutrition, employment, and criminal justice.
    VA San Diego Healthcare System (VASDHS) is committed to improving 
Veteran outcomes and providing Veterans access to comprehensive 
homeless programs, services, and resources. We also provide Veterans, 
including those who are at-risk of or experiencing homelessness, with a 
full spectrum of services designed to meet their unique needs. VASDHS 
is committed to ending homelessness among Veterans. Our focus is 
threefold:

    <bullet>  Conducting coordinated outreach to proactively seek out 
Veterans in need of assistance;
    <bullet>  Connecting homeless and at-risk Veterans with housing 
solutions, health care, community employment services, and other 
required supports; and
    <bullet>  Collaborating with Federal, state, and local agencies; 
employers; housing providers; faith-based and community non-profit 
organizations; and others to expand employment and affordable housing 
options for Veterans exiting homelessness.

Introduction

    VASDHS is accredited by The Joint Commission and serves Veterans 
throughout San Diego and Imperial Valley Counties. VASDHS is in La 
Jolla, California with community-based outpatient clinics (CBOC) 
located in Chula Vista, Escondido, Imperial Valley, Mission Valley, 
Oceanside, Sorrento Valley, and the Rio VA Clinic in San Diego. The 
number of Veterans in San Diego and Imperial Valley Counties is 
estimated to be 247,074. In Fiscal Year (FY) 2018, VASDHS treated 
84,712 Veterans. The total number of outpatient visits for FY 2018 was 
983,451, which included 109,498 at the Oceanside Clinic. We provide 
medical, surgical, mental health, geriatric, spinal cord injury, and 
advanced rehabilitation services.

Policy Issues Related to Veterans Homelessness (Risk Factors)

    According to the 2019 Point in Time (PIT) Count conducted in 
January, the San Diego region reported a total of 8,102 homeless 
individuals, of which 1,068 (13 percent) identify as Veterans. Veteran 
status and character of discharge are not verified during the Count. Of 
those who identify as Veterans, 644 were sheltered and 424 were 
unsheltered. The total number of homeless Veterans in the region 
decreased by 18 percent since the 2018 PIT count, and the unsheltered 
numbers decreased from the previous year by 35 percent. Since 2011, the 
region's overall number of homeless Veterans has decreased by 35 
percent. In the 2019 PIT Count, the City of Oceanside had a count of 
483 homeless individuals. Because the PIT Count does not break down 
Veteran status by City, the exact count of Veterans in Oceanside on the 
night of the Count is not known. However, utilizing the overall 
percentage of Veterans in the region, it can be estimated that 
approximately 63 homeless Veterans were in Oceanside on the night of 
the Count.
    VA's Homeless Veteran programs comprise the largest integrated 
network of homeless treatment and assistance services in the Nation. As 
a component of this network, VASDHS strives to provide a continuum of 
service-from outreach to permanent housing-to our homeless Veteran 
population. VASDHS partners with the local community to offer a wide 
array of special programs and initiatives designed to help homeless 
Veterans live as self-sufficiently and independently as possible.
    Over the past 5 years, VA and its partners have made a concerted 
effort to collaborate at the Federal level to ensure strategic use of 
resources to end Veteran homelessness. Coordinated entry systems (CES) 
are one outcome of this coordinated effort. CESs represent the 
systematic approach that is needed at the community level to ensure 
that resources are being utilized in the most effective way possible 
and that every Veteran in that community is offered the resources he or 
she needs to end their homelessness. All homeless Veterans in a given 
community are impacted by the coordinated entry system, given that its 
framework is designed to promote community-wide commitment to the goal 
of ending homelessness and utilizing community-wide resources 
(including VA resources) in the most efficient way possible for those 
Veterans who are in most need. This includes the prioritization of 
resources for those Veterans experiencing chronic, literal street 
homelessness.
    The VASDHS Health Care for Homeless Veteran (HCHV) Program fully 
participates in the regional CES which has been recognized by Community 
Solutions in 2017 as a ``national example.''
    VASDHS HCHV is designed to provide services to homeless Veterans 
and assist them in obtaining health care benefits within VASDHS or 
other local community programs if they are ineligible for VHA services. 
A priority of VASDHS HCHV is to break the cycle of homelessness using 
community resources, including permanent supportive housing programs; 
transitional housing programs; prevention and diversion programs; 
rapid-rehousing programs; substance use treatment programs; medical and 
mental health services; employment services; and/or case management. 
Sub-populations served range from those who are newly homeless and can 
self-resolve, to those who need temporary housing with short-term 
intensive services, to those that have severe mental health and/or 
substance use disorders and require ongoing supportive services to 
maintain permanent housing.
    VASDHS HCHV manages a wide array of Homeless Veteran programs 
including those focused on:

    1. Conducting coordinated outreach to seek out Veterans in need of 
assistance.

    <bullet>  VASDHS HCHV has Outreach Social Workers that provide 
services at VA facility-based clinics, including La Jolla and 
Oceanside; at the regional Veteran emergency shelter/tent; or at 
various locations. The Outreach staff additionally go into the field 
alongside community partners, such as the San Diego Police Department's 
Homeless Outreach Team and the Oceanside Police Department's Homeless 
Outreach Team. The Outreach team responds to calls from the National 
Call Center for Homeless Veterans and responds to hospital-based 
consults submitted by VASDHS providers that are working with homeless 
Veterans in any of our locations.
    <bullet>  VASDHS Veterans Justice Outreach (VJO) staff provide 
outreach services in local jails to justice-involved Veterans. These 
outreach efforts are offered alongside staff from the Veterans Benefits 
Administration to ensure a full range of resources. Individualized 
services are offered, with an effort to assist in discharge planning to 
prevent homelessness upon release. VJO Specialists staff local and 
Federal Veterans Treatment Courts with an effort to support justice-
involved Veterans engaged in treatment services.
    <bullet>  VASDHS is the co-founder of Stand Down, the homeless 
Veteran outreach and engagement event that started in San Diego 31 
years ago in collaboration with Veterans Village of San Diego, a local 
community partner, and has since grown into a national program, 
replicated by other sites throughout the Nation.

    2. Connecting homeless and at-risk Veterans with housing solutions, 
health care, community employment services, and other required 
supports. VASDHS HCHV offers a variety of services to homeless Veterans 
and/or Veterans at risk for homelessness.

    <bullet>  These programs include: Department of Housing and Urban 
Development-VA Supportive Housing Program (HUD-VASH), offering 
permanent supportive housing; Sponsor-Based permanent housing programs; 
Grant and Per Diem (GPD), offering transitional housing and program 
services; Contracted Residential Services Programs (CRS), offering 
specialty transitional housing and program services such as 
Recuperative Care and Safe Haven; Outreach, providing street-based and 
clinic-based outreach services, as well as responding to the National 
Homeless Call Center and VASDHS' hospital-based consults; Homeless - 
Patient Aligned Care Team, offering primary care services to homeless 
Veterans; and VJO and Veterans Treatment Court programs. VASDHS HCHV 
additionally collaborates with adjunct programs, such as the VA-funded 
Supportive Services for Veteran Families (SSVF) program, to ensure 
Veterans' accessibility to prevention, diversion, and rapid rehousing 
programs.
    <bullet>  VHSDHS HCHV participates in the S.A.V.E. program, a 
partnership between HCHV and VASDHS' Suicide Prevention Program, 
whereby homeless program staff provide suicide prevention training to 
community partners and first responders.
    <bullet>  HCHV Homeless Veterans Community Employment Services 
(HVCES) program connects Veterans to local employers and assists 
Veterans through individual and group services to access competitive 
employment opportunities. HCHV staff refer/link Veterans to the VA's 
Compensated Work Therapy Program and Vocational Rehabilitation and 
Employment Programs. HVCES staff also refer/link Veterans to the 
Homeless Veterans Reintegration Programs, a Department of Labor-funded 
program offered by local grantees.

    3. Collaborating with Federal, state, and local agencies; 
employers; housing providers; faith-based and community nonprofits; and 
others to expand employment and affordable housing options for Veterans 
exiting homelessness. VASDHS collaborates with numerous Federal, state, 
and local partners to end homelessness among Veterans and has developed 
well-established partnerships with many different faith-based and non-
profit programs.

    <bullet>  Permanent supportive housing: VASDHS HCHV program 
collaborates with HUD, San Diego Housing Commission, County of San 
Diego Public Housing Authority, City of Oceanside Public Housing 
Authority, and various Project-Based housing organizations contracted 
to offer HUD-VASH units, such as Trestle Development, Hyder & Company, 
Affirmed Housing, and Solari Enterprises.
    <bullet>  Permanent housing programs: VASDHS HCHV collaborates with 
San Diego Housing Commission, Alpha Square, and local SSVF programs, 
including, Interfaith Community Services (ICS), Veterans Villages of 
San Diego (VVSD), Volunteers of America (VOA), Southwest VOA, People 
Assisting the Homeless (PATH), and Veterans Community Services (VCS).
    <bullet>  Transitional Housing programs: VASDHS HCHV collaborates 
with St. Vincent de Paul/Father Joe's Villages (SVdP), ICS, VVSD of San 
Diego, VOA, Southwest VOA, and PATH.
    <bullet>  CRS Programs: VASDHS HCHV collaborates with SVdP and ICS.
    <bullet>  VJO: VASDHS HCHV collaborates with San Diego County 
Sheriff's Department, Vista Detention Center, San Diego Superior Court 
- Veterans Treatment Court, Federal Military Diversion Court, Federal 
Veterans Treatment Court.
    <bullet>  Outreach: VASDHS HCHV collaborates with San Diego Day 
Center, Family Health Centers of San Diego, San Diego Police Department 
Homeless Outreach Team (HOT), Oceanside Police Department HOT, City of 
Chula Vista Police Department's HOT, SVdP, ICS, VVSD, Southwest VOA, 
Veterans Community Services, Alpha Project, McAlister Institute, Union 
of Pan Asian Communities, National Alliance for Mental Illness, PATH, 
County of San Diego Health and Human Services, Downtown San Diego 
Partnership, and The Salvation Army.
    <bullet>  Stand Down: VASDHS is the co-founder of Stand Down, 
alongside VVSD.
    <bullet>  Coordinated Entry System: VASDHS HCHV collaborates with 
the Regional Task Force on the Homeless, which is the local Continuum 
of Care Council. VASHDS is an active Board Member of the region's 
Continuum of Care Council.
    <bullet>  Other non-profit organizations providing goods and 
services: VASDHS HCHV collaborates with the Elks Club, AmVets, and the 
Veterans Service Organizations.

    In addition, VASDHS HCHV has actively participated in past local 
community initiatives such as the Mayor of San Diego's 1,000 Veterans 
program and Project 25, as well as nationwide efforts, such as Built 
for Zero and the 25 Cities Initiative.
    These community partners have been strong partners in our efforts 
and we appreciate their contributions to our Veterans' health and 
welfare. VASDHS has worked with our community partners for more than 25 
years. Ending Veteran homelessness depends heavily upon collaborative, 
joint efforts from community agencies and local governments.

Homeless Women Veterans

    According to the 2019 PIT Count, the San Diego region has 83 
homeless women that identify as Veterans, of which 48 are sheltered and 
35 are unsheltered. VASDHS HCHV offers services to women Veterans in 
the GPD programs, located at Interfaith Community Services in Oceanside 
and VVSD in the City of San Diego. VVSD additionally receives special 
needs funding for two of their VA-grant programs to serve women 
Veterans and women Veterans with families. The local Veterans Emergency 
Shelter, privately funded and operated by VVSD, offers emergency 
shelter beds to women Veterans. VASDHS HCHV staff have established 
relationships with the VVSD shelter program staff and are able to 
assist with referrals for women Veterans when beds are available. 
VASDHS HCHV collaborates with the Women Veterans Program at VASDHS, 
which offers resources to women Veterans, as well as connects them to 
specialty care for medical and mental health services. VASDHS recently 
implemented an Intimate Partner Violence program and VASDHS HCHV has 
assigned homeless program staff for this area of specialty to be 
trained this fall.
    VA has made significant progress serving women Veterans in recent 
years, but homelessness among women Veterans remains an important 
concern and focus. Women Veterans can face many challenges when 
returning to civilian life, including raising children on their own and 
dealing with the psychological after effects of events such as military 
sexual trauma, employment, and housing barriers. Local Communities 
across the Nation are continuing to align resources to address these 
unique challenges. VA Women's Health services programs are engaged with 
to support a systematic and coordinated approach to care:

    <bullet>  Women Veteran Program Managers (WVPM) are located at 
every VA Medical Center (VAMC). WVPMs help coordinate all the services 
that women Veterans may need. Services include primary care, pregnancy 
care, psychiatric care and sexual trauma counseling, inpatient medical/
surgical care, programs for homeless women Veterans, and quality of 
care issues.
    <bullet>  Military Sexual Trauma (MST) is the term used by VA to 
refer to sexual assault or repeated, threatening sexual harassment 
experienced during military service. Homeless women Veterans who use VA 
health care have higher rates of experiencing MST compared to all women 
Veterans who use VA health care. MST-related health care for physical 
and mental health conditions is available free of charge at every VA 
facility for eligible persons. There is MST Coordinators at every VAMC 
who can connect Veterans who have experienced MST to VA health care 
programs and services.

Mental Illness

    Secretary Wilkie recognizes homeless Veterans are a high-risk 
population for suicide and has made suicide prevention one of his top 
priorities.
    VA's National Center on Homelessness among Veterans published 
research in 2018 (https://www.va.gov/HOMELESS/nchav/research/HERS6--
Suicide.asp) that found homelessness is associated with an increased 
rate of all-cause mortality and of suicide in Veterans. A study by John 
McCarthy highlighted at the VA Homeless Evidence and Research Synthesis 
Roundtable Proceedings in 2018 found that the suicide rate among 
Veterans with homelessness in the past year was 81.0 per 100,000 as 
compared to Veterans without recent history of homelessness with a rate 
of 35.8 suicides per 100,000.
    Because suicide prevention is one of the Secretary's top 
priorities, VA Homeless Programs are required to collaborate with 
Suicide Prevention programs using the S.A.V.E. program to cross-train 
homeless program staff on suicide prevention programs and to enable 
homeless program staff to train community providers and first 
responders on suicide and suicide prevention. Additionally, this team 
meets regularly to review high-risk Veterans identified by the Recovery 
Engagement and Coordination for Health program to discuss and develop 
appropriate treatment plans to address risk factors. VASDHS HCHV has 
staff from the CES program, the VJO program, and Outreach program that 
meet with the Suicide Prevention Coordinator monthly. Staff involved in 
this effort have provided formal training to local GPD Providers as 
well as other Veteran community partners and first responders.

Affordable Housing

    VA continues to promote the establishment of affordable and 
permanent supportive housing and works with all partners to encourage 
efforts aimed at financing and developing additional housing stock to 
address the market factors. VASDHS's Homeless Program is working with 
San Diego Housing Commission to open project-based housing units for 
the HUD-VASH program. The first project came online in the Spring of 
2019, and two additional programs will be opening this fall. VASDHS's 
Homeless Program is currently in talks with two prospective community 
partners about the possibility of converting tenant-based vouchers to 
project-based vouchers to create more available units in the region. In 
addition, VA and HUD have awarded the San Diego Housing Commission and 
County of San Diego Public Housing Authority 100 project-based vouchers 
to create dedicated units subsidized by these HUD-VASH vouchers.

Criminal Justice History

    Studies of Veterans receiving VA homeless services have shown that 
65% have a history of incarceration in prison or jail. Criminal justice 
histories create barriers-in addition to those noted above-to permanent 
housing, employment, education, and other resources, further limiting 
VA's ability to help homeless Veterans access these resources. This 
limitation is particularly acute for Veterans with histories of sexual 
offenses, for whom barriers to critical resources imposed by Federal, 
state, and local authorities pervade most areas of life. VA serves 
Veterans with criminal justice histories in its own programs (e.g., 
HUD-VASH) and facilitates Veterans' access to legal services, which may 
offer opportunities for record expungement, however, access barriers 
for those with criminal justice histories continue to limit the ability 
of many Veterans to take advantage of non-VA resources.

Employment

    The lack of employment opportunities and services that mitigate 
barriers to employment will adversely impact housing stability and 
community integration for formerly homeless Veterans. Without enough 
income, transitioning homeless Veterans will not be able to exit 
homelessness into permanent housing successfully. As mentioned above, 
VA's HVCES staff work closely with community partners and VA Medical 
Facilities to ensure that a range of employment services are accessible 
to Veterans who have experienced homelessness.
    VA continues to support Vocational Development Specialists who are 
embedded in homeless program teams and serve as Employment Specialists 
and Community Employment Coordinators. In addition, HVCES program staff 
ensure that Veterans who have experienced homelessness, including 
chronically homeless Veterans, have access to a range of employment 
services that complement existing medical center-based employment 
services and are a bridge to employment opportunities and resources in 
the local community.

    <bullet>  In April 2018, the HVCES program set a national goal of 
reaching 10,000 unique instances of employment (each episode of 
employment gained by a Veteran) between April 1, 2018, and March 31, 
2019.
    <bullet>  As of April 1, 2019, there were over 21,000 unique 
instances of employment, more than double the employment goal for 
Veterans engaged in or who exited from VHA Homeless programs or 
Services.

Data Sharing

    Due to the transient nature of this population, a loss of access to 
Veteran health care information may also lead to inaccurate master by-
name lists of Veterans experiencing homelessness in local communities 
and local resource planning as a result. Improving data sharing 
processes between VA and communities will ensure that Veterans 
experiencing homelessness have access to available services and 
resources. The risk of not improving data sharing processes will impact 
community's ability to successfully assess needs of homeless Veterans 
and match services to meet those needs.

Reducing Veteran Homelessness

    Reducing the number of Veterans who become homeless continues to be 
a vital step towards VA's goal of ending homelessness among Veterans. 
VA is working to improve predictive strategies and deploying evidence-
based practices designed to identify and prevent homelessness. VA has 
begun a national rollout of the Rapid Resolution Initiative which 
expands on a pilot program begun in FY 2018 to reunify Veterans with 
family members or friends as an alternative to shelter entry. SSVF is 
supporting mediation training by conducting free train-the-trainer 
programs for grantees around the country supported by an SSVF technical 
assistance grant. The train-the-trainer approach literally trains 
grantee staff to become trainers, so they can educate other staff in 
their agency and the broader community on these mediation techniques. 
VA Community Entry Specialists have also been invited to these 
trainings so VAMC staff are able to join this collaborative effort. In 
addition, SSVF has provided grantees with additional funding so they 
can support education for their staff on these techniques. Using 
mediation training and modest financial incentives through the SSVF 
program, VA is working with HUD, the U.S. Interagency Council on 
Homelessness, and other Federal agencies to create policies and train 
community-based staff to support implementation of this model. VASDHS 
SSVF providers have been working with VASDHS HCHV to implement the 
Rapid Resolution program locally in FY 2020.
    In addition, VASDHS HCHV uses results from the Community 
Homelessness Assessment, Local Education, and Networking Groups for 
Veterans (Project CHALENG) to identify unmet needs and encourage new 
partnership development to meet those needs. Over the years, CHALENG 
has helped build thousands of relationships between VA and community 
agencies so they can better serve homeless Veterans locally. Data from 
the survey on Veterans' unmet needs have assisted VA in evaluating 
programs for their scale, scope, improvement, and effectiveness to 
prevent and end homelessness for our Nation's Veterans.

Unique Challenges

Nutrition, the Criminal Justice System, Health Care, and Employment

    Significant progress has been made in preventing and ending Veteran 
homelessness. The number of Veterans experiencing homelessness in the 
United States has declined by nearly half since 2010, as more than 
700,000 Veterans and their family members have been permanently housed 
or prevented from becoming homeless. Although significant progress has 
been made, homeless and at-risk Veterans are faced with many 
challenges. VA has taken the following actions to address these 
challenges.

Nutrition

    In 2018, VA partnered with Feeding America with a shared goal and 
commitment to Veterans who require immediate hunger assistance in 
support of ending Veteran food insecurity. Through this partnership, VA 
and Feeding America have worked together to support participating 
Feeding America network food banks and VA medical facilities, through 
the development of pop-up food pantries at 18 VAMCs. Through these 
pantries, more than 600,000 meals have been served to more than 30,000 
Veterans and their family members who were experiencing food 
insecurities or those at risk of experiencing food insecurity. This 
partnership is growing as more VAMCs set up pantries through this 
partnership.

VJO

    VA serves justice-involved Veterans through two dedicated national 
programs, both prevention-oriented components of VA's Homeless 
programs: Health Care for Reentry Veterans (HCRV) and VJO. Known 
collectively as the Veterans Justice Programs, HCRV and VJO facilitate 
access to needed VA health care and other services for Veterans at all 
stages of the criminal justice process, from initial contact with law 
enforcement through community reentry following incarceration.
    Part of the continuum of services offered by VASDHS HCHV is the VJO 
program. This program provides resources, referrals, and case 
management services by VJO Specialists to Veterans with a variety of 
justice-involved needs, ranging from those participating in Treatment 
Court to those who are incarcerated, those that may be on probation/
parole, and for those in need of homeless court advocacy.
    VJO Specialists are assigned to provide case management services to 
Veterans involved in the following VTC: San Diego's Superior Court 
Veterans Treatment Court, Federal Military Diversion Court, and Federal 
Veterans Treatment Court.
    The VJO program works closely with the Sheriff Department in the 
Vista Detention Center's Veterans Module to offer information, 
resources, and participates in discharge planning for incarcerated 
Veterans to ensure that Veterans are linked to programs to address 
issues related to housing, substance use, medical care, mental health, 
and employment programs prior to their release. Specifically, many 
Veterans are linked by the VJO Specialists to VA-funded GPD programs, 
the VASDHS Alcohol and Drug Treatment Program as part of their 
probation/parole. A VJO Specialist provides case management services 
after release from the Veterans Module to ensure greater success and to 
help reduce recidivism. This program has won several awards for 
excellence and has since been replicated by other Sheriff Departments 
nationally.

Expanding Access

    H.R. 2398 would amend the United States Housing Act of 1937 and 
title 38, United States Code (U.S.C.), to include those who are 
ineligible for other VA Homeless programs authorized by 38 U.S.C. 2011, 
2012, 2013, 2044, and 2061. As VA expressed in a letter to the 
Subcommittee on May 31, 2019, VA supports the expansion of eligibility 
in section 1(b) of the bill, although we note that the amendments made 
by section 1(a) of the bill are unnecessary because there is no 
eligibility issue on the HUD authorization side. This legislation is 
designed to match HUD-VASH eligibility criteria to that of the GPD and 
SSVF programs. Although VA supports this proposed legislation as it 
will allow additional vulnerable chronically homeless Veterans to 
receive much-needed HUD-VASH vouchers and case management, we note that 
in expanding eligibility, VA and HUD will need to coordinate to ensure 
responsible program implementation in order to maintain continued 
quality of care and success of the HUD-VASH program.
    VA also supports H.R. 716 if amended, as the bill is similar to a 
legislative proposal in VA's FY 2020 budget request. VA testified on 
this bill at a July 19, 2019, Subcommittee hearing.

Conclusion

    VA, VASDHS, and the Oceanside Clinic, are committed to providing 
the high-quality care our Veterans have earned and deserve. We continue 
to improve access and services to meet the needs of Veterans. We 
support all efforts to increase Homeless Veteran HUD-VASH 
prioritization eligibility. We appreciate the opportunity to appear 
before you today and the resources Congress provides VA to care for 
Veterans.

                                 <F-dash>
                 Prepared Statement of R. Hunter Kurtz
Introduction

    Good morning Chairman Takano, Chairman Levin, Ranking Member 
Bilirakis, and Congressman Peters. Thank you for this important 
opportunity to discuss the efforts of the U.S. Department of Housing 
and Urban Development (HUD), its Office of Public and Indian Housing 
(PIH), and our Federal partners to end veteran homelessness in the 
United States.
    HUD is committed to ending veteran homelessness by working 
collaboratively with our partners and maximizing the effectiveness of 
all existing resources. Thanks to funding from Congress and close 
collaboration among Federal and local partners, the nation has 
continued to make progress in addressing veteran homelessness and 
creating sustainable Federal and local systems that quickly respond to 
homelessness.
    I am honored to serve as HUD's Assistant Secretary for Public and 
Indian Housing. The HUD-VASH program, which is administered by PIH, 
works to provide homes to veterans who are homeless, or who are at risk 
of homelessness. HUD staff, local housing authorities, Continuum of 
Care, and local Veterans Affairs medical centers (VAMCs) work in tandem 
to provide homes and services to homeless veterans. I can attest that 
this program has been successful in providing a home-not just a house-
to our nation's veterans.

General HUD Homeless Assistance Programs

    HUD's Office of Community Planning and Development (CPD) provides 
about $2.4 billion annually to communities to help end homelessness. 
Funding is primarily used for permanent supportive housing, which 
successfully houses people with long histories of homelessness and 
significant disabilities. Permanent supportive housing has proven to 
reduce hospitalization and emergency room utilization while 
dramatically improving the well-being of the people it serves. HUD also 
provides funding for rapid re-housing, a cost-effective strategy that 
helps people move quickly into housing. This strategy combines short-
term financial assistance and supportive services to help the formerly 
homeless stabilize in their housing, increase their employment and 
income, and connect to community supports. HUD also supports emergency 
shelter, transitional housing, and many other types of assistance 
dedicated to ending homelessness.
    In 2017, the last year for which data is available, approximately 
17,000 veterans were served using $97 million through HUD's Continuum 
of Care (CoC) program. Most of that funding is for permanent supportive 
housing that houses approximately 10,000 veterans with disabilities. 
Thousands more veterans are served with rapid re-housing, emergency 
shelter, and other assistance.

HUD-Veterans' Affairs Supportive Housing (HUD-VASH)

    As I stated previously, the HUD-VASH program is administered by 
HUD's Office of Public and Indian Housing. HUD-VASH is dedicated to 
housing homeless veterans. HUD-VASH has been successful in its approach 
to addressing veteran homelessness byproviding long-term housing 
assistance to the most vulnerable veterans experiencing homelessness. 
It combines housing choice voucher (HCV) rental assistance for homeless 
veterans with case management and clinical services provided by the 
Department of Veterans Affairs. VA provides these services for 
participating veterans at VA medical centers (VAMCs) and community-
based outreach clinics.
    In the HUD-VASH program, the local VAMC case managers screen and 
determine veteran eligibility for the program. Eligible veterans are 
then referred to the partnering Public Housing Authority (PHA) to 
receive their housing voucher assistance. By agreeing to administer the 
HUD-VASH program, the PHA is relinquishing its authority to determine 
the eligibility of families in accordance with regular Housing Choice 
Voucher program rules and PHA policies with one exception: PHAs are 
required to prohibit admission of any member of the household subject 
to a lifetime registration requirement under a state sex offender 
registration program. PHAs must also ensure that veterans are income 
eligible.
    To date, Congress has appropriated $755 million in HUD-VASH 
funding. HUD-VASH vouchers are renewed based on actual leasing, as with 
the HCV program generally. When a household leaves the program, their 
voucher is reissued to another eligible household.
    Every year since 2008, HUD and VA have collaboratively awarded new 
HUD-VASH vouchers based on a community's eligible veteran population 
and administrative capacity. A total of 97,576 HUD-VASH vouchers have 
been awarded to PHAs to date. There have been additional PHAs added to 
each allocation. There is at least one PHA administering HUD-VASH is 
each of the 50 states, in the District of Columbia, Puerto Rico, and 
Guam. Of these, about 4,700 were awarded through a competitive set-
aside as project-based vouchers (PBV) in which the rental subsidy is 
assigned to a specific housing unit rather than provided to a veteran 
to find a unit in the private market to rent. PBVs have proven to be an 
effective tool to help address the need for HUD-VASH in high-cost 
rental markets or where there is a lack of affordable housing stock. In 
addition to the HUD-VASH vouchers specifically awarded as PBV, PHAs, 
with the support of their local VA partners, have the ability to 
convert any of their existing HUD-VASH vouchers to PBV.
    According to VA data, 76,992 HUD-VASH vouchers were under lease. An 
additional 4,693 had been issued but were not yet leased. This equates 
to a total of 81,685 HUD-VASH vouchers ``in use.'' An additional 1,371 
had been referred, but were not yet issued. Over 174000 veterans have 
moved into housing with a HUD-VASH voucher since 2008.
    HUD will be awarding approximately 5,000 new HUD-VASH vouchers with 
the additional $40 million in HUD-VASH funding that was appropriated in 
FY2019. HUD is working with VA and the U.S. Interagency Council on 
Homelessness (USICH) to determine the processes and priorities for this 
award.
    HUD did not request new HUD-VASH vouchers in FY 2020 because, based 
on an analysis conducted jointly by HUD and the VA, the turnover of 
these existing HUD-VASH vouchers and the FY 2019 appropriation of $40 
million is enough to meet the demand of current referrals of VA 
eligible veterans who are experiencing homelessness and require the 
intensive services and support of a HUD-VASH voucher.
    To fulfill our shared commitment to ending veteran homelessness, it 
is important to remember that HUD must serve all veterans experiencing 
homelessness, including those not eligible for VA services. To achieve 
this, HUD has been working with select communities and their local VA 
and CoC-funded local supportive service providers to create a process 
that allows PHAs to partner with local, VA-designated service-providers 
and use a portion of their existing HUD-VASH vouchers to assist those 
homeless veterans with other-than-dishonorable discharges who do not 
qualify for VA healthcare. This flexibility also helps communities 
better maximize the utilization of their HUDVASH resources.
    Congress has provided HUD flexible authority to design the HUD-VASH 
program in ways that would best serve veterans experiencing 
homelessness. These efforts around HUD-VASH demonstrate HUD's 
commitment to optimize the effectiveness of the HUD-VASH program and 
allow for local flexibility in addressing the homeless veteran 
population. HUD is also exploring options to ensure maximum utilization 
of these vouchers to ensure the highest number of homeless veterans are 
being served across the country. Because HUD-VASH is a joint program 
between HUD and the VA, both Departments are working collaboratively on 
this reallocation effort to ensure that existing HUD-VASH resources are 
being used as efficiently and effectively as possible to serve the 
maximum number of eligible veterans across the country. Therefore, HUD 
and VA are focusing on changes to maximize effectiveness in the 
allocation of new vouchers and supporting PHAs in their efforts to 
improve utilization, as opposed to the recapture and reallocation of 
existing vouchers.

Recapture and Reallocation of HUD-VASH Vouchers

    In March of this year, HUD submitted a report to Congress on the 
recapture and reallocation of HUD-VASH vouchers in response to the 
Consolidated Appropriations Act, 2018 (P.L. 115-141). Congress directed 
the department to use existing authority to recapture HUD-VASH vouchers 
from PHAs that voluntarily declare they no longer have a need for-or 
have mismanaged-their allotted vouchers.
    Because HUD-VASH is a joint program between HUD and the VA, both 
departments are working collaboratively and view this reallocation 
effort as part of a broader mission to ensure all existing HUD-VASH 
resources are being used as efficiently and effectively as possible to 
serve the maximum number of veterans across the country. In general, 
the goals of the reallocation process is to ensure that all current and 
future HUD-VASH resources are being used to the maximum benefit of 
veterans. HUD and VA will continue to report on the process and actions 
taken.
    At this time, HUD has not recaptured and reallocated HUD-VASH 
vouchers. There has been no PHAs or VAMCs that have voluntarily 
declared that they no longer have a need for HUD-VASH, nor has HUD or 
VA determined that any PHAs has mismanaged its allotted vouchers. HUD 
reviews HUD-VASH utilization rates when new data is available each 
month and addresses any PHASs with low utilization.
    However, HUD has established a process for transferring HUD-VASH 
vouchers between mutually agreeing PHASs within a single VAMC catchment 
area to address utilization issues while still addressing the need at 
the VAMC level. Additionally, the departments collaborated to create 
HUD-VASH Continuum to serve VA-ineligible veterans through a non-VA 
provider when there are HUD-VASH vouchers available.
    Currently, HUD is focused primarily on changes to the allocation of 
new vouchers to maximize effectiveness. For example, the department has 
utilization threshold criteria to only award additional HUD-VASH 
vouchers to communities effectively using their existing HUD-VASH 
resources.

Tribal HUD-VASH

    The Tribal HUD-VASH demonstration program provides rental 
assistance and supportive services to veterans who are Native American 
and experiencing homelessness, or at risk of homelessness, while living 
on or near a reservation or other Indian areas. Veterans participating 
in this program are provided housing assistance through HUD and 
supportive services through VA to foster long-term stability and 
prevent a return to homelessness.
    The pilot was first authorized in the Consolidated and Further 
Continuing Appropriations Act, 2015 (Public Law 113-235) and Congress 
has continued its support in subsequent years by enacting funds for 
renewal grants and modest expansion. In all, 26 Indian tribes or 
tribally designated housing entities (TDHE) currently participate in 
the program. These recipients were initially awarded grants totaling 
$5.9 million based on their level of need and administrative capacity. 
HUD provided a first round of renewal funding to these recipients in 
2018 and expects to do so again in 2019. HUD will also award additional 
funding to expand the program using funds provided in the Consolidated 
Appropriations Act of 2017.
    Implementation of the program is overseen by HUD's Office of Native 
American Programs (ONAP) within PIH, and VA is responsible for 
providing case management services and referring eligible veterans for 
housing assistance. As of July 31, 2019, approximately 600 veterans 
have received case management services, and of those, over 345 veterans 
are also currently being housed under the Tribal HUD-VASH program. The 
program is producing tangible results, housing homeless or at risk of 
becoming homeless Native American veterans and their families who were 
camping out, living in places not meant for human habitation, living in 
severely inadequate units - without running water, heat or electricity-
or in overcrowded living conditions.
    The President's Budget for FY 2020 requests authority to set aside 
up to $4 million of Tenant Based Rental Assistance funds for necessary 
renewal funding for the Tribal HUD-VASH program. While HUD believes 
there is sufficient carryover funding appropriated in previous years to 
provide renewal grants, this authority will allow the Department to 
ensure that all veterans remain stably housed in the event that renewal 
funding needs are higher than anticipated.

Continued Collaboration with VA and USICH

    HUD has worked closely with VA for many years administering HUD-
VASH. Together, HUD, VA and the USICH have implemented a joint 
decision-making structure known as Solving Veterans Homelessness as One 
(SVHO) where the agencies jointly administer the programs and policies 
related to veteran homelessness and develop and implement a range of 
strategies for preventing and ending veteran homelessness. This 
structure allows us to jointly review data on HUD-VASH and other 
programs and to coordinate policymaking to ensure our assistance is 
integrated and impactful.
    This collaboration has also helped us improve utilization in the 
HUD-VASH program, coordinate the implementation of the Tribal HUD-VASH 
program, better target available assistance to those with the highest 
needs, and ensure resources are prioritized for communities with 
greater numbers of veterans experiencing homelessness.
    HUD, VA and USICH have also used the structure of SVHO to jointly 
create standards for evaluating whether communities have ended veteran 
homelessness. Since 2014, more than 880 elected officials, including 
mayors, city and county officials, and governors have set a goal of 
ending veteran homelessness in their communities. As of August 9, 2019, 
77 communities and 3 states have achieved the goal.
    The agencies also collaborate on the implementation of Coordinated 
Entry Systems, meaning a system that is easy for veterans and other 
persons experiencing homelessness to access. Coordinated Entry ensures 
that a homeless person has simple access to housing and other 
homelessness resources. The collaboration between HUD and VA ensures 
that veterans have access to all the resources in a community, 
including VA dedicated resources, no matter where and how they access 
assistance.

Technical Assistance for Communities

    Because the ability of any community to end veteran homelessness 
depends on the strength of each community's leadership and successful 
implementation of proven strategies, HUD and its Federal partners are 
committed to helping communities get there. In addition to providing 
homeless assistance funds, HUD supports several technical assistance 
initiatives that have helped reduce veteran homelessness. The Built for 
Zero and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c791a2b3b4878fa8aaa2">[email&#160;protected]</a> initiatives help communities implement best 
practices and learn from the successes of other communities. Both 
initiatives were designed with the explicit goal of helping communities 
end veteran homelessness.
    Some best practices have included incorporating HUD-VASH in a 
larger coordinated entry system to ensure there are multiple access 
points for veterans seeking help, coordinated outreach efforts to 
locate all veterans in need of assistance, and better data sharing 
across systems to ensure veterans do not fall through the cracks.
    HUD has worked with its partners to identify specific strategies 
for utilizing HUD-VASH vouchers in high-cost, low-vacancy communities. 
These are often the same communities with the greatest need. In 
addition to converting HUD-VASH to project based vouchers, PHAs have 
used their flexibility to increase their payment standard, including 
the adoption of exception payment standards, to be competitive in the 
private market. Another strategy has been intensive landlord outreach 
and maintaining landlord relationships. PHAs have also been able to 
connect with local service providers that assist veterans in their 
housing search.
    HUD continues to help communities with targeted assistance. The 
Department has launched a technical assistance initiative focused on 
helping communities with high numbers of unsheltered people 
experiencing homelessness, including high numbers of unsheltered 
veterans. The initiative focuses on helping those communities implement 
best practices that have helped end veteran homelessness in cities such 
as Houston, New Orleans, and Las Vegas. HUD is also providing 
assistance to rural communities to help increase their capacity and 
address challenges unique to veterans living in rural areas, such as 
access to transportation.

Results

    Each year, communities across the country conduct point in time 
counts of people experiencing homelessness. The count, held annually in 
January, includes people living in shelters as well as people sleeping 
on sidewalks, in parks, in cars, or in other places not meant for human 
habitation. While we work to reduce homelessness across all 
populations, we have made real progress on reducing veteran 
homelessness. Based on the 2018 count, veteran homelessness decreased 
by 5.4 percent between 2017 and 2018 bringing the overall decline in 
veteran homeless to 49 percent (a decrease of 36,209 veterans) since 
2010. This kind of reduction is historic, and HUD-VASH has been a 
primary reason for this progress.
    A robust body of evidence shows that the combination of housing 
vouchers, permanent supportive housing, rapid re-housing, and other 
targeted interventions can indeed end homelessness. The long-term 
national trend and the results in the many communities that have ended 
veteran homelessness show the positive results of a coordinated effort.

Conclusion

    A great deal of progress has been made in the way HUD works with 
other agencies to address veteran homelessness. The HUD-VASH program 
continues to be a model for interagency collaboration and one of the 
best tools for ending veteran homelessness. Nonetheless, HUD must 
continue to find ways to maximize the effectiveness of the HUD-VASH 
program, while also assisting communities in utilizing all available 
homeless assistance resources.
    Thank you again for this opportunity to discuss HUD's efforts to 
end veteran homelessness.

                                 <F-dash>
                 Prepared Statement of Ginny Puddefoot
    Good morning.
    My name is Ginny Puddefoot and I am the Executive Officer of the 
Homeless Coordinating and Financing Council. The Council is under the 
California Business, Consumer Services and Housing Agency and is 
chaired by Alexis Podesta, Secretary of the Agency.
    The California Department of Veterans Affairs (CalVet) is 
represented on the Council by Undersecretary Russell Atterberry, who 
was, until January 2019, the Vice Chair of the Council.
    Before I get started, I'd like to give you some facts and figures 
about homelessness, and veterans' homelessness, in California.
    California has 12 percent of the nation's population but 25 percent 
of the nation's homelessness.
    We have the largest number of veterans of any state. That's about 
8.5 percent of the nation's veterans, but we have about 28 percent of 
the nation's homeless veterans.
    The homeless point-in-time count occurred early this year. While 
the final numbers from the U.S. Department of Housing and Urban 
Development (HUD) won't be coming out until the fall, the vast majority 
of local reporting agencies are reporting increases in their homeless 
populations.
    However, we have been seeing progress in reducing veterans' 
homelessness. In January, Los Angeles County reported an overall 
increase of 12 percent in the total number of homeless but reported a 
slight drop in the number of homeless veterans.
    And I know we're in San Diego County, but I want to acknowledge our 
neighbor Riverside County to the north. Riverside County is the first 
county in California to reach ``functional zero'' when it comes to the 
number of homeless veterans there. That means that homelessness among 
veterans in Riverside County is rare, brief, and non-recurring, and no 
veteran is forced to live on the street.
    There is still a lot of work to do in addressing homelessness in 
general, and veterans' homelessness specifically.
    Some of that work is underway.
    In 2014, California voters approved Proposition 41, which created 
the Veterans Housing and Homelessness Prevention Program, and provided 
$600 million to fund it.
    It provides new affordable housing for veterans and their families, 
with an emphasis on developing housing for veterans who are homeless or 
at risk of homelessness.
    It places a priority on projects that combine housing and 
supportive services, and encourages and fosters innovative financing.
    The funding is administered by CalVet and the California Department 
of Housing and Community Development, in close consultation with the 
California Housing Finance Agency.
    To date, 17 projects comprising 546 units have been completed and 
are currently occupied by veterans. Another 47 projects comprising 
1,772 units are in the pipeline.
    Last year, voters passed another ballot measure, Proposition 1, the 
Housing Programs and Veterans' Loans Bond.
    Proposition 1 authorized $4 billion in bonds, including $1 billion 
for the CalVet home loan program.
    They also approved Proposition 2, which allows revenue from 2004's 
Proposition 63 to be utilized for housing programs.
    Specifically, this will fund the No Place Like Home program, which 
provides funding for development of permanent supportive housing for 
people who are in need of mental health services and who are 
experiencing homelessness, chronic homelessness, or who are at risk of 
chronic homelessness.
    The process for getting that money out the door is underway.
    More immediately, in 2018, $500 million was appropriated to 
establish the Homeless Emergency Aid Program (HEAP), to give flexible 
block grants to the state's 11 largest cities and 43 Continuums of 
Care.
    HEAP was designed to provide short-term help until larger programs 
come online.
    HEAP money was to help local jurisdictions address their immediate 
challenges while allowing them optimal flexibility in determining how 
to spend it. The idea was that local communities know their 
homelessness issues best and should be the ones to decide how to spend 
money to address them.
    HEAP came into being on July 1, 2018 - the start of the state's 
fiscal year - and by the end of 2018, all $500 million had been awarded 
to all 11 cities and 43 continuums of care, with all distributions 
completed by March of 2019.
    In other words, the state moved very fast to both create a program 
and get the funding out to local jurisdictions.
    The budget that took effect on July 1 of THIS year includes another 
$650 million in one-time block grant funding through a new program - 
the Homeless Housing, Assistance and Prevention Program.
    It, too, is bridge funding to help local jurisdictions until 
additional funding is available.
    This money will go to California's 13 largest cities, to Continuums 
of Care, and to California's 58 counties. They can use it for expansion 
of emergency shelters and navigation centers, rapid-rehousing, 
permanent supporting housing, and other such efforts.
    To get the money, the local jurisdictions must show how they will 
collaborate around a regional plan to address homelessness.
    Earlier, I mentioned Riverside County and how it has achieved 
``functional zero'' in terms of veterans' homelessness.
    One of the ways they did that was through the use of real-time 
data, which they used to come up with evidence-based solutions for 
veterans' homelessness.
    That's an approach California will use.
    The Homeless Coordinating and Financing Council is developing a 
State Strategic Action Plan to Address Homelessness to focus on how to 
prioritize its resources to efficiently and effectively address 
homelessness.
    It will provide guidance on evidence-based actions that can be 
taken to quickly and significantly reduce the number of individuals and 
families experiencing homelessness, and reduce the duration and number 
of episodes of homelessness that people experience.
    The work of creating that plan is underway. We have issued a 
request for white papers to get input and recommendations from experts, 
advocates and other stakeholders. We received 42 white papers which are 
currently under review.
    This fall, we will have a list of recommended actions and best 
practices and will reach out to key players to solicit their help and 
input. By the end of the year, we will convene focus groups and 
meetings with stakeholders and begin drafting the plan.
    By spring of next year, we hope to have a final plan to present to 
the Homeless Coordinating and Financing Council for their approval so 
that we can begin implementing the actions contained in the plan.
    As you can see, we have a lot of irons in the fire and I'm 
optimistic that all of these efforts will make a serious dent in 
homelessness in general and veterans' homelessness specifically.
    I am gratified that more attention is being paid to homelessness in 
recent years and that we are seeing the resources to make a positive 
impact on the problem.
    Thank you.

                                 <F-dash>
               Prepared Statement of Ronald J. Stark, MBA
    Summary:

    My testimony with respect to the Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity entitled ``Housing our Heroes: 
Addressing the Homeless Veterans Crisis'' is given in my role and 
capacity as the San Diego Veterans Coalition President of the Board, 
though it is certainly informed by observations in my several other 
roles listed on my curriculum vitae.
    The number of homeless veterans using the annual ``Point in Time'' 
method seems to always be met with challenges of being under reported, 
over reported, a subjective measure, using an unreliable method co 
counting veterans on the streets early in the morning, and it use self-
reports to interviewers with minor incentives.
    It seems that with current technologies, we could develop and 
implement more sophisticated methods to have a more real-time estimate 
of the number and condition of our veterans who are homeless.
    The SDVC has supported and promoted safeguarded, cross-sector data 
sharing that provides a much more reliable estimate to use to determine 
how much funding and programming is required, and where.
    In SD County we have been using the SD United platform backbone 
system (powered by 2-1-1 SD) to screen, partially enroll, refer, and 
intake veterans into services.
    This platform can provide a reliable number of how many veterans 
use a particular service and collect valuable demographic information 
to direct policy.
    SD United is capable of being interoperable with a larger Community 
Information Exchange nationally that includes input from public health, 
the VA, community-based providers, and private practices. I can compare 
profiles and aggregated report of how many veterans are homeless, and 
their services requests and usage, unmet needs, demographics, and 
geographic location.
    Anecdotally, we hear there are veterans, especially female 
veterans, are functionally homeless going from one friend or family 
member to another, sleeping in their cars parked off street at a 
friend's, relative's, or a compassionate community member's residence, 
a business parking area, and other creative resourceful means.
    An expanded Community Information Exchange would go a long way 
accurately determine how many veterans are homeless and using such 
means to survive.
    We have come a long way in terms of programs and systems for 
veteran who homelessness, and successfully intervened and halted the 
trend, but there is one group of homeless veterans who are in desperate 
need of an immediate system change.
    It has been widely reported that individuals with mental illness, 
substance use disorder, and homeless age much faster than their peers 
in the general population because of a variety of contributing factors; 
unsanitary living environments, poor hygiene, inability to self-manage 
and navigate healthcare, transportation, etc.
    I have directly observed this in San Diego County in my work over 
the years as Logistics Coordinator and Site Supervisor of the San Diego 
Stand Down for Homeless Veterans and Their Families.
    I am convinced that because homeless veterans age at a more rapid 
rate, and they are the leading of a growing general population of aging 
veterans.
    At Stand Down for the past several years I have seen more and 
homeless veterans using canes, walkers, wheel chairs, assisted by a 
caregiver, and in need of geriatric medical services for foot and 
extremity care, and more extreme care for infections, and other 
cognitive ills associated with aging.
    Many/most of these veterans leave stand down and return to the 
streets because they do not meet the criteria for current programs. 
These are incredibly poignant situations and some will die on the 
streets if we do not change the criteria to align with their needs and 
cognitive capacity.
    I urge the Nation to act quickly to come alongside of these aging 
homeless veterans.

                                 <F-dash>
                Prepared Statement of Kimberly Mitchell
    Mr. Chairman, Mr. Ranking Member: Thank you for the opportunity to 
appear before you today to provide testimony about the housing needs of 
veterans.
    I am Kim Mitchell, President and CEO of Veterans Village of San 
Diego. We are a not for profit housing provider here in San Diego and 
we serve more than 2,000 military veterans each year. I also serve on 
the Board of Directors of the California Association of Veteran Service 
Agencies, CAVSA, and offer my testimony on behalf of both VVSD and 
CAVSA today.
    I want to begin by acknowledging the many men and women in the 
audience today who have served our country in uniform. Thank you for 
your service.
    Mr. Chairman, I am reassured by the title of today's hearing: 
veteran homelessness is a crisis. It is one that touches both rural and 
urban parts of our country, and one that requires immediate resources 
and attention if we are ever going to get ahead of it.
    Today, in San Diego, we are finally catching our breath. The last 
two years have been difficult, as a devastating outbreak of hepatitis 
plagued homeless communities across the region. In response, VVSD and 
our partners stood up an emergency shelter to provide safe, clean 
living conditions for an additional 200 veterans that were on the 
street and susceptible to this potentially deadly virus. We had to act 
fast, but I believe our response not only helped rebuild livelihoods, 
it also saved lives.
    As the immediate threat from hepatitis subsides, now is a perfect 
time for reflection. In my mind, the most important question is ``what 
can we do to prevent this from happening again?'' Improvements can be 
made across the board, but because of the work we do at VVSD, I can 
offer some concrete recommendations about what the VA can do to help.
    First, we need to expand the VA's Grant Per Diem program (GPD) by 
increasing the rates at which providers are reimbursed.
    GPD is the first line of defense against veteran homelessness and 
is widely regarded as a successful, short term program that helps at-
risk veterans get back on their feet. The program works, and VVSD and 
my fellow CAVSA members strongly support the goals and structure of the 
program as it operates today.
    It is worth noting, however, that the significant structural and 
regulatory changes to GPD three years ago made it more challenging to 
administer. VVSD and CAVSA commend the VA for improving the 
effectiveness of this important program, but note that the changes 
added significant costs to grantees. As such, we ask that Congress or 
VA increase reimbursement rates by at least 25%. This modest increase 
will result in community partners like VVSD being more able and willing 
to expand the number of beds they offer, especially to individuals 
participating in the ``Bridge'' and ``Clinical'' tracks.
    Second, we need to better leverage project-based HUD-VASH vouchers 
by contracting out supportive services to the qualified veteran housing 
providers that receive these vouchers.
    As administrators of HUD-VASH project-based grants, VVSD and CAVSA 
members bear the burden of the VA failing to maintain its 25:1 ratio of 
case managers to program participants. In our facilities, we see that 
VA case management staff often fail to even show up to provide our 
tenants with the mental health, job training and social services 
support they need. As a result, we end up funding this support out of 
our own pockets. As non-profits, this is hard to do. It is also 
especially frustrating given the fact that Congress has consistently 
funded these positions! It's just that the VA can't seem to get the 
staff into the field.
    There are two solutions to this problem:

    <bullet>  Congress could enact legislation that awards the 
recipient of a project-based HUD-VASH housing voucher with the 
commensurate funding to administer the services associated with that 
voucher. Or;
    <bullet>  The VA and HUD Secretaries-which have virtually unlimited 
authority to waive law and regulation to improve the administration of 
HUD-VASH-could issue a directive to accomplish the same goal.

    Either way, the routine failure of the VA to provide the casework 
associated with HUD-VASH is a significant drag on the effectiveness of 
the program and must be remedied without delay.
    Mr. Chairman, Mr. Ranking Member, this concludes my oral remarks. I 
want to again thank you for shining a light on this important issue, 
and working to improve the effectiveness of VA's Homeless Housing 
programs. I am happy to answer any questions the Committee may have.

                                 <F-dash>
                Prepared Statement of Matt Schillingburg

THE PROBLEM:

    Less than 1% of the population of the United States ever volunteer 
to ``Support and Defend the Constitution of the United States of 
America against ALL enemies foreign and domestic.'' In doing so, 
service members become a special part of our nation that are willing to 
sacrifice their own lives to preserve the freedoms that so many 
American enjoy on a daily basis.
    Over 2 million servicemen and women have been deployed over 3 
million times since 9/11 in support of the Global War on Terror 
(Department of Defense [DoD], 2012). These troops have included Active 
Duty, Reserve, and National Guard personnel, with Reserve and National 
Guard personnel being utilized as a part of the operational force 
structure after 9/11. These numerous deployments are one of the many 
reasons that our service members decide to make the transition from 
military life to civilian life and these numerous deployments weigh 
heavy on the veteran, which in turn manifests itself in many different 
ways that contribute to the problem of veteran homelessness in the 
United States.
    Active Duty Veterans and their families, as well as transitioned 
veterans face significant housing challenges. California has the 
largest number of veterans' homelessness in the United States with 
9,600 veterans homeless. Homeless veterans in California represent 24% 
of the National Homeless Veteran Population.
    Many Veterans do not have stable housing after they separate from 
the Military, and many housing markets in California, it is difficult, 
if not impossible, for Military families and even single service 
members that might have once enjoyed Military Housing or barracks, to 
transition to the civilian housing market.

    <bullet>  Only 54 % of pre-9/11 veterans and 35% of post 9/11 
veterans lined up housing after the military in the San Francisco Area;
    <bullet>  Only 10% of pre-9/11 veterans and 18% of pre-9/11 
veterans reported being homeless in Orange County;
    <bullet>  Over a 25% of military veterans reported that they lacked 
housing in the past 2 years in Los Angeles according to HUD.

    1.5 million veteran households suffered severe housing costs in 
2011 and it has only become worse.
    According to Los Angeles Housing Authority, HUD-VASH housing 
vouchers have the lowest success rate among the housing vouchers that 
the Authority issues.
    ``Success'' is defined as placing the voucher recipient in a rental 
unit. The success rate for the Los Angeles Housing Authority's for non-
veteran housing is 67%. The success rate for HUD-VASH vouchers for 
veterans drops to 33%.
    This is unacceptable for our veterans and changes need to be made 
to address the issue.
    San Diego County has one of the highest population of veterans in 
the United States and with an estimated 250,000 Veterans. Most of those 
Veterans choose to stay in San Diego County after retiring from the 
military or transitioning from the service and many such as myself 
return to their roots here, in San Diego.
    I personally retired from the United States Army in Texas in 1996 
but returned to my home, here in San Diego. Transitioning from the 
military to civilian life was very difficult after a 20-year career in 
the military. Although, retired with a pension, I was faced with the 
difficulty of translating my military skill-set to the civilian world 
for job possibilities and securing housing for myself and my family. I 
was able to do so but so many veterans today cannot.
    It was a different time from when I retired in 1996 to present day 
transitions for service members in San Diego County.
    It is estimated that there are approximately 1,400 homeless 
veterans on the streets of San Diego.
    The question becomes, ``Is ending Veteran homelessness possible in 
states with the highest incidence (e.g., California and Washington), 
especially since some areas have seen an increase in homelessness?
    Answering that question is very complicated because many variables 
factor into that question.
    One of the variables is the ``HUD-VASH Program that combines the 
Department of Housing and Urban Development (HUD), Housing Choice 
Voucher (HCV) rental assistance for homeless veterans and their 
families with case management and clinical services provided by the 
Department of Veterans Affairs (VA) at its medical centers and in the 
community.''
    Here lies one of the problems with the program, ``Eligibility'' as 
defined on the Veterans Affairs Website; ``Veterans who are appropriate 
for this program (should read, ``Any Veteran'') must be VA health care 
eligible Veterans.'' VA makes that determination.
    Most healthy veterans and their and their families never apply for 
their veteran benefits as part of their transition from the military. 
Others that have been wounded or injured during the service often are 
provided with a Veterans Service Officer to complete their benefits 
package as they transition from the military.
    Those service members that never apply to the VA are not in the VA 
system. When they run into difficulties and when they become homeless, 
the VA can't help them with HUD-VASH.

PROPOSED SOLUTIONS:

    <bullet>  There needs to be a ``Hand Off'' between the Military 
Personal System to the VA Medical System to prevent this from happening 
so the service member is in the VA System and able to deal with any 
difficulties, such as veteran homelessness.
    <bullet>  There also needs to be a program that is part of the 
service members transition process when they leave the service, a 
Veteran Service Officer should be assigned to the service member to aid 
that veteran in insuring that his or her information is in the VA 
System.

    ``Success'' needs to be to help prevent and preempt veteran's 
homelessness and that means providing a smooth transition with all 
available resources for the transitioning veterans and their families 
and also a safety net of available resources when life takes a wrong 
turn for that veteran.
    Other variables are the job market, the housing market (to include 
available low-income housing), and mental health issues including PTSD. 
All these variables factor into answering the veteran's homelessness 
issue.

                                 <F-dash>
                   Prepared Statement of Greg Anglea
Introduction

    Increased Federal funding to address Veteran homelessness is 
working. Since 2010 the number of Veterans experiencing homelessness on 
a single night in the US has decreased nearly 50% from 74,000 to 37,800 
in 2018. That's the good news. The bad news is that 37,800 men and 
women who sacrificed to protect our country are now struggling in 
homelessness. They answered the call to service, yet their country is 
now failing to help them in their time of crisis. This is unacceptable. 
As a nation, we must do better.
    In order to do better we should take two actions:

    1)Increase funding for Veterans housing programs which are working 
but currently at capacity
    2)Fix just a few gaps in the current system by preventing more 
Veterans from becoming homeless, more efficiently connecting Veterans 
to existing housing programs, and strengthening support for disabled 
senior Veterans experiencing homelessness

Build Upon Proven Success, Overcome Current Gaps

    Between 2010 to 2017, Federal funding to address Veteran 
homelessness increased from $713M to $1.65B. This increase went almost 
entirely toward housing-focused Veteran programs:

    <bullet>  VA Grant & Per-Diem Program: Transitional Housing
    <bullet>  VA Supportive Services for Veteran Families: Rapid 
rehousing rental assistant to end or prevent homelessness
    <bullet>  HUD-VA Supportive Housing (VASH): Permanent housing 
voucher with supportive services for disabled Veterans

    Put simply, if we want to help end homelessness for Veterans today, 
and prevent more from becoming homeless tomorrow, we must increase 
funding for Veteran housing programs. Locally here in San Diego we have 
at least 1,100 Veterans experiencing homelessness. Most would benefit 
from these housing programs were they not at full capacity, and 
therefore inaccessible.
    Increased funding since 2010 has expanded the scope and scale of 
housing and supportive services for Veterans at risk of homelessness. 
While we must continue to scale with increased funding, we also must 
modify scope to address critical gaps in services. I will use the 
remainder of my time to identify these gaps and propose reasonable 
solutions.

1. Veteran-Focused Services

    The programs I've described are usually very effective for the 
Veterans who qualify and can access. But if you're homeless, how do you 
know where to go, who to talk to, and what you qualify for? The VA and 
HUD contract with local service providers to provide housing programs 
and services, which usually have very particular criteria. Those 
providers, including my own organization, are paid to fulfill the terms 
of particular programs. For example, social workers within a VA Grant & 
Per Diem Transitional Housing Program are funded to help Veterans who 
can qualify for that particular program. There is scant Federal funding 
for programs designed to help any Veteran in need.
    Locally we have private philanthropists who have pooled resources 
to pilot a program to meet this need, funding a Veterans Housing 
Stability Case Manager who can serve all Veterans in need. Let me share 
the impact of this person-centered model:
    Jacob* (name changed to maintain confidentiality), a 39-year-old 
Marine Corps Veteran, was referred to Interfaith Community Services by 
the Veterans Association of North County. On a limited income from 
disability benefits, due to injuries sustained during military service, 
Jacob had exhausted his personal savings. As a result of his 
disabilities, Jacob was also unable to work to increase his income, he 
fell behind on the rent, and in February 2019 was evicted. His 
disabilities so significant he was unable to move himself and his 
belongings. Jacob and his children were now homeless.
    Jacob's Veterans Housing Stability Case Manager connected him with 
a VA Benefits representative who was able to increase his service-
connected disability benefits to 100 percent. This same Housing 
Stability Case Manager helped Jacob find an apartment he could afford. 
Through another program within Interfaith, Jacob was able to obtain 
financial assistance to pay for the required move-in costs. Jacob and 
his children were able to end their homelessness within three months of 
working with the Housing Stability Case Manager for Veterans.
    Through the Grant & Per Diem program, the VA released a funding 
opportunity this year for what they called a ``Case Management 
Program'', which appeared aimed at meeting this void of Veteran-focused 
services. Unfortunately the design was too restrictive and the funding 
too minimal to cover the expenses of the services. Locally, despite the 
significant number of Veterans in San Diego experiencing homelessness 
on any given night, no local provider that I'm aware of even applied 
for this new VA Case Management Program grant; evidence of its 
inadequate level of funding.
    We need more Veteran-focused, not program-focused, professionals 
available to help any Veteran in their time of need. This will fill a 
critical service gap and increase the efficiency of existing Veteran 
programs by increasing ease of access.

2. Need for Flexible Funding to Prevent Homelessness

    The launch of the VA Supportive Services for Veteran Families 
(SSVF) in 2012 prioritized Veterans currently experiencing 
homelessness. Only a very small percentage of funding available to 
prevent homelessness for those at imminent risk of eviction. Locally, 
we see those homeless prevention dollars expended so quickly, they are 
rarely available when needed. Last year my organization was awarded a 
Federal grant to provide small amounts of rental assistance to prevent 
families from becoming homeless. It was supposed to be a 12-month 
grant. We were able to prevent homelessness for 41 families. I share 
this to demonstrate the dire need for flexible homeless prevention 
dollars, because that 12-month grant was allocated in just 10 days. 
Prevention works too. All 41 of those families are still housed.
    Please increase short-term, crisis-based rental assistance to 
prevent homelessness for Veterans and their families. At my 
organization we can usually prevent homelessness for less than $1,000 
per household. Once that same family becomes homeless it will cost more 
than $10,000 to effectively get them back into housing.
    Clarissa* (name changed to maintain confidentiality), a 37-year-old 
Navy Veteran and single mother of four children ranging in age from one 
to 14 years old, was referred to Interfaith by her Veterans Affairs 
Supportive Housing Case Manager and 2-1-1 San Diego. Clarissa and her 
children were living in a rental property in Chula Vista when her 
landlord informed her that her lease would not be renewed. At this 
time, Clarissa was attending classes to obtain her Associate's degree, 
and receiving supportive housing services through the HUD-VASH. Given 
her status as a student, Clarissa's income was limited to $738/month 
from child support, and she was receiving food assistance through 
CalFresh. As such, Clarissa did not have extra money available to save 
for a rental deposit for a new home and moving costs, she and her 
family were facing an imminent return to homelessness on June 1, 2019 
if she were unable to secure the funds needed for a rental deposit. In 
addition, Clarissa faced significant challenges with finding and 
obtaining approval for another rental property, as her credit had 
suffered significantly due to circumstances that occurred during 
previous periods of homelessness.
    With assistance from Interfaith, Clarissa was able to obtain 
approval to move into a three bedroom, two bath home in Chula Vista, 
which required a deposit of $2,350. Interfaith was able to help 
Clarissa with the deposit, using flexible rental assistance funding to 
prevent her and her children from becoming homeless. Her HUD/VASH 
voucher will provide ongoing support until her income increases and she 
can be self-sufficient, giving her time to stabilize herself and her 
family.
    More flexible funding is needed to prevent Veteran mom's like 
Clarissa from becoming homeless. Even Veterans connected with existing 
federally funded housing programs are at-risk of falling back into 
homelessness. Focused homeless prevention funds are a wise investment, 
much more efficient than waiting until a Veteran or Veteran family 
becomes homeless. Prevention also avoids the traumas often experienced 
during homelessness.

3. Enhanced Care for Aging and Disabled Veterans Experiencing 
    Homelessness

    Individuals experiencing homelessness tend to `age faster,'' they 
have a shorter life expectancy, more physical health problems and often 
present far older than their chronological age. As a result many are 
disabled/unable to work before they reach retirement age and become 
eligible for Social Security. There is a serious need for services for 
the aging/senior population. For years my organization met this need 
with VA Grant & Per Diem (GPD) level of supportive services, we worked 
primarily with very disabled, senior Veterans. Hundreds of Veterans 
graduated from this program into permanent housing of their own, most 
often utilizing the HUD-VA Supportive Housing program. However the VA 
Grant & Per Diem reimbursement rate of $47.36 per Veteran per day is 
simply insufficient to cover the costs to meet the needs of these 
senior, disabled Veterans. The program I've described was closed in 
2017. VA GPD funding for transitional housing works very well for 
higher functioning Veterans. A stepped-up level of funding and care is 
needed for disabled, senior Veterans experiencing homelessness.
    Between April 2017 and October 2018 Interfaith Community Services 
worked with a 79 year-old disabled Navy Veteran (Bill*). Bill had come 
into our program after being brought in by a distant family member who 
said that the Veteran was homeless and needed a place to live. Bill 
struggled with cognitive functioning and short-term memory issues. He 
had difficulties remember dates of appointments, keeping track of his 
medications, and managing his money. Bill had no significant 
relationships in his life, and was vulnerable to predators who 
pretended to be his ``friend'' in order to gain access to his service-
connected disability benefits. Even with multiple interventions, 
education, and intensive supports from his case management team and the 
VA, Bill continued to be defrauded out of his financial benefits by 
scam artists. Bill also suffered from paranoia and mood swings, but 
refused to complete a neurological assessment through the VA, and would 
not follow through with supports to help protect his money, let alone 
follow up with Primary Care. Bill required a higher level of care, but 
there was nothing available in the community that would meet his needs. 
Due to his increasing paranoia Bill eventually left the program and 
returned to homelessness.
    A higher level of care could have helped Bill. $47.36 per day will 
not cut it.
    The VA does fund a limited number of higher level Recuperative Care 
programs, for Veterans who are ready to discharge from local hospitals 
but do not have a home to recuperate in. My organization provides 16 
VA-funded Recuperative Care beds in Escondido. In 2018 we helped 88 
Veterans with Recuperative Care. 78% stabilized the physical or mental 
health condition they were initially hospitalized for and graduated to 
stable housing. Recuperative Care programs work and they should be 
expanded.
    For the growing senior Veteran homeless population, a step-up model 
is also needed, an option that can provide a higher level of care for 
people like John, bot whom do not need hospital-level Recuperative 
Care.

4. Modify HUD Definition of Homelessness

    Under the HUD definition of homelessness, Veterans residing in an 
institutional setting for more than 90 days are no longer considered 
homeless, and therefore ineligible for homeless programs, including 
SSVF.
    Example: Veteran Mark was homeless and has substance abuse history. 
He is placed in the San Diego Aspire Center 90 day intensive treatment 
program. Once discharged from that program, Jon is no longer eligible 
to receive rapid rehousing services and is forced back on the streets.
    Please modify the definition so as not to limit Veterans from 
receiving needed services after just 90 days in treatment in an 
institutional setting.

Conclusion

To summarize:

    <bullet>  Increased funding from 2010 - 2017 reduced Veteran 
homelessness nearly 50%
    <bullet>  The Transitional Housing, Rental Assistance, and 
Permanent Supportive Housing programs funded through that increase are 
working, though many who qualify do not receive help because the scale 
of these programs must be increased
    <bullet>  We must also modify in scope how we address and prevent 
homelessness.
    <bullet>  Many, like Jacob, simply did not qualify in their time of 
crisis. In his case he was helped through privately-funded resources. 
Many though are not so fortunate. More veteran-focused services and 
flexible, homeless prevention funds are critically needed, like those 
that helped Clarissa.
    <bullet>  In other cases, like that of Bill, the available programs 
simply don't meet the need. A level of care greater that the current 
Grant & Per Diem Transitional Housing rate of $47.36 per day is needed 
to care for disabled, senior Veterans at risk of and experiencing 
homelessness.
    <bullet>  For this with the most severe health needs, additional 
Recuperative Care is needed.

    Thank you for your time today, for inviting me to share our 
experiences and expertise helping Veterans and Veteran families 
overcome homelessness. I look forward to and offer anything that 
Interfaith Community Services or myself can do to help this committee 
in your work.

                                 <F-dash>
                  Prepared Statement of Tamara Kohler
    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the Senate Committee on Veteran Affairs, Subcommittee on Economic 
Opportunities

Introduction

    My name is Tamera Kohler, I am the Chief Executive Officer of the 
Regional Task Force in the Homeless (RTFH) for the San Diego area. On 
behalf of our Board of Directors and members, I thank you for the 
opportunity to share our views with you this morning. The Regional Task 
Force on the Homeless is the Housing and Urban Development (HUD) 
Continuum of Care (CoC) for the San Diego County, the second-largest 
county in the State of California. We have a large geographic area and 
population, for context the population in San Diego County is nearly 
3.4 Million, a population larger than 22 of the states in the nation.
    We are one of over 400+ CoC across this nation designed to promote 
a community-wide commitment to the goal of ending homelessness; provide 
funding for efforts by nonprofit providers, and State and local 
governments to quickly rehouse homeless individuals and families while 
minimizing the trauma and dislocation caused to homeless individuals, 
families, and communities by homelessness; promote access to and effect 
utilization of mainstream programs by homeless individuals and 
families; and optimize self-sufficiency among individuals and families 
experiencing homelessness.
    We work collectively with our funding partners, such as the 
Veterans Administration (VA) to tailor a local homeless crisis response 
system through data-driven planning, purposeful collaboration, targeted 
aligned resources and coordination of efforts while providing guidance 
and technical assistance around proven evidence-based practices and 
emerging promising practices to effectively and efficiently use 
resources to address and alleviate homelessness. This includes all 
efforts undertaken with local, state and federally funded agencies, 
faith-based organizations, non-profit organizations, health 
organizations, and others. These programs provide outreach, prevention, 
diversion, emergency shelter, transitional housing, short term rental 
assistance, housing subsidies and supportive housing along with food, 
health services, employment services, connection to social services, 
legal aid and case management support for thousands of homeless in our 
region, both sheltered and unsheltered, those at-risk, and formerly 
homeless each year.
    I appreciate the opportunity to focus on Veteran homelessness in 
this statement.
    What we know about homelessness Nationally:
    In 2017, over 550,000 people are experiencing homelessness on any 
given night, with 40,056 veterans and 35% unsheltered.

    What we know about homelessness in California:
    In 2017, over 134,000 people are experiencing homelessness on any 
given night, with 11,472 veterans and 68% unsheltered.

    Veterans experience homelessness in every state but nearly one-
third reside in just two states, California (24.5%) and Florida (7.4%), 
according to 2017 PIT estimates.

    With these numbers in mind, I will focus my statement and testimony 
on two areas - risks factors of veteran homelessness and two highly 
vulnerable veteran subpopulations- female veterans and elderly 
veterans.

Focus: Veterans risks factors for homelessness

Housing affordability:
    With rents rising much faster than wages, the burden of affording 
rent is looming larger and larger for many veterans, especially those 
that are aging and on fixed incomes, and, in, some cases becoming 
insurmountable.
    According to the Zillow Group Consumer Housing Trends Report 2017, 
79 percent of renters who moved in the last 12 months experienced an 
increase in their monthly rent before moving to a new place. And over 
half (57 percent) said that hike was a factor in pushing them out the 
door and into another rental. Only 21 percent of renter households 
didn't report experiencing a rent increase.
    Nearly a third (30 percent) of households nationwide, representing 
roughly 73 million adults, report they're struggling or just getting by 
financially. Most extremely low-income Americans spend greater than 50% 
percent of their income on rent. Increasingly, major metro areas are 
becoming out of reach for those who aren't earning more than minimum 
wage, and this is becoming increasingly true even in markets that have 
historically been more affordable. This is especially difficult on 
those on fixed incomes.
    As an example, according to the National Low Income Housing 
Coalition, San Diegans need an income of nearly $30 an hour to afford a 
1 bedroom unit at 30% of their income.
    In our regions Point-in-Time count survey the question was asked, 
what do you need to end your homelessness? 60% stated a rental subsidy 
or financial assistance. Increases in rent, tight rental markets and 
limited housing stock all contribute to the difficulty finding adequate 
and affordable housing and our HMIS data shows higher than the national 
average returns to homelessness after housing assistance due to 
unaffordable rent without assistance.

Limited resources for Prevention and Rapid Resolution:

    Housing ends homelessness. This includes preventing homelessness by 
maintaining current housing. Conditions that increase veterans' risks 
for experiencing housing instability and homelessness include poverty, 
unemployment, and economic hardships, trauma, mental health conditions 
(including but not limited to PTSD), substance use disorders, family or 
relationship conflicts, disruptions in connections to social support 
networks, social isolation, and incarceration. These episodes of 
homelessness can be rare, brief and non-recurring if we can address 
them quickly with flexible resources within Prevention and Rapid 
Resolution SSVF funding. We need more information to help understand 
which Veterans and their families are most at-risk of experiencing 
homelessness. Is it a combination of risk factors? This information 
will help to tailor prevention strategies.
    Increasing resources for targeted prevention and rapid resolution 
efforts are needed, especially in areas of high rent costs, for our 
highly vulnerable veteran households and those on fixed incomes. This 
funding needs to be more flexible, client choice focused and include 
financial assistance, case management, and safety net system 
coordination among the services. Increasing the funding will allow us 
to collect better data to help determine which Veterans risk factors 
are having the most devastating effects that result in homelessness.

Focus: 2 rapidly increasing vulnerable homeless veteran subpopulations, 
    and those at risk of homelessness:

Aging population:

    Older Veterans are expected to be a majority of the population of 
Veterans who experience or are at risk of homelessness in the coming 
years. As members of this group get older, they are likely to have 
increasingly complex and age-related needs. Among participants in the 
VA's transitional housing programs, a significantly greater proportion 
of Veterans age 55 or older have serious medical problems, compared to 
younger Veterans, making them especially vulnerable to experiencing 
negative consequences related to homelessness.
    Homeless veterans are not just aging their needs are vastly 
different than younger veterans. With the greater numbers of Elderly, 
Homeless Veteran come significantly different challenges than our 
system has been designed to serve. Long term healthcare issues and 
independent living options will become greater challenges and housing 
options more limited. Attention to this emerging urgent need is needed 
by both the VA and HUD CoC Homeless system.
    Data from the RTFH Homeless Management Information System (HMIS) 
for the San Diego CoC shows significant increases in our population 
over the age of 62 in just 2 years. In the 1st quarter of 2017, 1 in 5 
or 20% of veterans were 62 or older, 2 years later in the 1st quarter 
of 2019, 1 in 4 or 26% of veterans are now 62 or older.
    Additionally, during this same time frame in 2017, 12% of those 
served with SSVF Rapid rehousing were 62 or older, in 2019 it has 
increased to 18%. We need more permanent housing resources and options 
for elderly homeless veterans who are currently being served by short 
term SSVF.

Female Veterans:

    Women make up more than 15% of all active-duty members of the armed 
forces and are expected to be about 12% of the nation's Veterans by 
2025. With this increase, there will likely be an increasing number of 
women Veterans who are experiencing or at risk of homelessness in the 
coming years. Compared with their non-Veteran peers, women Veterans 
report higher rates of childhood maltreatment: physical, emotional, 
sexual abuse - 1/3 enlisted women have a history of childhood sexual 
abuse. Women Veterans generally-and homeless women Veterans, 
specifically-have reported joining the military to escape family 
violence or other pre-military adversity.
    Veteran women are more than twice as likely as non-Veteran women to 
experience homelessness.
    The characteristics of Veteran women who experience homelessness 
are different from Veteran men. More than one-third of Veteran women 
who experience homelessness have experienced military sexual trauma 
(MST), and they have lower rates of substance abuse and mental health 
problems than Veteran men who experience homelessness.
    For Veteran women, and women in the general population, intimate 
partner violence (IPV) is also associated with and contributes to 
homelessness and housing instability. Women Veterans face an elevated 
risk of experiencing IPV, compared to women who have not served in the 
military, and women patients are screened for recent IPV when they 
receive outpatient care at VA medical facilities. One study of VA 
health records found that nearly one in four (24%) women who screened 
positive for IPV within the past year were also experiencing 
homelessness or housing instability, compared to one in ten (10%) women 
who screened negative for IPV. When adjusting for age and race, women 
who screened positive for past-year IPV were nearly three times as 
likely to be experiencing homelessness or housing instability, compared 
to other women Veterans.
    Finally, Veteran women experiencing homelessness are more likely to 
be a part of a family with children, compared to Veteran men. Focused 
attention to Homeless Prevention and Rapid Rehousing for Female veteran 
households with a sense of urgency and focus safe housing options are 
imperative. These services need to assess for and address experiences 
of trauma and housing instability together and ensure access to mental 
healthcare, especially related to MST, IPV, and PTSD.

Focus: Building on Success

    VASH, GPD & SSVF:

    Without question one of the most impactful and successful 
coordinated efforts to address homelessness has been the partnership 
between HUD and VA in the VASH voucher programs. This single dedicated 
resource has reduced the numbers of veterans significantly with nearly 
a 50% reduction along with the introduction of the SSVF programs to 
rapidly rehousing and prevent homelessness for veteran families.
    Updates to the GDP programs have been beneficial in allowing for 
bridge housing within its programming. The VA can allow for facility 
upgrades to meet the safety and security needs of women veterans, 
veterans with chronic mental health issues, and aging and disabled 
veterans - all rapidly growing populations. GPD programs need to 
capitalize on expertise in outreach, case management, and landlord 
engagement to make homelessness brief and non-recurring.
    The continued options within SSVF are transformational with Rapid 
Resolution and the most recent opportunity with SSVF shallow subsides. 
In which 12 communities, one of which is San Diego, will model the 
shallow subsidy option for high-cost rent areas. This focused attention 
to housing affordability as a primary factor contributing to 
homelessness and housing instability makes this longer-term modest 
subsidy is a welcomed option.

Focus: Data-driven decisions

    Despite these areas of success we are missing critical information 
on the characteristics and needs of Veterans who experience unsheltered 
homelessness to better tailor and target strategies and resources. We 
need greater data collected by outreach on the unsheltered population. 
We need to better understand the risk factors for returns to 
homelessness among Veterans being served by the HUD-VASH and SSVF 
programs and more data on the numbers of Veterans experiencing 
homelessness who have dishonorable discharges or are otherwise not 
eligible for VHA health care services.

Conclusion

    Thank you to the committee for holding your field hearing here in 
Southern California on the Veterans homeless crisis. Nowhere is the 
struggled more real as those experiencing homelessness tonight are more 
likely to be unsheltered than sheltered or housed. We must acknowledge 
there are continuing and growing serious issues and major challenges in 
this work and it will take our best efforts, collectively and 
individually to dig deeper, to stretch our understanding, and test our 
assumptions, and be bold in our determination and decisions. We must 
not be afraid to act, to learn, analysis and coordinate at the system 
level not only as individual programs or funding sources but as leaders 
too. We need to be nimble and act with urgency to address local 
homeless issues and scale up proven practices that the data show are 
effective. We must fully utilize all of the resources we have as 
efficiently and as collaboratively as possible. We ask this committee 
to continue to fully fund the VA homeless and housing programs and work 
to increase these dedicated resources to serve veterans so their 
homelessness may be rare, brief and nonrecurring. We need to return 
dignity to our citizens, and remove the demoralizing effects 
homelessness has on communities that struggle to meet the needs of its 
most vulnerable citizens and Veterans.

                                 <F-dash>
                        STATEMENT FOR THE RECORD

                National Coalition for Homeless Veterans
    Chairmen Takano and Levin, Ranking Members Roe and Bilirakis, and 
distinguished Members of the House Committee on Veterans' Affairs, 
Subcommittee on Economic Opportunity:

    On behalf of our Board of Directors and Members across the country, 
thank you for the opportunity to share the views of the National 
Coalition for Homeless Veterans (NCHV) with you. NCHV is the resource 
and technical assistance center for a national network of community- 
based service providers and local, state and Federal agencies that 
provide emergency, transitional, and supportive housing, food, health 
services, job training and placement assistance, legal aid and case 
management support for thousands of homeless, at-risk, and formerly 
homeless veterans each year. We are committed to working with our 
network and partners across the country to end homelessness among 
veterans.
    Since June of 2014, 77 communities and three states have achieved 
the Federal benchmarks and criteria for ending veteran homelessness. 
This is an important proof point highlighting that ending veteran 
homelessness nationwide is in fact, an achievable goal. We have seen 
the annual point-in-time (PTT) count of veterans experiencing 
homelessness decrease by nearly 50 percent since 2009, largely a 
testament to the dedication and hard work of local service providers, 
community partners, and Veterans Affairs Medical Center (VAMC) staff. 
While in the abstract this is progress toward the goal of ending 
veteran homelessness, in real tangible terms, it is life changing for 
the thousands of veterans who are now stably housed.
    However; this progress is challenging to maintain, requiring a 
dedication to surpassing the status quo, and we can not afford to rest 
on our laurels. With 37,878 veterans experiencing homelessness on a 
given night according to the latest PTT count, we still have much work 
to do across the nation. From NCHV's perspective, even a single 
homeless veteran is one too many. The need is paramount that we double 
down on our efforts to ensure that homelessness is rare, brief, and 
nonrecurring, for veterans and all Americans.
    For communities and their providers, this means looking at 
community-level data to not only identify acuity but to ensure that 
service providers across the community have the resources, expertise, 
and the will to partner to meet these needs. Providers must continue to 
implement evidence-based strategies like Housing First that help 
homeless veterans quickly access permanent housing, employment, and any 
resources they may need to attain housing stability. This also requires 
partnering with other providers to create housing-first-oriented 
systems that incorporate a variety of housing interventions, including 
appropriately-sized transitional housing options in communities where 
these facilities fill gaps in services or where the housing crisis is 
so extreme that permanent housing placement takes longer than it 
should. We need to recognize that successful implementation of this 
model also includes access to health and mental health care, and 
wraparound services like benefits assistance and employment and 
training services to ensure that a placement is indeed sustainable. The 
needs of veterans must come first, thus it is NCHV's position that 
Housing First should never mean housing only. Tt is also NCHV's view 
that shelter and services alone can not solve this problem. Deep 
investments in affordable housing must be paired with solid 
implementation of housing-first oriented systems and housing-first 
interventions in order to see true success.
    Congress must ensure that the key programs that serve veterans 
experiencing homelessness are sufficiently funded, not only because it 
is the right thing to do for those that have served, but because 
Congress has taken the issue on as the first step in reducing overall 
homelessness across the nation. At NCHV, we do not advocate for the 
unqualified growth of resources for the sake of expanding programs. 
NCHV recommends the following authorizing and appropriations levels for 
the key programs below:

    <bullet>  Homeless Veterans Reintegration Program: $100 million
    <bullet>  Grant and Per Diem: $300 million
    <bullet>  Supportive Services for Veteran Families: $400 million
    <bullet>  HUD-VASH: $40 million for new vouchers
                                HUD-VASH
    Homelessness is a multifaceted and complex problem that differs for 
each veteran experiencing it, thus interagency collaboration is needed 
to address these issues. One great example of interagency collaboration 
is the Supportive Housing or HUD-VASH program, which has allowed VA to 
focus resources more efficiently by pairing VA-funded case management 
with a HUD- funded Section 8 voucher for the most vulnerable veterans. 
Congress has been very generous with the creation of new HUD-VASH 
vouchers since 2008. NCHV applauds the foresight entailed by this 
consideration, and thanks Congress for these vouchers on behalf of the 
tens of thousands of veterans who have been and are currently being 
housed.
    Yet, the simple fact remains that there is still much unmet need 
across the country. A recent survey of NCHV members indicated that 86% 
of our respondent communities still had an unmet need for permanent 
supportive housing and had a wait-list of veterans for HUD-VASH. As 
such, NCHV is calling for an increased investment in the effective HUD-
VASH program to address the entire homeless veteran population by 
simply covering the wait lists as intended. While Vouchers have been 
effective, the continued messaging to communities regarding the ability 
to project-base these vouchers is a crucial consideration. The 
affordable housing crisis in the US is widespread. Tt is most acute in 
urban areas, particularly, in the areas of the country with the highest 
concentration of homeless veterans: California, New York, and Florida. 
Tn certain areas of the country with extremely low rental housing 
vacancy rates, the ability to locate housing is the single biggest 
barrier to housing veterans. For many communities experiencing this 
crisis, the only way to find affordable housing in which to place 
formerly homeless veterans is to create it. Vouchers must be 
distributed to areas with the most acute needs and housing authorities 
should consider project-basing more frequently, particularly in low-
vacancy, high-cost markets.
    NCHV additionally recommends a change to how HUD-VASH case 
management is funded and delivered. Other VAMCs have case managers who 
focus solely on the clinical aspects of case management, such as mental 
health care and medication management, at the expense of case 
management that focuses on basic tenets of housing stability. 
Successful case management in permanent supportive housing must address 
both clinical and housing stability aspects to adequately support the 
client, and in too many instances, veterans are not able to access that 
standard of care, leaving affordable housing providers responsible for 
filling that gap. NCHV appreciates that Congress has generously created 
additional vouchers to support tens of thousands of veterans in 
affordable housing, however; complications in appropriating case 
management funds to pair with these vouchers results in delayed 
implementation on account of a broken appropriations process. We ask 
that VA funding pertaining to HUD-VASH case management be re-designated 
as Mandatory Spending to reflect the importance bestowed upon it. 
Keeping case management in the discretionary spending column hamstrings 
the cross departmental importance of its function, limiting the 
efficiency and effectiveness of case managers, the programs they 
administer, as well as negatively impacting the veterans that require 
their services when funding levels are insufficient or called into 
question in any one of the multiple Federal departments funding bills 
or processes.
                                ``OTH''
    Veterans who received an ``Other Than Honorable'' type of discharge 
from military service are in practice ruled ineligible for VA health or 
other benefits. This is true even though many studies in recent years 
have shown that a large portion of ``Other Than Honorable'' (or, 
``OTH'') discharges are the result of service members behavioral 
changes from repeat deployments or unaddressed Post Traumatic Stress 
(PTS). The Department of Defense has acknowledged PTS as a vector to 
OTH discharges, and has directed review boards for discharge status 
upgrades to take it into account. NCHV in the 114th Congress was proud 
to champion legislation that ended a two- decades-long regulatory issue 
which was preventing OTH veterans from receiving VA homeless services 
such as the Supportive Services for Veteran Families (SSVF) program or 
the Grant and Per Diem (GPD) program. The reason for our support of 
that bill, now enacted as PL 114-315, was simple: despite a single-
digit percentage of America's veterans receiving OTH discharges, they 
are disproportionately represented, making up 15% of the homeless 
veteran population nation-wide. Tn some urban locales the percentage of 
OTH veterans among the homelessness population can rise to nearly 30%. 
NCHV strongly supports Representative Scott Peters' recently introduced 
legislation that will expand HUD-VASH eligibility to veterans with 
``Other Than Honorable'' discharges, cited as the ``Veteran Housing 
Opportunities and Unemployment Support Extension (Veteran HOUSE) Act f 
2019''. We have committed as a nation to ending veteran homelessness - 
these men and women are veterans, and we must not leave them behind.
                       Grant and Per Diem Program
    The Grant and Per Diem Program (GPD) plays a key role in providing 
transitional housing and making recovery-oriented services available 
for those veterans who indicate they would benefit from them. NCHV has 
supported the GPD reboot, as it generated several types of program 
models service providers can implement in order to adjust their 
operations more harmoniously into a housing-first oriented system of 
care for homeless veterans. As grantees have shifted to utilizing these 
models, we have heard consistently that challenges have cropped up, due 
to the expense of hiring higher level clinical staff with the 
appropriate credentials to operate certain higher-intensity models such 
as clinical treatment, hospital to home, clinical, and low demand. NCHV 
humbly suggests that Congress modify the law such that providers 
operating these models are eligible to receive 125% of the state home 
per diem amount. There is precedent for amending the per diem payment 
structure to accommodate the augmented needs of the Special Needs Grant 
population, and the higher costs of operating GPD Transition-in-Place 
beds, thus NCHV urges Congress to take swift action to make similar 
changes to ensure providers can afford to continue operating these 
models.
                   Training and Technical Assistance
    As with any major change in a large Federal program, sufficient 
training of grantees is required to ensure the most optimal outcomes 
for veterans. We urge you in Congress to amend 38 USC 2064(a) to 
expressly authorize VA to provide technical assistance to grantees on 
issues related to operating their grants, national best practices, and 
working collaboratively with key partners. We also respectfully request 
that the expired authorization of appropriations language in 38 USC 
2064(b) be modified to include $2,000,000 in perpetuity for the 
training of GPD grantees and contractors through the HCHV program.
                            Data Collection
    Data is a key component of an effective community-based response to 
veteran homelessness. HUD has mandated that grantees utilize a homeless 
information management system (HMTS) to coordinate local efforts to 
serve people experiencing homelessness and to collect client-level data 
on individuals experiencing and at-risk of homelessness, the services 
and housing interventions they utilized, and the services and housing 
interventions available in their communities. Data completeness 
improves a community's ability to coordinate services, and identify and 
plan for impending trends in inflow. The SSVF program has mandated its 
use for its grantees, and providers have been able to incorporate that 
into their annual budgets. The GPD program has not yet mandated its 
grantees to do so and many do not. The per diem payment structure does 
not allow for those who may be receiving the maximum per diem payment 
per bed, to do so without decreasing the standard of service to 
veterans in their programs. We merely ask that the Committees consider 
a legislative change to authorize an appropriation for a reimbursement 
of reasonable HMTS user fees for GPD grantees who are otherwise unable 
to access HMTS through their SSVF, Continuum of Care, or other local 
grants received. The improvement in data quality will improve community 
responses to veteran homelessness which in turn will enhance outcomes 
and efficiencies.
            Successful Program Transitions and Adaptability
    Providers in several communities that have made tremendous progress 
in ending veteran homelessness have raised concerns to NCHV regarding 
barriers to changing their programs that arise from receiving a GPD 
Capital Grant in the past. There are certain communities where the 
population of veterans experiencing homelessness has decreased such 
that there are significant vacancies in local GPD programs. NCHV has 
heard from several providers in this situation, who are interested in 
transitioning away from operating a GPD grant and into operating 
permanent supportive housing, or affordable housing. They have been 
told that in order to fulfil both VA real property recapture 
requirements and the real property disposition requirements of the 
Office of Management and Budget (OMB), they would need to pay the 
government a percentage of the current market value of their property 
to fulfil the requirements of their grants, many of which date back to 
the early 1990s. Obviously, real property can appreciate in value 
dramatically over the course of several decades and in some cases these 
payments are prohibitively expensive for nonprofit service providers. 
Tt is the view of NCHV that no grantee should face a financial penalty 
for their success in achieving housing stability in their communities. 
Further, grantees shouldn't be required to embark on a capital campaign 
to pay the government in order to adjust their operations to meet their 
community's most pressing need. We request that Congress promulgate 
legislation to waive both VA real property recapture requirements and 
OMB real property disposition requirements for grantees who would like 
to leave the GPD program under certain circumstances. These would 
include, but not be limited to, making a long-term commitment to 
utilizing the property for which the grant was received to serve 
homeless or at risk individuals, especially veterans, by offering 
affordable permanent housing, permanent supportive housing, or other 
services to address housing instability.
                           Suicide Prevention
    There is a correlation between homelessness and multiple factors 
currently being addressed by Congress including suicide. The risk for 
suicide among the homeless has been estimated at five times higher than 
that of the general population, and studies have shown the high 
prevalence of suicidal ideation and attempts among older homeless and 
at-risk veterans.
                            Opioid Epidemic
    Further, there is significant overlap between the populations of 
veterans experiencing homelessness and opioid use disorders. VA's own 
researchers have found that veterans seeking medication assisted 
treatment for opioid use disorders are ten times more likely to be 
homeless than veterans seeking care at VA. These highly vulnerable 
veterans are not the type of population that should be subject to wide 
variability when it comes to case management.
                              In Summation
    Thank you for the opportunity to submit this testimony for the 
record and for your continued interest in ending veteran homelessness. 
Tt is a privilege to work with the House Committee on Veterans' Affairs 
to ensure that every veteran facing a housing crisis has access to 
safe, decent, and affordable housing paired with the support services 
needed to remain stably housed.
                        Bills Supported by NCHV
    H.R.95 - 116th Congress (2019-2020) Homeless Veteran Families Act

    H.R.716 - 116th Congress (2019-2020) Homeless Veterans Legal 
Services Act

    H.R.3749 - 116th Congress (2019-2020) Legal Services for Homeless 
Veterans Act

    S.980 - 116th Congress (2019-2020) Homeless Veterans Prevention Act 
of 2019

    H.R.2223 - 116th Congress (2019-2020) Helping Homeless Veterans Act 
of 2019

    H.R.2224 - 116th Congress (2019-2020) Homeless Veterans with 
Children Reintegration Act

    H.R.2398 - 116th Congress (2019-2020) To amend the United States 
Housing Act of 1937 and title 38, United States Code, to expand 
eligibility for the HUD-VASH program

    S.767 - 116th Congress (2019-2020) Housing for Homeless Students 
Act of 2019

    H.R.2399 - 116th Congress (2019-2020) Homes for Our Heroes Act of 
2019

    S.2061 - 116th Congress (2019-2020) Veteran Housing Opportunities 
and Unemployment Support Extension Act of 2019

    H.R.165 - 116th Congress (2019-2020) Tmproving Access to Homes for 
Heroes Act of 2019

    H.R.2924 - 116th Congress (2019-2020) Housing for Women Veterans 
Act

    H.R.1856 - 116th Congress (2019-2020) Ending Homelessness Act of 
2019

    H.R.3272 - 116th Congress (2019-2020) Services for Ending Long-Term 
Homelessness Act

    S.923 - 116th Congress (2019-2020) Fighting Homelessness Through 
Services and Housing Act

    H.R.1978 - 116th Congress (2019-2020) Fighting Homelessness Through 
Services and Housing Act

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
